APPENDIX A

12/08/2020 “See News Release 047 for any Concurrences and/or Dissents ”

dlmtrf of tip

of ^Eomstaita

YVONNE RENEA BOUTTE
NO.2020-C-00985
VS.
KEVIN LEE BOUTTE

IN RE: Kevin Lee Boutte - Applicant Defendant; Applying For Writ Of Certiorari.
Parish of Beauregard, 36th Judicial District Court Numher(s) 20101241-B, Court of
Appeal, Third Circuit, Number(s) 19-734;

December 08, 2020
Writ application denied.
BJJ
JLW
JDH
JTG
Crichton, J., would grant and docket and assigns reasons.
Crain, J., w ould grant.
McCallum, J., would grant.

O

la

12/08/2020 "See News Release 047 for any Concurrences and/or Dissents."
SUPREME COURT OF LOUISIANA
No. 2020-C-00985
YVONNE RENEA BOUTTE
VS.
KEVIN LEE BOUTTE
On Writ of Certiorari to the Court of Appeal,
Third Circuit, Parish of Beauregard

CRICHTON, J., would grant and docket and assigns reasons:
I would grant and docket this writ application to examine whether an
application of John Howell v. Sandra Howell,

U.S.___, 137 S.Ct. 1400, 197

L.Ed.2d 781 (2017) is necessary' under the facts of this matter. Specifically, this
Court has not yet considered whether federal law preempts state law concerning the
disposition of military' disability benefits, and further, upon application of Howell,
whether a previously executed consent judgment concerning division of benefits
between ex-spouses is subject to a res judicata exception under La. R.S. 13:4231.
Consequently, I find this application presents significant unresolved issues of law
and I would therefore grant and docket it for this Courf s thorough consideration.

2a

02/09/2021 "See News Release 006 for any Concurrences and/or Dissents.”

YVONNE RENE A BOUTTE
NO.2020-C-00985
VS.
KEVIN LEE BOUTTE

IN RE: Kevin Lee Boutte
Applicant Defendant; Applying for
Rehearing/Reconsideration. Parish of Beauregard, 36th Judicial District Court
Number(s) 20I01241-B, Court of Appeal. Third Circuit, Number(s) 19-734;

February 09,2021
Application for reconsideration not considered. See Louisiana Supreme Court Rule
IX, §6.
JLW
JDH
JTG
W1C
JBM
PDG
Crichton, J., would grant and assigns reasons.

Supreme Court of Louisiana
February 09, 2021
/

:0

3a

02/09/2021 “See News Release 006 for any Concurrences and/or Dissents.”
SUPREME COURT OF LOUISIANA
No. 2020-C-00985
YVONNE RENEA BOUTTE
VS.
KEVIN LEE BOUTTE
On Writ of Certiorari to the Court of Appeal, Third Circuit, Parish of Beauregard

CRICHTON, J., w ould grant rehearing and assigns reasons:
As I have stated before, while Supreme Court Rule IX, § 6 prohibits
reconsideration of a prior writ denial, an exception to this rule must exist in order to
further the interest of justice in certain extraordinary circumstances w here good
cause is shown. See State v. Hauser. 20-429 (La. 10/6/20), 302 So.3d 514 (mem)
(Crichton, J., w'ould grant reconsideration and assigning reasons), citing Harris v.
Am. Home Assurance Co.. 2018-589 (La. 8/31/18), 251 So. 3d 397, 398 (Crichton,
J., w'ould grant reconsiderationy.Marable v. Empire Truck Sales ofLa.. LLC, 20171469 (La. 11/17/17), 230 So.3d 212 (Crichton, J., w'ould grant reconsideration): and
State v. Franklin, 2019-1454 (La. 1/14/20), 286 So. 3d 1039 (mem) (Crichton, J.,
additionally concurring w'ith grant of reconsideration). Because I find good cause
showm in this case, specifically, the issue of whether an application of the recent
decision in John Howell v. Sandra Howell, __ U.S.

, 137 S.Ct. 1400, 197

L.Ed.2d 781 (2017) (the Court holding the Uniformed Services Former Spouses'
Protection Act preempted States from treating as divisible community property' the
military' retirement pay that a veteran has waived in order to receive nontaxable
service-related disability benefits) is necessary under the facts presented, 1 would
grant rehearing and docket the case for oral argument.

4a

APPENDIX B

STATE OF LOUISIANA
COURT OF APPEAL, THIRD CIRCUIT
19-734

YVONNE RENEA BOUTTE
VERSUS
KEVIN LEE BOUTTE

$*$*******
APPEAL FROM THE
THIRTY-SIXTH JUDICIAL DISTRICT COURT
PARISH OF BEAUREGARD, NO. C-2010-1241-B
HONORABLE C. KERRY ANDERSON, DISTRICT JUDGE
*****$****
D. KENT SAVOIE
JUDGE
it*********

Court composed of John E. Conery, D. Kent Savoie, and Jonathan W. Perry,
Judges.

AFFIRMED.

5a

SAVOIE, Judge.
Appellant Kevin Lee Boutte appeals the judgment of the trial court, granting
Appellee Yvonne Renea Boutte’s Exception of Res Judicata and dismissing his
petition. For the following reasons, we affirm.
FACTS AND PROCEDURAL HISTORY
Kevin Boutte and Yvonne Boutte were married on July 13, 1991. Kevin
served in the United States Army for over twenty years until November 1, 2009,
when he retired with an Honorable Discharge.

Yvonne filed for divorce in

December 2010. On January 19, 2012, the parties agreed to a consent judgment,
dividing Kevin’s military retirement using language in compliance with the
Uniformed Former Spouses Act.
On November 1, 2013, the United States Army awarded Kevin Combat
Related Special Compensation Disability (CRSCD) due to his Post-Traumatic
Stress Disorder (PTSD), Mood Disorder, Cognitive Disorder and Tinnitus. This
benefit was paid to Kevin instead of his retirement benefits. Yvonne received a
letter from the Department of Finance and Accounting Service (DFAS), the payor
of Kevin’s retirement benefits, on February 19, 2014, informing her that her
portion of Kevin’s retirement payments were terminated because Kevin was no
longer receiving retirement benefits.
Yvonne filed a Rule for Contempt and/or Rule for Allocation of Assets
Pursuant to [La.]R.S. 9:2801.1. On die morning of the May 22, 2014 hearing,
Kevin filed an Exception of No Cause of Action and No Right of Action asserting
that the disability payments were his separate property and were not divisible. On
that date, Kevin withdrew his exceptions, and the parties agreed to a stipulated
10 U.S.C. §1408

6a

Consent Judgment, which was signed on June 6, 2014.

The 2014 consent

judgment provides the following:
IT IS ORDERED, ADJUDGED, DECREED AND
STIPULATED that the defendant, Kevin Lee Boutte is in contempt of
court.
IT IS ORDERED, ADJUDGED, DECREED AND
STIPULATED that the parties agree that the defendant, Kevin Lee
Boutte, shall resume payment to the plaintiff, Yvonne Renea Boutte of
her forty-three percent (43%) interest in the defendant’s military
retirement pay and/or benefit including cost of living expenses as
ordered by the Consent Judgment and Voluntary Partition Agreement
dated January 19,2012.
Kevin continued to pay Yvonne forty-three percent (43%) of his CRSCD
benefits for several years.

In 2018, Kevin filed a Petition for Declaratory

Judgment, Alternative Petition to Annul Judgment, Alternative Petition to Modify
MDRO. In response, Yvonne filed an Exception of Res Judicata, No Cause of
Action and No Right of Action and in the Alternative Petition for Specific
Performance and Injunctive Relief.

The trial court ruled in favor of Yvonne,

granting the Exception of Res Judicata and dismissing Kevin’s petition. Kevin
now appeals.
LAW AND ANALYSIS
I.

Standard ofReview
“The standard of review of a peremptory exception of res judicata
requires an appellate corut to determine if the trial court’s decision is
legally correct.” Fletchinger v. Fletchinger, 10-0474, p. 4 (La.App. 4
Cir. 1/19/11), 56 So.3d 403, 405. “[T]he doctrine of res judicata is
stricti juris and, accordingly, any doubt concerning the applicability
of the principle must be resolved against its application.” Id., at 406.

McCalmont v. McCalmont, 19-738, p. 6 (La.App. 3 Cir. 4/29/20),___So.3d

2

_______ y

7a

II.

Res Judicata
The only issue presented to this court is whether the trial court erred in

finding that res judicata applied to a consent judgment in a family law case. The
doctrine of res judicata is found in La.R.S. 13:4231, which states:
Except as otherwise provided by law, a valid and final judgment is
conclusive between the same parties, except on appeal or other direct
review, to the following extent:
(1) If the judgment is in favor of the plaintiff, all causes of action
existing at the time of final judgment arising out of the transaction
or occurrence that is the subject matter of the litigation are
extinguished and merged in the judgment.
(2) If the judgment is in favor of the defendant, all causes of action
existing at the time of final judgment arising out of the transaction
or occurrence that is the subject matter of the litigation are
extinguished and the judgment bars a subsequent action on those
causes of action.
(3) A judgment in favor of either the plaintiff or the defendant is
conclusive, in any subsequent action between them, with respect
to any issue actually litigated and determined if its determination
was essential to that judgment.
Kevin argues that a consent judgment was ordered without an adjudication
of the issues, therefore, res judicata does not apply. For this proposition, he cites
La.R.S. 13:4232, which lists the res judicata exceptions, stating:
A. A judgment does not bar another action by the plaintiff:
(1) When exceptional circumstances justify relief from the res judicata
effect of the judgment;
(2) When the judgment dismissed the first action without prejudice; or,
(3) When the judgment reserved the right of the plaintiff to bring
another action.
B. In an action for divorce under Civil Code Article 102 or 103, in
an action for determination of incidental matters under Civil Code
Article 105, in an action for contributions to a spouse's education or
training under Civil Code Article 121, and in an action for partition of
community property and settlement of claims between spouses under

3

8a

R.S. 9:2801, the judgment has the effect of res judicata only as to
causes of action actually adjudicated.
It is Kevin’s contention that this case falls under the exception found in Part
(B) regarding “an action for partition of community property and settlement of
claims between spouses under R.S. 9:2801In that instance, “the judgment has
the effect of res judicata only as to causes of action actually adjudicated.” Id.
In the present case, while a hearing was set for May 22, 2014, it did not take
place. Rather, the parties appeared and entered a consent judgment on the record.
The minutes show:
This matter is fixed this date for hearing. The petitioner is present
with counsel Mr. Seastrunk. The defendant is present with counsel
Beth Carr. An agreement has been reached between the parties and a
stipulation is entered in the record concerning the issues before the
Court. Judgement is rendered in accordance with the stipulation of
the parties and will be signed when presented as to form. The Court
takes notice that the petitioner has received an envelope with a stated
cash payment of $1100.00. Mr. Seastrunk will prepare the judgment.
Counsel for the defendant withdraws Exception of No Case of Action
and No Right of Action, filed today.
In order for the exception to apply, we must first determine whether the May
22, 2014 hearing concerned “an action for partition of community property and
settlement of claims between spouses under RS. 9:2801.” Set for hearing was
Yvonne’s Rule for Contempt and/or Rule for Allocation of Assets Pursuant to
[La.]R.S. 9:2801.1. Louisiana Revised Statutes 9:2801.1 is entitled “Community
Property; allocation and assignment of ownership” and states:
When federal law or the provisions of a statutory pension or
retirement plan, state or federal, preempt or preclude community
classification of property that would have been classified as
community property under the principles of the Civil Code, the spouse
of the person entitled to such property shall be allocated or assigned
the ownership of community property equal in value to such property
prior to the division of the rest of the community property .
Nevertheless, if such property consists of a spouse’s right to receive
social security benefits or the benefits themselves, then the court in its

4

9a

discretion may allocate or assign other community property equal in
value to the other spouse.
Kevin’s failure to pay Yvonne’s portion of his military retirement payment
was before the trial court on May 22, 2014. Yvonne requested that Kevin be
ordered to pay but, in the alternative, she requested the trial court “allocate or
assign the ownership of other property of equal value pursuant to R.S. 9:2801.1.”
As such, we find that the action before the court on May 22, 2014, which resulted
in the consent judgment at issue was “an action for partition of community
property and settlement of claims between spouses under R.S. 9:2801.” La.R.S.
13:4232(B).
Next, we must decide whether the “action [was] actually adjudicated.” Id.
Kevin argues that the case was not “actually adjudicated” because the 2014
Consent Judgment is silent as to CRSCD benefits. We disagree.
A review of the record shows that Yvonne filed a Rule for Contempt and/or
Rule for Allocation of Assets Pursuant to [La.]R.S. 9:2801.1 on April 9, 2014. In
the rule, Yvonne alleged that Kevin breached the 2012 Consent Judgment by
“willfully interfering and failing to pay mover her percentage share of his military
retirement and by wrongfully taking possession and converting her monies for his
own use.” In response, Kevin filed Exceptions of No Cause of Action and No
Right of Action. He argued that his retirement pay was transferred to CRSCD and
there had been recent caselaw stating that CRSCD was not subject to division of
community property.
A hearing was to be held on these issues on May 22, 2014. Discussions
were held off the record.

When the case was called, Kevin withdrew his

exceptions and the parties entered into the 2014 Consent Judgment.

5

In the

10a

judgment, Kevin stipulated (or agreed) that he was in contempt of court and agreed
to resume payment to Yvonne “her forty-three percent (43%) interest in the
defendant’s military retirement pay and/or benefit[.]”

He also agreed to pay

arrearages.
Kevin complains that the judgment does not specifically state he was to pay
Yvonne CRSCD benefits, rather it states he would pay her from his “military
retirement pay and/or benefit.” We find that the judgment is referring to CRSCD
benefits when it states “and/or benefit.” On November 1, 2013, the military
awarded Kevin CRSCD benefits, converting 100% of his retirement pay into said
benefits.

On February 19, 2014, Yvonne received a letter from the military’s

finance office informing her that she would no longer receive her share of Kevin’s
retirement benefits due to this conversion.

In April 2014, Yvonne filed for

contempt of court based on the lack of payment and conversion of funds. In
response, Kevin filed exceptions explaining that his retirement pay was transferred
to CRSCD benefits, therefore, he stopped payment to Yvonne based on recent
caselaw.

In May 2014, Kevin admitted that he was in contempt of court and

agreed to pay Yvonne her share from his “retirement pay and/or benefit.” Based
on the sequence of events found in the record, the only logical conclusion to be
reached is that the benefits referenced in the 2014 Consent Judgment are the
CRSCD benefits.
.In Riche v. Riche, 09-1354 (La.App. 3 Cir. 4/7/10), 34 So.3d 1004, this court
dealt with the issue of whether a community property settlement was “actually
adjudicated” between the parties.

A compromise agreement was reached,

partitioning the community property. Thereafter, Ms. Riche filed a supplemental

6

11a

petition for partition of the community regarding Mr. Riche’s business. Mr. Riche
filed an exception of res judicata. This court determined that:
“A compromise is a contract whereby the parties, through concessions
made by one or more of them, settle a dispute or an uncertainty
concerning an obligation or other legal relationship.” La.Civ.Code art.
3071. A compromise precludes subsequent litigation based on the
matter that was compromised. La.Civ.Code art. 3080. Comment (b)
to article 3080 provides that the preclusive effect of the article is
tantamount to that of former article 3078, which provided that &
transaction or compromise had the effect of a thing adjudged;
therefore, res judicata would attach as though the document were a
judgment.
Id. at 1008.
This court found that the compromise was valid. Ms. Riche argued that
certain issues regarding Mr. Riche’s business were not specifically referenced in
the judgment, and, therefore, they were not litigated. This court determined that,
while the issues were not specifically addressed, the language in the compromise
agreement made it clear that the Riches did not reserve any issues for litigation for
a later date. This court upheld the trial court’s grant of res judicata.
“A consent judgment is a bilateral contract wherein the parties adjust their
differences by mutual consent and thereby put an end to a lawsuit with each party
balancing the hope of gain against the fear of loss.” McDaniel v. McDaniel, 567
So.2d 748, 750 (La.App. 2 Cir. 1990). The 2014 Consent Judgment adjudicated
the issues asserted by Yvonne in the rule for contempt. As such, we find that the
action was “actually adjudicated” and that res judicata applies.
Similar to the compromise agreement in Riche, Kevin’s petition for
declaratory judgment attempts to re-litigate the issues that were already decided by
the 2014 Consent Judgment. Therefore, we affirm the trial court’s grant of res
judicata in this case.

7

12a

We note the United States Supreme Court case of Howell v. Howell,
U.S.

, 137 S.Ct. 1400 (2017), wherein it was held that CRSCD benefits are

sot divisible nor axe they part of the community. Kevin argues that this case
applies to the case at bar. Had this issue not been litigated previously in this matter,
an application of Howell would be necessary. However, La.Civ.Code art. 1971
allows parties “to contract for any object that is lawful, possible, and determined or
determinable.” Unless the object of the contract is restricted by the government
because it violates public policy, a party has the freedom to contract for any object.
South East Auto Dealers Rental Ass’n, Inc. v. EZ Rent To Own, Inc., 2007-0599
(La.App. 4 Cir. 2/27/08), 980 So.2d 89, writ denied, 08-684 (La. 4/18/08), 978
So.2d 355.

Kevin agreed in the 2014 Consent Judgment to continue paying

Yvonne the agreed upon portion of his retirement pay “and/or benefit.” The 2014
Consent Judgment is a legal, binding judgment, and Kevin is barred by res judicata
from re-litigating the payments.
DECREE
The trial court’s judgment granting Yvonne Boutte’s exception of res
judicata is affirmed. Costs of this appeal are assessed to Kevin Boutte.
AFFIRMED.

8

13a

APPENDIX C

o

• o

!

F/i~£D

DOCKET NO.: 20101241-B

36™ JUDICIAL 0ISTRI&

YVONNE RENEA BOUTTE

eC^L

VERSUS

PARISH OF BE

KEVIN LEE BOUTTE

STATE OF LOUISIANA

FILED:
DEPUTY CLERK
JUDGMENT
THIS CAUSE having come on for hearing pursuant to the defendant, KEVIN LEE
BOUTTE’S, Petition For Declaratory Judgment, Alternative, Petition To Annual
Judgment, Alternative Petition To Modify MDRO And Incorporated Memorandum
Of Lav* and the plaintiff, YVONNE RENEE BOUTTE'S Exception of Res Judicata, No
Cause of Action and No Right of Action In The Alternative Petition For Specific
Performance And Injunctive Relief on the 29th day of April 2019.
Present in Court were Ronald K. Seastrunk, attorney for and the plaintiff,
YVONNE RENEA BOUTTE, and David Hesser, attorney for and the defendant, KEVIN
LEE BOUTTE.
The Court, after considering the law, evidence and stipulation of the parties,
hereby finds as follows:
IT IS ORDERED, ADJUDGED AND DECREED that the plaintiff, YVONNE
RENEA BOUTTE'S Exception of Res Judicata is granted and the defendant, KEVIN LEE
BOUTTE’S Petition is dismissed.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that the plaintiff,
YVONNE RENEA BOUTTE'S Exception of No Right of Action is denied.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that the plaintiff,
YVONNE RENEA BOUTTE’S Exception of No Cause of Action is denied.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that the plaintiff,
YVONNE RENEA BOUTTE'S request for attorney fees is denied and that the plaintiff,
YVONNE RENEA BOUTTE and the defendant, KEVIN LEE BOUTTE shall each pay fifty
percent (50%) of the court cost.
JUDGMENT RENDERED on the 29th day of April 2019. READ ANDJjIGNED in
CP

Chambers in DeRidder, Louisiana this

day of

BP
----------- :---------- Of**

09

2$

^

Taj -t

UDGE,

UDICIAL DISTRICT COURT

00307

*
—fO
CO
3C

"~ED19.

r~
m
o

(

\J

\PPROVED AS TO CONTENT AND FORM:

Respectfully Submitted.

Respectfully Submitted:

ATTORNEY AT LAW
2820 Jackson Street
Alexandria, Louisiana 71301
(318)542-4102
Bar Roll #23131

kONALD k. seastrunk
ATTORNEY AT LAW
104 North Third Street
Leesville, LA 71446
(337) 238-5100
Bar Roll #21871

00308

15a

•

O
DOCKET NO.: 20101241-B

YVONNE RENEA BOUTTE

URT

36™
PARISH OF BEAu1fg$|rfrp

VERSUS

STATE OF LOUISIANA

KEVIN LEE BOUTTE

^

Pi, %e..
DEPUTY QgERK

FILE

JUDGMENT
THIS CAUSE having come on for hearing on the 22nd day of May 2014.
Present in Court were Ronald K. Seastrunk attorney for and the plaintiff,
YVONNE RENEA BOUTTE, and Elizabeth B. Carr, attorney for and the defendant
KEVIN LEE BOUTTE.
The Court after considering the law, evidence and stipulation of the parties
hereby finds as follows:
IT IS ORDERED, ADJUDGED, DECREED AND STIPULATED that the
defendant, KEVIN LEE BOUTTE is in contempt of court.
IT IS FURTHER ORDERED, ADJUDGED, DECREED AND STIPULATED that
the parties agree that the defendant, KEVIN LEE BOUTTE, shall resume payment to
the plaintiff, YVONNE RENEA BOUTTE of her forty three percent (43%) interest in
the defendant's military retirement pay and/or benefit including cost of living
expenses as ordered by the Consent Judgment and Voluntary Partition Agreement
dated January 19th, 2012.
IT IS FURTHER ORDERED, ADJUDGED, DECREED AND STIPULATED that
the parties agree that the defendant, KEVIN LEE BOUTTE, will pay an arrearage
amount of Two Thousand and Twenty Five Dollars ($2,025.00) to the plaintiff,
YVONNE RENEA BOUTTE. The defendant, KEVIN LEE BOUTTE will agree to pay
the plaintiff, YVONNE RENEA BOUTTE, One Thousand One Hundred Dollars
($1,100.00) of this amount in open court today, May 22nd, 2014. The remaining Nine
Hundred Twenty Five Dollars ($925.00) shall be paid within 180 days from May 22nd,
2014.
IT IS FURTHER ORDERED, ADJUDGED, DECREED AND STIPULATED that
the parties further agree that the defendant, KEVIN LEE BOUTTE shall pay the
plaintiff, YVONNE RENEA BOUTTE, One Thousand Dollars ($1,000.00) in attorney
fees. This attorney fees shall be paid within 180 days from May 22nd, 20'fl.6cl

00077

/

o
2-

JUDGMENT RENDERED in Beauregard, Louisiana this

!

day of

2014.

APPROVED AS TO CONTENT AND FORM:

ELIZABETH B. CARR
ATTORNEY AT LAW
202 W. North Street
Leesville, Louisiana 71446
(337) 238-4704
Bar Roll No.: 31089
Attorney for Plaintiff

RONALD K. SEASTRUNK
ATTORNEY AT LAW
104 N. Third Street
Leesville, Louisiana 71446
(337) 238-5100
Bar Roll No. : 21871
Attorney for Defendant

00078

17a

# o

o

YVONNE RENEA BOUTTE

36TH JUDICIAL DISTRICT COURT

VERSUS NO. 20101241 -B

PARISH OF BEAUREGARD

KEVIN LEE BOUTTE

STATE OF LOUISIANA

/

VOLUNTARY PARTITION OF COMMUNITY OF
YVONNE RENEA BOUTTE AND KEVIN LEE BOUTTljAyVvj
BE IT KNOWN that on the date(s) written below, before me, Notary Public, duly commissioned
in and for the Parish and State written below, personally came and appeared: YVONNE RENEA BOUTTE
and KEVIN LEE BOUTTE, who now declare that they desire to settle and liquidate the community which
formally existed between them and that they have agreed to settle the same in the following manner to-wit:
The parties agree that KEVIN LEE BOUTTE surrenders all rights, titles and interest in the
following described property to YVONNE RENEA BOUTTE:
i

i)

Home located at 1213 Allison Drive, DeRidder, LA bearing property description;
Lotfourteen (14) of RAINBOW FOREST NO. 3, being a subdivision ofa
part of the West Halfof the Southwest Quarter of the Northeast Quarter
(W/2 ofSW/4 ofNE/4) and a part ofthe West Halfof the Northwest
Quarter ofNortheast Quarter (W/2 ofNW/4 ofNE/4), all in Section
Twenty-nine (29), Township Two (2) South, Range Nine (9) West,
Beauregard Parish, Louisiana, as per plat recorded under Instrument
File No. 375042, recorded in Conveyance Book 587, Page 171.

I

2)
3)
4)

5)
6)
O

2007 Dodge Caliber, bearing VIN #1B3HB48B57D521584
2004 Chrysler PT Cruiser, bearing VIN #3C4FY58B44T295702
Zero turn lawn mower
Generator
4-wheeler
Two shelves for shrunk

The parties further agree that YVONNE RENEA BOUTTE shall be responsible for payment of the
insurance and notes on the above mentioned property. YVONNE RENEA BOUTTE agrees to hold
KEVIN LEE BOUTTE, harmless on that debt. KEVIN LEE BOUTTE agrees that at the time the loans
are paid, he will sign any and all documents necessary for transfer of titles to YVONNE RENEA
BOUTTE.
The parties further agree that YVONNE RENEA BOUTTE surrenders all rights, titles, and interests
in the following described property to KEVIN LEE BOUTTE:
1)
2)
3)
4)
5)
6)
7)
8)

9)

Antique Bedroom Set
Gun Cabinet and all guns
Antiques received from parents and grandparents (except those given to YVONNE RENEA
BOUTTE)
Tools and tool boxes
Baseball card collection
Trailer
Military items
Freezer in garage
Refrigerator in garage
00047

18 a

♦
■;

#

0

Q

Art work given by family
Personal items
Shot glass collection
Outside stereo
All hunting equipment
All softball equipment
GPS
Small television in spare bedroom
Couch
Recliner
All LSU items in spare room

10)
If)
12)
13)
14)
15)
16)
12)
18)
19)
20)

The patties agree that the parties shall retain possession of any and all movable property presently
in their possession not specifically mentioned above in this community property settlement.
Tlie parties further agree that the conveyances and transfers, obligations assumed, and promises and
obligations made as a part of this agreement, each and all constitute full and sufficient consideration and
cause for all other transfers, promises, and obligations contained in this agreement. As a result hereof, the
parties hereto discharge each other from any further accounting to the community which formally existed
between them. Each of the parties agrees and accepts this settlement and partition of the community of
acquets and gains, being fully infonned on all pertinent facts, and each considers the agreements and

1

stipulations contained herein to be fair and equitable to both parties.
ft

THUS DONE AND PASSED, inQu
1

day of
ar\

^3

/

Cr\||x,i.o (X.

1

(tcW

^

, 2012, in the presence of

U|

Parish, Louisiana, on the
and

CTH n \

, competent witnesses, who hereto sign theirnames with the said appearers

f

and me, Notary Public, after reading of the whole.

3

$
WITNESSES:

I
iBOUTTE

H
THUS DONE AND PASSED, in tesswtife, State of Louisiana, Parish of ^sasH^n the
day of ,

4

_, 2012, in the presence of ^ l/| £

4i

4?a-m

otln

D^.

A tx

and

, competent witnesses, who hereto sign their names with the said appearers

and me, Notary Public, after reading of the whole.
WITNESSES:
(i/WW f\LN(Jv k
/VONNE RIENEA BWTTE___—

^LuLk
S'

0

)

COO

ty Public

19a

•

#

YVONNE RENEA BOUTTE

36TH JUDICIAL DISTRICT COURT

VERSUS NO. 20101241-B

PARISH OF BEAUREGARD

KEVIN LEE BOUTTE

STATE OS«>UISIANA

(4.

FILEDc

DEPUTY :i

CONSENT JUDGMENT OF DIVORCE

/

This matter came before me on the 19lh day of January, 2012. When after considering the
pleadings, the Court entered into the following judgment
IT IS ORDERED; ADJUDGED AND DECREED that YVONNE RENEA BOUTTE be

i

awarded a divorce a vinculo matrimonii from KEVIN LEE BOUTTE, forever dissolving the bonds
r

»i

of matrimony existing heretofore between them.
ST IS FURTHER ORDERED, ADJUDGED AND DECREED that KEVIN LEE BOUTTE

1

shall pay unto YVONNE RENEA BOUTTE interim periodic support in the amount of FOUR
HUNDRED FIFTY AND NOl/OO ($450.00) DOLLARS for a period of 30 months from the date of
divorce.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that KEVIN LEE BOUTTE

I

will continue to pay the Care One bill in the amount of SEVEN HUNDRED THIRTY FIVE AND
NO/100 ($735.00) DOLLARS per month.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that YVONNE RENEA
BOUTTE is entitled to a forty-three (43%) percent share of KEVIN LEE BOUTTE’s military

*r

retirement pay and/or benefits, including cost of living expenses or any other retirement system in
which his military service was a significant part of the entitlement. The exact percentage was

!
determined in accordance with the SIMMS formula, as follows:

'A X

the number of months of
marriage during the member’s
Spouse’s % of disposable military retired pay:
credible military service =
Member’s total number of months
:
of credible military service
Date of Marriage
July 13, 1991
January 19, 2012
Date of Divorce
Total number of months of marriage
219 months
during service = ,
November 17,1988
Date entered service
November 1 2009
Date of retirement

The parties agree to the following:
1)

The parties are:
a)
Employee:
Address
Social Security #

Kevin Lee Boutte
301 Third Street, Broussard, La 70518
436-45-487.7

00049

20a

<

0

# 0
b)

2)

3)
4)
5)
6)

7)

8)

9)
10)

11)

12)

13)

14)
15)

16)

Date of Birth
Employer
Rank at time of Retirement
Former Spouse
Address
Social Security #
Date of Birth

08/07/1968
US Army
E-7
Yvonne Renea Boutte
1213 Allison Drive, DeRidder, La 70634
xxx-xx-4771
02/22/1965

This Court has jurisdiction over KEVIN LEE BOUTTE as required by 10 U.S. C.
1408 by reason of his residence in the territorial jurisdiction of this Court at the time
of the parties divorce.
This Court has jurisdiction over the subject matter as required by 10U.S.C. 1409.
KEVIN LEE BOUTTE entered into service in the United States Army on November
17,1988. His service ended on November 1, 2009.
The parties were married on July 13, 1991. A judgment of divorce was rendered in
docket number 20101241 -B on the 19“ day ofJanuary, 2012 in DeRidder, Louisiana.
KEVIN LEE BOUTTE assigns to YVONNE RENEA BOUTTE his interest in his
military retired pay and YVONNE RENEA BOUTTE shall receive payments at the
same time as KEVIN LEE BOUTTE, or as soon as possible thereafter.
The parties intend that this order qualify for direct payment of military pension
benefits under the Unifonned Former Spouses Protection Act, 10 U.S.C. 1408, et
seq. All provisions hereof shall be interpreted liberally so as to make this order so
qualify.
KEVIN LEE BOUTTE will cooperate with YVONNE RENEA BOUTTE in
executing an application for direct payment to her from his retired pay pursuant to 10
U.S.C. 1408 eq seq, and he agrees to execute all documents that DFAS may require
for direct payments.
KEVIN LEE BOUTTE rights under the Soldiers and Sailors’ Civil Relief Act, have
been observed and honored,
KEVIN LEE BOUTTE is responsible for making these payment directly to
YVONNE RENEA BOUTTE, beginning January 19, 2012, until such time as the
U.S. government begins deducting that amount and sending payment to YVONNE
RENEA BOUTTE directly.
When DFAS has determined that this order meets the requirements of the applicable
federal law and is a military pension division order, then it shall carry out the
provisions of this order. DFAS shall give written notice to the plaintiff at the address
contained in this order that this order meets the requirements for a direct- pay military
pension division order. DFAS shall also give written notice to KEVIN LEE
BOUTTE at the address contained in this order when direct-pay of military pension
will begin to YVONNE RENEA BOUTTE.

/

!

YVONNE RENEA BOUTTE further agrees that (a) any future overpayments to her
are recoverable and subject to involuntary collection from her or her estate; (b) she
shall notify DFAS about any changes in this agreement or the order affecting these
provisions of it, or in the eligibility of any recipient receiving benefits pursuant to it;
(c) she shall be responsible for the taxes on her share of KEVIN LEE BOUTTE’s
military retired pay; (d) she shall notify DFAS in writing of any new address upon
moving from the current address; and (e) she recognizing that any entitled to retired
pay ofKEVIN LEE BOUTTE shall begin on January 19, 2012.
YVONNE RENEA BOUTTE shall provide promptly to KEVIN LEE BOUTTE any
document or information that she needs in order to obtain direct payment of military
pension benefits and shall keep him informed at all times of her current address.
The monthly payments herein shall be paid to YVONNE RENEA BOUTTE
regardless of her marital status and shall not end at remarriage.
If entitled to received survivor benefits per Defense Finance and Accounting Service
and military retirement regulations, KEVIN LEE BOUTTE agrees to retain
YVONNE RENEA BOUTTE in the Survivors Benefit Plan.
The Defense Finance and Accounting Service, Cleveland Center, Garnishment
Operations, P.O. Box 998002, Cleveland, Ohio 44199-8002, be served with a
certified copy of this judgment.

00050

21a
!

• e

©

JUDGMENT READ, RENDERED AND SIGNED on the
iluuur

7

day of

, 2012, in DeiydAer, Louisiana.

JUDGE, 36™/UDIg5lArt)ISTRICT COURT
APPROVED AS TO FORM AND CONTENT:

Attorney for Kevin Lee Boutte
202 W. North Street
Leesville, La 71446
'(337) 238-4704

Ronald Seastrunk
Attorney for Yvonne Renea Boutte
lOTNorth 3ri Street
Leesville, La 71446
(337)238-5100

.

:HtU u» ixL EmH-ts

i

00051

22a

1

it)

I

DOCKET NO.: C -

FILED

36th

COURT
SSHiW*
PARI SHOffJtAUHtOARD

YVONNE RENEA BOUTTE
VERSUS

STATi?O^L6uiSIANA

KEVIN LEE BOUTTE

^

2^/: LOfO

FILED:

Deputy clerk

4

PETITION FOR DIVORCE
The petition of YVONNE RENEA BOUTTE, a resident of Beauregard Parish,
State of Louisiana, a person of the full age of majority, with respect represents:
1.
That the defendant herein is KEVIN LEE BOUTTE, a person of the full age of
majority, who is domiciled in and a resident of Lafayette Parish, State of Louisiana
whose address is 301 3rd Street, Broussard, Louisiana, 70518.
2.
That the parties of this action were married to each other on July 13th, 1991, in
Dillion, South Carolina. Thereafter, they established a marital home in Beauregard
Parish, State of Louisiana, where the same has remained continuously until the date of
separation on December 16th, 2010. The parties have not contracted a covenant
marriage.
3.
Petitioner intends to live separate and apart continuously, and without reconciling,
for a period of one hundred eighty days prior to filing a rule to show cause why a divorce
should not be granted.
4.
That two children were born issue of the marriage of the parties, but both have
reached the age of majority.
5.
Petitioner has insufficient income to support herself, and, therefore desires that
this Honorable Court grant an amount of.money for temporary and, in due time,
permanent spousal support.
6.
Petitioner, YVONNE RENEA BOUTTE, desires that she be granted the temporary
and, in due time, the permanent use of the family home located 1213 Allison Drive,

DO 00 9
DeRidder, Louisiana 70634.

23a

(

0

©

•

i

n

UDa/ith

Filed:. n
By;^

Deputy

Caoio-iam 5
THIS IS AN IMPORTANT RECORD
_______ SAFEGUARD |T.
!
________

ANY ALTERATIONS IN SHAOEO AREAS
RENDER FORM void

CERTIFICATE OF RELEASE OR DISCHARGE FROM ACTIVE DUTY
1. NAME {Lest, First, Middle)

BOUTTS, KEVIN LE£
4a, GRADE, RATE OR RANK

2. DEPARTMENT. COMPONENT AND BRANCH

—

3. SOCIAL SECURITY

army/ra
b. PAY <3RACE '

5. DATE Of BIRTH (YYYYMMOO)

SFC

E09
PLACE of ENTRY INTO ACTIVE DUTY
NEW ORLEANS, LOUISIANA

19630307

6. ReserWo!

’ERMINATION DATE

{'fTY'fMMDD)

^MEOP^coroiattime OF ENTRY

8a. LAST DUTY ASSIGNMENT AND MAJOR COMMANd"^^^^®
0083CMBN FC
""*■ COMMAND TO WHICH TRANSFERRED

I B, STATIONWHERESEPAFLATED
[FORT PQLK. LA 7145<j-4lHln

""----------------

MAR CON GP (RET!
1 RESERVE KAY. ST LOUTS
^1- PRIMARY SPECIALTY (Ust number, title ond yetra $nd months in^ *

10. SGU COVERAGE |
[none
AMOUNT: $400,000.00

mo

mS *"<*** P"*** o'

92Y40 03 UNIT SUPPLY SPEC - 9 YRS 4 Mns//
63X40 VEHICLE MAINT SUPVSR -20 YRS S°moo//
NOTHING FOLLOWS
0 YRS 5 M0S//

12. RECORD OF SERVICE

~

Y6AR(9)

a- DATCigNTBRED AP THIS PEftlQp

1993
2009
0016
0004
0000
0005
0000

b. SEPARATION DATS THig P^HIQQ
_ c, NET ACTIVE SERVICE THIS PERIOD

d. total prior active service
4, TOTAL PRIOR INACTIVE SERVICE
_ f. FORSIflN SERVICE
~“
a- SEA SERVICE

^STH2fwa?nw^5?i:///'ARMY
COMMENDATION
MEDAL
AWARD) //ARMY ACHIEVEMENT
MEDAT. nun
/MERITORIOUS UNIT COMMENDATION//ARMY
G000 CONDUCT MEDAL ($TH AWARD)//NATIONAL
ncrfNff SErvICE MEDAL {2ND AWARD)//SOUTH WEST
ASIA SERVICE MEDAL W/SRONXK//rnwT/T»

M0NTH{8)

DAY(S)

10
10
00
00
11
03
00 •

26
31
05
00
06
23
00

KFEKSCE?nn?//S^HI52NED
0FFICFK
COURSE,
12
/ /«' 2006//AIRBORNE COURSE,
3 WEEKS
igaa
Bicr?:'TmmDPEBATIOtiS COURSE, 1 WEEK., L997//
COURSE, 2 WEEKS, 20Q5//BASIC
X2S5D 0PFICER COURSE, B WEEKS, 2001
i
a?N?J?^?,EJHJ“_S00RSS' 2 WEEKS.

IN Br'ocy
YES 1" X.

NO

YES

NO

YES

16. DAYS ACCRUED LEAVE
Paid 0
SEPARATION

18. REMARKS

IMMEDIATE
ACXLVE

NO

/////

DESIGNATED IMMINENT DANGER PAY AREA//SPRVTrPT^'SFC//SERVED IN A
IRAQ 20050221-20060220 / /MEMBER ' WKrnMOrBTpn
ARABIA 19900825-19910402//SERVICE IN
I^SUED/ZCONT FROM BLOCK 13 : SERVICE STAI^Tfjro^WARnfT/rrn?^ £?„®SSV7CE'/'/OT,ITED STATES FLAG
//NON COMMISSIONED OFFICER PROFESSTONAT nimfnoSSSS
UAR 0N TERRORISM SERVICE MEDAL

//OVERSEAS SERVICE RIBBON (ISd aw^W/kS Sb
^WD)//ARMY SERVICE RIBBoS
ACTION BADGE//SENIOR PARACHUTIST BADGE//PARArmwr 0TS5?5L/%f'J£!//KO‘LIB-MDI' (KUWAIT) //COMBAT
DRIVER - WHEELED VEHICLE (S) CLASP//GERMANAMMYUMifirSMM?fT»DR2!fSS AND MECHAN*C BADGE WITH
14= COURSE, 1 WEEK, 1938//CONTRACTING OFFICER^TiPPREl^f^L ?£?®E ' SILVER//CONT FROM BLOCK
TRAINING COURSE, 1 WEEK, 1989//EOUAL OPPOsSr'J^^IfnSpp/^0?^??' 1 WEEK- 1996//DRIVERS

EQUESTS COPY 6 BE SENT TO
21. SIGNATURE OF MEMBER BEING SEPARATED

DIGITALLY SIGNED BY;

BOUTTE.KEVIN.LEE.1119006976

r.A

OlRECTOR, OP VET

* AFFAIRS_______
1 X 1 VE9 \
AUTH0R12:ED TO S1SN (Typedflame, grade, tide and signaturs)
DIGITALLY SIGNED;BY? IRVIN.PAMELA.$.1230838573

| NO

PAMELA.IRVIN, GS11, RETIREMENT SVC OFF
23. TYPE OF SEPARATION

RETIREMENT
"25. SEPARATION AUTHORITY
AR 635-200,

SPECIAL ADDITIONAL INFORMATION (For us* by euiborited apandas cnM-------------------

_________ ■

24. CHARACTER QF SERVICE (InCJutit upQr3ti(iS)
__________HONORABLE_________
26. SEPARATION CODE

CHAP 12

28. NARRATIVE REASON FOR SEPARATION

RBD
---------

27. REENTRY COOE

4R

SUFFICIENT SERVICE FOR RETIREMENT
29. OATES OP TIME LOST OURING THIS PERIOD (YYYYMMOO)
NONE

DD FORM 214-AUTOMATED, FEB 2000

30. MEMBER REQUESTS COPY 4
(initials) kLb

PREVIOUS E0ITION18 OBSOLETE.
GENERATED SYTRANSPSOCi

0002a

MEMBER - 4

©

&'

•

;

i

DO FORM 214 CONTINUATION PAGE
NAME; fiQUITS

' KEEK

/

:n lee

2 WEEKS> 1999//FIELD SANITATION TEAM CERTIFICATION COURSE, 1
''JUMPMASTER COURSE, 2 WEEKS, 2Q04//LOG 73, SUPPLY COURSE i wfpk- ?rmn//Ma»i
C0URSE‘ 2 WEEKS' 1394//NUCLEAR BIOLOGICAL CHEMICAL DEFENSE COURSE 1 WEEK
RETA1L SUPPLY SYSTEM SUPERVISOR COURSE, 2 WEEKS 1997^STAN^A^D
SUPpfvTr(W»cp SYSTEM C00RSE- 3 WEEKS, 2001//UNIT ARMORER COURSE, 2 WEEKS, 1994//UNIT
SUPPLY COURSE, 8 WEEKS, 2000//WARRIOR LEADERS COURSE, 4 WEEKS 1995//WHEEL VEHICLE
REPAIRER COURSE, 17 WEEKS, 19B9//NOTHINS FOLLOWS
199S//WHEEL VEHICLE
*

SIGNATURE OF MEMBER BEING SEPARATED
BOUTTE. KEVIN. LEE. 11198S6976

OFFICIAL AUTHORIZED TO SIGN
IRVIN.PAMELA.S.1230838573
PAMELA IRVIN. GS11. RETIREMENT SVC OPP

IFIED

IE COPY

(PAMELA IRVIN

00026

25a

.

1

Q

And what is the next payment that's showing on that

2

statement.

3

A

That's half my retirement.

4

Q

Okay, and that was how much you were receiving back

5

in

6

A

Sorry; yes.

7

Q

-- in January of 2014?

8

A

Yes.

$744.96.

I
i

MR. HESSER:

9
10

Okay, I would go ahead and offer --

11

BY MR. HESSER:

12

Q

13

statements that you produced to me for court today for

14

the whole year of 2014?

15

A

16

And these are -- The rest of these are your bank

Yes.
MR. HESSER:

17

I would submit the 2014 bank statements as

18

Exhibit 6.

19

MR. SEASTRUNK:

20

Once again. Judge, I'm going to object as

21

to the relevance of that document as to the

22

issue before the Court at this time.

23

THE COURT:

24

Subject to the objection, I will receive

25

them for purpose of judicial economy as it

26

relates to the declaratory judgment request.

27

BY MR. HESSER:

28

Q

29

Related Special Compensation?

30

A

;31

'in [the rnTTitaryT

32

Q

'Sir; phy, is at that you are [receiving [Combat
[For, injuries [received dated back through my service
[Knell (what [are; [the jtwb [main; 'inYuries you received;?

MARTHA A. KIBLKR, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00350,

31

26a

1

A
g

iPT'SD ;a-n-d jUMiglg BIM IfjPfll
SSS ■Brain gfUj^g SMI gH

H

[Y e sj;*

you

i
l iga»¥i

I

l i

Pn ^TlyTBasxs?,

i K

EMI

7

MR. SEASTRUNK:

8

Judge, objection to this line of question.

9

Once again, it's irrelevant.

10

MR. HESSER:

11

I

I think it , goes to the basis, Your Honor,

12

for the client*.

13

THE COURT:

14

Well, it's not for this Court to — I'm

15

going to sustain the objection,

16

any dispute or quarrel with the VA's

i? ;

determination that he has a Combat Related

‘8

Injury or else he wouldn't be receiving CRSC.

19

That sort of begs the question.

20

really have any relevance as to what his combat

21
22

I don't have

It doesn't

related injury is or the percentage,

i

That's

23

BY MR

24

Q

25

divorce back in 2012?

26

A

Yes.

Q

Let me show you -- It's already been offered into

21

i
i
3

not for me to decide or question*

;

28

HESSER,:

Sir, do you recall seeing the consent judgment of

evidence, but I'm just going to show you a copy of that
■■

29

document.

30

Sir, can you look at this and tell me if that is a

31

copy of the consent judgment of divorce from 2012?

32

A

:

Yes, it is.

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00351

32

27a

File

!

"■^SSSffiBSaBS8^
November 1.2013
Combat-Related Special Compensation

i

SFC (RET) Kevin L. Boutte

^Ciigmai AppiicatioeiCate; October IS, 2013

!

I
I
I

Subiect: Aphy CRSC De^ettor,
Dear SFC Boutte (RET):
We have reviewed your claim fo
approved your claim in

t

9411

Post-Traumatic Stress
Disorder, Mood Disorder
) And Cognitive Daonfa

I ^°8i-Traunulic Stress
9411
Disorder, Mood Disorder
„
Cognitive Disorder

L| "6260
I___

AC

3056

AC •

NOV 09-MAY
10

70%

JUN10

10%

NOV 09

This condition is granted due to your
combat awai’ds

Tinnitus

IgtalCoinbinerl tv...euttifte:
Total Combat-Related Disability:
Total Combat-Related Disability;

4a% NOV 09. May 10
70%

JUN 10

Army CRSC Decision Letter

00279
9E/0Z

3svd

svddia r tis.nw'i

&K;b,A
CC T7COO *nn

f' -7

.

-r

f.

]
GARNISHMENT OPERATIONS
PO BOX 998002
CLEVELAND, OH 44199-8002

Feb 19,2014
BOUTTE KEVIN L

(DFAS-HGA/CL)

4877

YVONNE R BOUTTE
1213 ALLISON DRIVE
DERTDDER LA 70634

, 'lO'Pt

Filed:
by:

A

DeputuClerk

Dear SFC BOUTTE:

3

1

:ourt

This letter is to notify you that we are terminating your payments under the Uniformed
Services Former Spouses' Protection Act from the retired/retainer pay of BOUTTE, KEVIN L.
No further funds are available since the member is in a non-pay status.
You must include the employee/member's social security' number on all correspondence
to this office. If you have any questions, you may contact us through the DFAS WEB page
at www.dfas.mil/gamishment.html or call the Customer Service Section at 1-888-332-7411
(DFAS411).
Sincerely,
2ita. (LCL&oa
Lisa A. Altus
Paralegal Specialist

✓

•i

00306

31a

MR. HESSER:

1

Well, here's another point --

2
I.
3-

THE COURT:
-- but I don't think did we ever get to

4
5

those questions,

6

were arguably before the Court on May the 22nd,

7

2014.

8

MR. HESSER:

Let me hear you out.

Let me go back to that.

9
10

Those were the questions that

THE COURT:
Because I think there's some key

11

I

12

distinctions in that regard,

And I don't

13

don't disagree with the legal analysis that

14

Disposable Retired Pay is a term of art. But

15

you'll notice that word, disposable, is not in

16

the May 22nd, 2014 judgment,

n

basically, this was the same legal issue that

18

was before the Court in May of 2014, is whether

19

or not Ms. Bout'te was still going to get money

20

even though she couldn't get money from the

21

government because of the rules,

22

the Federal Statutes.

23

that he was going to continue to pay privately

24

forty-three percent of his military retirement

25

pay.

26

the option under the law.

27

totally understood that or Ms. Carr explained

28

it to him or whether Ms. Carr fully understood

29

it; I don't know,

30

issue that you are arguing today is the very

31

issue that we were here about in May of 2014 is

32

whether or not by moving this money and calling

Because

Case Law and

And Mr. Boutte agreed

Not disposable retired pay because he has
Now whether he

But that was the

The

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00331 '

12

32a

1

it Combat Related Special Compensation or
Concurrent Retirement Disability Pay, if it

2
j

3

could be shielded from Ms. Boutte,.

4

Nevertheless, Mr. Boutte agreed to that

5

judgment from May 22, 2014.

6

MR. HESSER:

7

Let me address that a little further and

8

then I'll move onto my other arguments, Your

9

Honor.

10

One of the things about this is it's not -

11

- For example, I filed a petition for

12

declaratory judgment which is an ordinary

13

proceeding.

14

filed an exception of improper use of summary

15

proceedings, but apparently, they haven't done.

16

So that's considered waived under our

17

provision.

I

18

J

Okay, technically, they could have

The matter that was before the Court

19

previously was a rule for contempt, which was a

20

summary proceeding.
So, unless that he would have known that

21
22

they would have waived their objection at that

23

time, he couldn't actually even join.

24

have had to hear that on a different date

25

unless the,Court wanted to.

26

consented to it.

27

He would

Unless everybody

So, you have essentially two different

28

types of proceedings as well.

29

procedurally couldn't even address the

30

declaratory judgment type issues that I raised

31

now which we are only here and doing at one

32

time because essentially, there's no objection

So, he

L
MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00333

13

33a

1

i

1
2

The point is well on this, Your Honor, is
that when they did the May 2014 judgment, there
was never any agreement to pay anything but

4

military retired pay. That was it.

5

never any -- In other w^rds, Mr. Boutte doesn't

6

owe, based upon the language of that agreement

7

or the language of the iirst agreement,,

8

anything from the concurrent — the Combat
j
Related Special Compensation. He doesn't owe

There was

i

9

i

10

that based upon that agreement.

11

language which is clearjand unambiguous just

12 -

says military retired piy and/or benefits.

13

The plain

And so, then I have cited the law that we

14

previously had in Louisiana which was the

15

Poullard case which I believe was overruled by

16

the Supreme Court in the Howell case.

17

i

And in Poullard, what happened there is

18

the parties agreed that and the lady in

19

conjunction was waiving spousal support, the

20

non-service member former wife, agreed to take

21

a percentage and there the Court said — the

22

Third Circuit said you can't come back later

23

and reduce the money that you are paying her.

24

Well, the Howell case out of the U.S.

25

Supreme Court essentially in overruling the

26

Arizona Court says that'you can't go back and

27

force somebody to pay that in these cases.
THE COURT:
.I

28

i

29

But don't the parties have a right in any

30

area of the law to create the law between

31

themselves?

32

this is what the rules are..

j

In other words, case law may say

t

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

0033 4. .

15

34a

:3

$

I
1

But if the parties w&nt to and do agree to
contract differently, I believe one of the

2
3

i

(

general principals of the law is that parties

4

are free to create the law between themselves.

5

So, assuming arguendo that Mr. Boutte didn't

6

have to pay Ms. Boutte anything on May 22nd,

7

2014, he nevertheless circumvented any

8

jurisprudence to the opposite by agreeing that

q

he would resume paying to her that forty-three

I

10

percent.

II

MR. HESSER:

12
13

i

i

Well, that's what I'm saying —
THE COURT:
t

14

So in other words, I get if Mr. Boutte had

15

insisted that he didn't owe her anything and

16

the Court had ruled that he still had to pay

17

her x-amount or x-percentage and you took that

18

upon appeal, then you apply those

19

jurisprudential rules of Louisiana Courts or

20

the U.S. Supreme Court.

21

come to court and agree to do something

22

different than what the case law is, they have

23

created their own law between the parties.

24

MR. HESSER:

But if the parties

25

But what I'm saying, Your Honor, is this.

26

The point is, the language from May the 22nd,

17

2014, does not agree to anything to give her

28

anything extra,

29

that.

30

The res judicata actually works against her

31

because the language in that stipulation

32

specifically says "Military Retired Pay

It doesn't agree to give her

That's what the point is, right now.

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00335

16

35a
r.
Li:

j

1

Circuit, November 24, 2010, has been previously!

2.

received into the record,, but is also the same ■

3 (

as Yvonne Boutte Exhibit Number Three.

;jj ■

i

BY MR. SEASTRUNK:

5

Q

6

your separate funds to pay in a contractual obligation?

So would it be fair to say that you agreed to use

MR. HESSF.R:

7
-•5

(Cross examination continues)

9
10

1

Objection.

8

A

11

(MR. BOUTTE)
Are you asking me what was said five years ago? I

1-2

don't remember.

13

loss.

14

Q

15

stipulating to that-judgment?

16

A

I do remember.

17

Q

Ms. Carr was present with

18

A

Yes, she was.

19

Q

Do you recall receiving a signed copy of that

20

judgment?

That's one thing about PTSD is memory

Fair enough.

You do recall coming into court and

' 21

A

I'm sure I did.

22

Q

Yes, sir.

you?

1i.

>
if

I don't recall. ,

At any time did you direct Ms. Carr or any other-

23
24

attorney to file an appeal on your behalf?

25

A

No.

I could not afford

it.

MR. SEASTRUNK;:

26
27

I-

May I approach, Judge?

28

THE COURT:

29
30

I

You may.
BY MR. SEASTRUNK:

■

Let me show you Yvonne Boutte 4 and ask you to have
31 ; ^
3-2 la look at that.

i
MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 114S
DeRidder, LA 70634

00367.

48

36s

r
!■:

1 !

THE COURT:
From May 2014 up through this very day.

2

f

■«

3
4

MR. HESSER:

.1

And he has done that voluntarily so that

5

he would not be held in contempt of court,

6

he doesn't owe it.

7

him to do that.

3

be res judicata.

9

THE COURT:

10
11
12
13

And that's my point.

It can't

Well, that's your position.
MR. HESSER:
Yes, Your Honor.

;

THE COURT:
I understand.

15

The Court will consider the matter

17

All right.

submitted.
First of all, the competing motions filed

18

by both sides here, and actually my initial

19

thought was that the exception of res judicata

20

which I believe is a valid exception sort of

21

pretermits the issues or all of the issues

22

raised by Mr. Boutte.

23

i

Actually, after hearing all of the

24

evidence and reconsidering this matter in my

25

mind, I don't think that there are necessarily

26

exclusive issues.

27

will be clear as I go through my ruling in this

28

matter.

29

;
<

The judgment does not order

14

16

But

And I think hopefully that

First of all, there were actually three

30

exceptions filed by Ms. Boutte.

31

of No Right of Action and No Cause of Action.

32

As to the No Right of Action I am going to deny

An Exception
)

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00387

i

68

37a

I
1

that exception. I think certainly the other

I

2

party effected by a judgment falls within the

j

3

class of individuals who has the right to seek,

i

4

nullity, declaratory judgment, any of those

5

issues.

6

So, I'm going to deny that exception.

The No Cause of Action states that

7

basically if you assume all of the facts

8

alleged in the petition as true, whether or not

9

the person has a cause of action.

5

And

10

ultimately because my ruling in this matter is

11

going to be basically in both party's favors to

12

a large extent, I'm going to deny the No -- I'm

13

going to deny the No Cause of Action.

14

a request

fora declaratory judgment is a cause

15

of action

assuming that everything that is

16

stated in

the pleadings is true, grants a cause

17

of action

for the court to declare some status

18
19

'

I think

of the parties,.
X

Now, as to the Exception of Res Judicata,

20

I believe there is merit and I'm going to grant

21

that because I believe basically what Mr.

22

Resser is artfully trying to do for his client

.23

is the same thing that could have been argued

24

on May 22nd, 2014, and that is under Federal

25

law and the prior judgment in this matter, Mr.

26

Boutte doesn't have to pay Ms. Boutte anything.

27

And the parties agreed differently on May 22nd,

28

2014.

29

differently in a judgment based upon that

30

stipulation was rendered, but Mr. Boutte has in

31

accordance with that agreement and judgment

32

continued to pay.

Not only did the parties agree

r

I

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00.388

69

38a

l

I

And the reason why I say the rulings are

2

really not exclusionary is I don't disagree

3

with Mr. Hesser's request for declaratory

4

judgment that CRSC is the separate property of

5

the military spouse,

6

under Federal law.

7

that VA disability is separate property under

rs

Federal law.

9

that.

10
II

!
j

I think that's clear
VA disability.

Declaring

I don't think I need to declare

I think Congress and the Courts have

declared that.
But I don't think

I don't think me

declaring that as a declaratory judgment

13

affects the May 22, 2014 judgment,

14

for example, in the Petition for Declaratory

15

Judgment, there is an assertion by Mr. Boutte

16

that on December the 29th, 2017, the military

17

changed his CRDP to CRSC.

18

The evidence that has been presented in this

19

matter shows that his pay was converted from

20

CRDP to CRSC in February of 2014, before we

21

came to court and the parties agreed to this

22

May 22nd, 2014 judgment.

Because,

;

That's not correct.

So, the argument that a subsequent change

24

by DFAS gave Mr. Boutte another opportunity to

25

waive pay that Ms. Boutte might have otherwise

26

been entitled to receive directly from DFAS is

27

not a correct statement of the facts,

28

not what the evidence has shown.

29

i
■i

12

23

S

That's

And to that point as it has been pointed

30

out in the evidence here today, the actual

31

total military benefits that Mr. Boutte has

32

been receiving since he retired in 2009 is

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

0038?

1

70

39a

1

somewhere in the neighborhood of $4600-4700.

2

Ms. Boutte never claimed to be entitled to

3 ;

forty-three percent of that number.

4

asked for and expected and the parties were

5

both agreeable to Ms. Boutte receiving forty-

6

three percent of the DFAS non-disability

7

portion of that retirement,, which was

f

8

apparently around anywhere from $336.69 times

*
i

9

two or $745.

1

She simply

I'm not sure where — maybe there

10

was withholdings or some difference in those

11

numbers that Mr. Boutte referenced and Ms.

12

Boutte referenced as to what they have actually

13

been doing since their divorce in 2012

14

basically.

15

Mr. Boutte.

16

:

Either from DFAS or directly from

So, in one event it would be around $674,

17

the other would be around $745.

18

fI

But to the extent that that's a true

19

statement of the law that CRSC is Mr. Boutte's

20

separate property. That's what the prayer in

21

this matter asked for by the filings from Mr.

22

Boutte.

23

22, 2014 judgment and therefore that's why I

24

think the Exception of Res Judicata is a valid

25

judgment.

26

1!
i

But I don't think that effects the May

I think that's the issues before the Court

27

today.

28

>

i

I think the parties have the right to

29

create their own law between them,

30

that's what they did on May 22, 2014.

31
32

■r

And I think
And that

in light of all of these negotiations back and
:
forth regarding property divisions, spousal

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

0,0390-

71

40 a

}
•s

1

support, that the parties agreed that Ms.

2

Boutte would continue — the judgment uses the

3

word "resume" — payment of forty-three percent

4

of what the military retirement payment was,

5

which was somewhere between that number of $674

6

and $745 per month, and that's in fact what's

7

been happening since 2014.

8

So that is my ruling.

It's not a clear

9

issue but this area of the law is not clear.

10

So, I think the Exception of Res Judicata is

11

valid and to the extent that CRSC is the

12

separate property of Mr. Boutte.

13

seen anything by Ms. Boutte that argues

14

anything other than that.

15

extent that, that Is request for declaratory

16

judgment, I think that's really not mutually

17

exclusive to the judgment from May 22, 2014.

18

All right.

I haven't

So, I think to the

;

19

I'11.probably note both of your objections

20

to the ruling if you so choose and then

21

whichever one of you will prepare that

22

judgment.

23

MR. SEASTRUNK;

24

.

Your Honor, if I may, on behalf of my

25

client.

26

the defendant be ordered to pay cost and

27

attorney fees. .

28

MR. HESSER:

29

She had requested in her petition that

Just in response, Your Honor, there is no

30

basis to ask for attorney fees.

31

THE COURT-:

32

I agree.

The law is clear on attorney

MARTHA A. KIBLER, CCR
!

Official Court Reporter - 27015
Thirty-Sixth Judicial District Court
P.O.Box 1148
DeRidder, LA 70634

00331

72

41a

1

fees unless it is contractually agreed to or

2

there is a specific statutory authorization,

3

it's not allowed under Louisiana law.

4

deny that request.

5

So, I

As to court cost, I think, that the parties

6

in effect both prevailed today in the Court's

7

ruling in that what Mr. Hesser asked to be

8

declared as separate property, I think the law

9

is clear in that CRSC is the separate property

10

and I think Mr. Seastrunk's Exception of Res

11

Judicata, I think the judgment of May 22, 2014

12

stands and so I'm going to assess the cost

13

fifty percent as to each party.

14

MR. HESSER:

15

Thank you.

16

MR. SEASTRUNK:

17
18
19

Judge, I'll prepare the judgment.
THE COURT:
If you will get that to Mr. Hesser within

20

five business days and Mr. Hesser to me within

21

five business days thereafter.

22
23
24

Anything before we close court?
MR. HESSER:.
No, sir. Thank you, Your Honor,

25

for your time.

26

MR. SEASTRUNK:

27
28

Thank you

No, sir. Thank you, Your Honor.
(PROCEEDINGS CLOSED)

29
30
31
32

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00392

73

C E R T I F I C ATE

This certificate is valid only for a transcript accompanied
by my original signature and original required seal on this
page.
I, Martha A. Kibler, Official Court Reporter in and for the
State of Louisiana, employed as an Official Court Reporter by
the 36th Judicial District Court for the State of Louisiana, as
the officer before whom this'testimony was taken, do hereby
certify that this testimony was reported by me in the stenomask
reporting method, was prepared and transcribed by me or under my
direction and supervision, and is a true and correct transcript
to the best of my ability and understanding; that the transcript
has been prepared in compliance with transcript format
guidelines required by statute or by the rules of the board or

:
by the Supreme Court of Louisiana; and that I am not related to
counsel or to the parties herein; nor am I otherwise interested
i

in the outcome of this matter.

I!

, 2019

,ER, CCR MARTH7T
OFFICIAL COURT REPORTER )
CERTIFICATE #27011

MARTHA A. KIBLER, CCR
Official Court Reporter - 27011
Thirty-Sixth Judicial District Court
P.O. Box 1148
DeRidder, LA 70634

00393

75

43a

APPENDIX D

IN THE SUPREME COURT
STATE OF LOUISIANA
Docket No.

YVONNE RENEA BOUTTE, Respondent
VERSUS
KEVIN LEE BOUTTE, Petitioner / Applicant

Application for a Writ of Certiorari
from a July 8,2020 decision by the
Court of Appeal, Third Circuit, State of Louisiana
(Judges Conery, Savoie and Perry)
Docket No. 19-734,
affirming a decision of the
36lh District Court for the Parish of Beauregard,
Civil Docket No. C-2010-I24I-B, June 24, 2019
(Judge C. Kerry Anderson)

APPLICATION FOR A WRIT OF CERTIORARI
FAMILY LAW MATTER

Respectfully submitted by:
Carson J. Tucker (Michigan Bar No. P62209)
PRO H AC VICE (admission pending - documentation of application attached)
Lex Fori PLLC pro bono for Trinity Advocates
117 N. First St., Suite III
Ann Arbor. Ml 48104
Phone: (734) 887-9261
Fax: (734) 887-9255
cjtucker@lexfori.org
David C. Hesser
Louisiana Bar Roil No. 23131
Hesser & Flynn, LLP
2820 Jackson St.
Alexandria. LA 71301
Phone: (318) 542-4012
Fax: (318) 442-4105
david@hesserlavv.com
Attorneys for Petitioner / Applicant, Kevin Lee Boutte

44a

TABLE OF CONTENTS
TABLE OF AUTHORITIES

iii

STATEMENT OF RULE X(l)(a) CONSIDERATION

1

MEMORANDUM IN SUPPORT OF THE WRIT APPLICATION

1

STATEMENT OF THE CASE

I

QUESTION PRESENTED

6

ASSIGNMENTS OF ERROR

6

SUMMARY OF ARGUMENT

6

LAW AND ARGUMENT

7

CONCLUSION

21

VERIFICATION

23

CERTIFICATE OF SERVICE

24

CERTIFICATION FOR ATTACHMENTS

25

APPENDIX

26

ii

45a

TABLE OF AUTHORITIES
Cases
Ackel v. Ackel.
696 So.2d 140 (La. App. 5 Cir. 1997)

7, 16

Barker v. Kansas,
503 U.S.594 (1992)

I

Berberich v. Mattson.
903 N.W.2d 233 (2017)

2,3, 19

Boutte v. Boutte,
19-734 (La. App. 3 Cir. 07/08/20); 2020 La. App. LEXIS 1030)
Brown v. Brown,
260 So.3d 851 (Ala. Ct. App. 2018)

5

3, 20

Davis v. Wechsler,
263 U.S. 22 (1923)

11

Edwards v. Edwards,
132 N.E.3d 391 (Ind. App. 2019)

3,21

Fattore v. Fattore,
20I9N. J. Super. LEXIS 16 (N. ,1. App. 2019)

3,20

Foster v. Foster (On Second Remand),
2020 Mich. App. LEXIS 4880 (Mich. Ct. App., July 30,2020)

2,21

Foster v. Foster,
2020 Mich. LEXIS 687 (April 29, 2020)

2, 13,21

Free v. Bland,
369 U.S. 663 (1962)

11

Hayburn 's Case,
2 U.S. 409(1792)

9

Henderson v Shinseki,
562 U.S. 428(201!)...

10

Hines v. Lowrey,
305 U.S. 85 (1938).

11, 12, 13

Howell v. Howell,
137 S. Ct. 1400 (2017)

passim

Hurt v. Jones-Hurt,
168 A.3d 992 (Md.'ct. App. 2017)

3,20

In re Babin,
437 P.3d 985 (Kan. Ct. App. 2019)

2, 19

In re Marriage of Cassinelli (On Remand),
2018 Cal. App. LEXIS 177 (2018.)............

3, 20

In re Marriage ofTozer,
410 P. 3d 835 (Colo. Ct. App. 2017)

3, 20
iii

46a

Kalb v. Feurstein,
308 U.S. 433 (1940)

11

King v. King,
149 Mich. App. 495; 386 N.W.2d 562 (Mich. App. 1986)

19

Lichter v. United Stales,
334 U.S. 742(1948).....

10

Mallard v. Burkart,
95 So.3d 1264 (Miss. 2012)

19

Mansell v. Mansell,
490 U.S. 581 (1989)

passim

McCarty v. McCarty,
453 U.S. 210(1981)..

passim

McDaniel v. McDaniel,
567 So.2d 748 (La. App. 2 Cir. 1990)

2, 5, 16
13

Merrill v. Merrill, 238 Ariz. 467 (2015)
Nelson v. Nelson.
985 So.2d 1285 (La. App. 5 Cir. 2008)

2, 16

Porter v. Aetna Casualty and Surety Co.,
370 U.S. 159(1962).................................

passim

Ridgway v. Ridgway,
454 U.S. 46(1981)...

3, 1 L 15

Roberts v. Roberts,
2018 Term. App. LEXIS 195 (Term. App. 2018)

2, 19

Rostker v. Goldberg,
453 U.S. 57(1981)...

10

Ryan v. Ryan,
257 Neb. 682; 600 N.\V.2d 739 (Neb 1999)

19

Sample v. Sample,
2018 Term. App. LEXIS 523 (Term. App. 2018)

19

South East Auto Dealers Rental Ass 'n, Inc. v. EZ Rent to Own, Inc.,
980 So.2d 89 (La. App. 4 Cir. 2/27/08)..............................................
United States v. Hall,
98 U.S. 343 (1878)....

6

passim

United States v. Oregon.
366 U.S. 643(1961)......

3, 10

United States v. Tyler,
105 U.S. 244 (1881)..

1

Vlach v. Vlach,
556 S.W.3d 219 (Term. App. 2017)

2, 19
iv

47a

iVissner v. Wissner,
338 U.S.655 (1950)

II, 18

Yoke v. Yoke.
170 Md. 75; 183 A, 555 (1936)

13

Youngbluth v. Youngbluth, 188 Vt. 53; 6 A.3d 677 (Vt. 2010)

19

Statutes
10U.S.C. § 1408

1,2,3, 12

10U.S.C. § 1413a

I, 12, 15, 17

10 U.S.C. § 1414

1

38 U.S.C. §3101

7

38 U.S.C. § 5301

passim

42 U.S.C. § 659

2

La. Civ. Code Ann. art. 1966

n

La. Civ. Code Ann. art. 1968

.7, 16

La. Civ. Code. Ann. art. 1971

5,7, 16

Other Authorities
9 Nicolay and Hay, Works of Abraham Lincoln 75-77 (1894)
Abraham Lincoln, Second Inaugural Address (March 14, 1865)
Schwab, el al., War and the Family, 11(2) Stress Medicine 131-137 (1995)
Department of Defense Financial Regulations on CRSC, October 2017

10
3, 10
9
12

Erickson, W., Lee, C., von Schrader, S. Disability Statistics from the American Community8
Survey (ACS) (2017)
Evans Hughes, War Powers Under the Constitution, 2 Marquette Law Review 10 (1917)

10

Fazal, Dead Wrong? Battle Deaths, Military Medicine, and Exaggerated Reports of War’s
Demise, 39:1 International Security 95 (2014)
8
Finley, Fields of Combat: Understanding PTSD Among Veterans of Iraq and Afghanistan
(Cornell Univ. Press 2011)
9
Kriner & Shen, Invisible Inequality: The Two Americas of Military Sacrifice, 46 Univ. of
Memphis L. Rev. 545 (2016)
9
Melvin, Couple Functioning and Posttraumatic Stress in Operation Iraqi Freedom and Operation
Enduring Freedom - Veterans and Spouses, available from PILOTS: Published International
Literature On Traumatic Stress. (914613931; 93193)
9
Rombauer, Marital Status and Eligibility for Federal Statutory' Income Benefits: A Historical
Survey, 52 Wash. L. Rev. 227(1977).
9
Trauschweizer, 32 International Bibliography of Military History 1 (2012)

7

v

48a

U.S. Census Bureau, Facts for Features

8

VA, National Center for Veterans Analysis and Statistics, What’s New

8

VA, Trends in Veterans with a Service-Connected Disability: 1985 to 2011

7,8

Waterstone, Returning Veterans and Disability Law, 85:3 Notre Dame L. Rev. 1081 (2010)
10
Zeber, Noel, Pugh, Copeland & Parchman, Family perceptions of post-deployment healthcare
needs of Iraq/Afghanistan military personnel, 7(3) Mental Health in Family Medicine 135
(2010)
9
Rules
La. St. Sup. Ct. Rule X.

1

Constitutional Provisions
U.S. Const, art. VI, cl. 2

11

U.S. Const., art. 1, § 8, els. 12-14

10

vi

49a

STATEMENT OF RULE X(l)(a) CONSIDERATION
Pursuant to La. St. Sup. Ct. Rule X, § 1(a), the following grounds exist to justify this Court’s
discretionary review of Petitioner’s application for a writ.
Rule X, § 1(a)(1). The Court of Appeals decision conflicts with a decision of the United
States Supreme Court. In Howell v. Howell, 137 S. Ct. 1400 (2017), the Supreme Court held that
state courts do not have the authority to prospectively vest veterans’ disability benefits as property
in anyone other than the veteran beneficiary, whether by way of a consent agreement or forced
order of indemnification or reimbursement. Howell, supra at 1405, citing 38 U.S.C. § 5301(a)(1).
In the instant case, the trial court’s order that Petitioner continue paying his former spouse violated
this rule because it required Petitioner to use veterans’ disability benefits to satisfy a state court
consent decree. Id. Howell ruled that all military retired pay and disability pay is protected by
federal preemption except that which is defined as “disposable” under the Uniform Former
Spouses Protection Act (USFSPA). Id. at 1403-1406, citing USFSPA, 10 U.S.C. § 1408 and 38
U.S.C. § 5301.
Rule 10, § 1(a)(2). The Court of Appeals decision that resjudicata barred Petitioner’s claim
that he should not have to continue using his federal disability pay to satisfy the “community
property” division is a significant issue of law' that has not been resolved by the Louisiana
Supreme Court since the release of Howell, supra.

Howell held that state courts could not

authorize or force indemnification agreements that required veterans to dispossess themselves of
their personal entitlements to federal disability payments. Howell, supra at 1406. The Court
reasoned that the protected benefits are personal entitlements intended to actually reach the
beneficiary. Id. at 1403. The Court further held that orders which effectively force the veteran to
indemnify or reimburse the former spouse (even those orders that do not designate w'hat benefits
the veteran is to use to do so) are equally preempted and prohibited. Id. at 1406. Such orders
“displace the federal rule and stand as an obstacle to the accomplishment and execution of the
purposes and objectives of Congress.” Howell, supra at 1405-1406.
As the Court reiterated, it makes no difference whether the state court designates that the
money is to come from the veteran’s non-disposable federal benefits, the effect is the same - it
unlawfully deprives the veteran of his or her entitlement in contravention of the preemptive federal
law, which requires that the veteran retain the value of his or her benefit. Id. It means nothing to
l

50a

the veteran if the non-disposable benefit he or she receives can be diminished by the simple, but
unlawful, convention of an offsetting award. “All such orders are thus preempted.” Howell, 137 S
Ct at 1406.
Since Howell, many state courts have ruled that it applies to consent agreements
notwithstanding the sanctity of contracts. See, e.g., Roberts v. Roberts, 2018 Tenn. App. LEXIS
195, *22 (Tenn. App. 2018) (“Howell casts substantial doubt as to whether state courts may enter
divorce decrees of any kind in which the parties seek to divide any service related benefit other
than disposable retired pay); In re Babin, 437 P.3d 985, 991 (Kan. Ct. App. 2019) (Howell
“abrogatefed] several cases dealing with property settlement agreements” and “endorsed Mansell
[v. Mansell, 490 U.S. 581 (1989)] and its restriction on using a property settlement agreement to
divide pay” and “overruled cases relying on the sanctity

of contract to escape the federal

preemption.”); Berberich v. Mattson, 903 N.W.2d 233, 241 (2017) (Howell “makes clear that state
courts ‘cannot ‘vest’ that which (under governing federal law) they lack the authority to give” and
“overruled cases relying on the sanctity of contract to escape federal preemption”; “[sjimply put.
state laws are preempted in this specific area.”). At least one court has now ruled that principles of
res judicata would not apply where the veteran entered into a federally preempted and
impermissible consent agreement. Foster v. Foster, 2020 Mich. LEXIS 687, *21-22 (April 29,
2020) (consent agreement requiring veteran to dispossess himself of disability benefits was
prohibited by 38 U.S.C. § 5301(a)(1) and (3) and therefore impermissible) and Foster v. Foster
(On Second Remand), 2020 Mich. App. LEXIS 4880, *3-4 (Mich. Ct. App., July 30, 2020)
(holding principle of federal preemption deprives the state courts of subject matter jurisdiction to
the extent that the state court requires the veteran to dispossess himself of his federal disability
benefits and therefore the veteran “did not engage in an improper collateral attack on the 2008
consent judgment.").
The application of Howell to the division of military disability benefits in state court divorce
proceedings has not been addressed by this Court.

Many state courts have reviewed and

overturned or significantly clarified existing state case law on the basis of Howell since that
opinion was issued. See, e.g., Roberts, supra; Babin, supra; Berberich, supra; Foster, supra;
Vlach v. Vlach, 556 S.W.3d 219, 223-224 (Tenn. App. 2017) (canvassing pre-Howell state cases
and explaining that Howell rejected both the “vested interest” approach and the “reimbursement or
2

51a

indemnification" approach (the one used here by the trial court) because “either approach
amounted to an award of military pay waived in order to obtain disability benefits” and
“reimbursement and indemnification orders displace the federal rule and stand as an obstacle to the
accomplishment and execution of the purposes and objectives of Congress.”); Brown v. Brown,
260 So.3d 851 (Ala. Ct. App. 2018); Hurt v. Jones-Hurt, 168 A.3d 992, 1001, 1002 (Md. Ct. App.
2017); In re Marriage ofTozer, 410 P. 3d 835, 836-837 (Colo. Ct. App. 2017); In re Marriage of
Cassinelii (On Remand), 2018 Cal. App. LEXIS 177 (2018); Fattore v. Fatlore, 2019 N. j. Super.
LEXIS 16 (N. J. App. 2019); Edwards v. Edwards, 132 N.E.3d 391 (ind. App. 2019), transfer
denied 138 N.E. 3d 957 (2019) (holding that res judicata barred the challenge to the prior
agreement but that Howell required the trial court to modify the judgment so that the veteran
would not be required to continuing using his disability benefits to pay his former spouse).
In light of this significant (and growing) body of post-Howell case law across the country.
this Court has the opportunity to address a post-Howell decision forcing a veteran to continue to
dispossess himself of these benefits in a manner contrary to federal law. Petitioner urges it do so
here.
Rule 10, § 1(a)(4). In light of the above discussion, and the fact that federal preemption is
absolute when it comes to the disposition of military benefits as property in state court divorce
proceedings See, e.g , McCarty v. McCarty, 453 U.S. 210, 223-234 (1981); Ridgway v. Ridgway,
454 U.S. 46, 60-61 (1981); Mansell v. Mansell, 490 U.S. 581, 587 (1989) and Howell, supra at
1404 (stating “in respect to the waived portion of military retirement pay, McCarty, with its rule of
federal pre-emption, still applies.”), and because 38 U.S.C. § 5301 is a federal statute that prohibits
agreements by veterans to dispossess themselves of these benefits, the Court of Appeals
erroneously applied the constitution and laws of the United States. Its decision will cause material
injustice for all disabled veterans who are similarly situated and significantly affect the public
interest in caring for those “who shall have borne the battle” and the “long standing...solicitude of
Congress for veterans”. See, respectively, Abraham Lincoln, Second Inaugural Address (March
14, 1865) and United States v. Oregon, 366 U.S. 643 (1961).

3

52a

MEMORANDUM IN SUPPORT OF THE WRIT APPLICATION
STATEMENT OF THE CASE
Petitioner, Kevin Boutte, and Respondent, Yvonne Boutte, married on July 13, 1991 (R.
9).' They divorced on January 27, 2012 (ATTACHMENT A. Judgment of Divorce, January 27,
2012). Kevin served over 20 years in the United States Army (from 1989 to 2009) (R. 25-26). He
retired with an Honorable Discharge (R. 25).
As a direct result of his military service, Kevin suffered injuries, including traumatic brain
injuries (TB1), post-traumatic stress disorder (PTSD), mood disorder, cognitive disorder, and
tinnitus (R. 351, II. 1-6). These disabilities affect him on a daily basis (R. 351).
Because he suffered these injuries during combat, Kevin was entitled to both veterans
disability pay and Combat Related Special Compensation (CRSC) (R. 279, CRSC Decision
Letter). See also 10 U.S.C. § 1413a.2 Although Kevin acquired sufficient years of military service
to qualify for military retired pay, a former servicemember who incurs injuries during service may
be entitled to disability pay, and, in most cases, must give up the military retired pay to receive the
disability pay. Mansell v. Mansell, 490 U.S. 581, 583, 594-595 (1989).
The Secretary of the service branch of the member administers the member’s retirement pay
and retains jurisdiction over the member and the authority to recall him or her to active duty. See
United Stales v. Tyler, 105 U.S. 244, 245 (1881) (explaining the “manifest difference” in two kinds
of military retirement from active service and retiring (or being disabled) from service altogether);
Barker v. Kansas, 503 U.S. 594, 599 (1992) (“Military retirees unquestionably remain in the
service and are subject to restrictions and recall; in these respects they are different from other
retirees”). See also McCarty v. McCarty, 453 U.S. 210, 223-232 and n. 16(1981). These benefits
are paid by the Defense Finance and Accounting Service (DFAS). Disability pay, on the other
hand, is tax free and paid by the Secretary' of Veterans Affairs. Mansell, 490 U.S. at 583-584.
Once a servicemember’s disability rating meets or exceeds a threshold (usually 100 percent) the

1 “R ft" refers to the appellate record filed in the court of appeals in two volumes containing page numbers 00001
through 00393. Requisite attachments are referred to as “Attachment” followed by capital letters commencing with
A.

2 CRSC pay is a specialized form of disability pay whereby a retiree with a combat-related disability is entitled to
receive an amount equal to or less than his or her length of service retirement pay and his veterans administration
(VA) disability compensation combined. See 10 U.S.C. § 1414(d); Adams v. United States, 126 Fed. Cl. 645. 647648 (2016) (CRSC benefits are based on a “combat-related disability” that is “compensable under the laws
administered by the Secretary of Veterans Affairs”).

53a

former servicemember no longer receives any disposable military retired pay. Those benefits are
replaced by the disability benefits and paid by the Veterans Administration (VA)
As they are not received as compensation for prior services rendered, but rather are intended
to compensate the veteran for his or her specific disabilities, these benefits are not considered
disposable military retired pay and therefore they are not considered a divisible “property” interest
under the direct pay provision of the Uniform Services Former Spouses Protection Act (USFSPA).
10 U.S.C. § 1408(a)(2)(B)(iii) and (C); (4)(A); (c)(1) and (c)(1), nor as available “income”, termed
“remuneration for employment”, under the similar provisions governing division of military pay as
alimony or child support found in the Child Support Enforcement Act (CSEA), 42 U.S.C. § 659(a),
(h)(l)(A)(ii)(V) and (h)(l)(B)(iii).
importantly, VA disability benefits are also affirmatively protected by federal law. Thus, 38
U.S.C. § 5301(a)(1) jurisdictionally protects these benefits when they are “due or to become due”,
“before or after receipt by the beneficiary", from “any legal or equitable process whatever.” So
protective is this provision that it even prohibits the veteran beneficiary from voluntarily entering
into a contractual agreement (or consent judgment) to give up these benefits and renders them
“void from inception”. See 38 U.S.C. § 5301(a)(1) and (3)(A) and (C). See, e.g.. United States v.
Hall, 98 U.S. 343, 349-356 (1878), Howell v. Howell, 137 S. Ct. 1400, 1405 (2017). See also
Foster v. Foster,___ Mich.

N.W.2d___; 2020 Mich. LEXIS 687 (Mich. 2020) (consent

judgment requiring veteran to use disability pay to make up the difference in former spouse’s loss
of her share of previously available disposable retired pay was an impermissible assignment under
38 U.S.C. § 5301(a)(3)(A) and preempted by federal law)3 and Foster v Foster (On Second
Remand),___Mich. App.____; 2020 Mich. App. LEXIS 4880 (July 30, 2020) (state courts are
deprived of subject matter jurisdiction where principles of federal preemption apply and consent
judgment entered in 2008 whereby veteran agreed to pay property settlement to former spouse
using disability pay if he waived retired pay was preempted and subject to collateral attack
notwithstanding principles of res judicata).

3 Cf.. Nelson v. Nelson, 985 So.2d 1285, 1290 (La. App. 5 Cir. 2008) (a consent judgment is a bilateral contract
wherein the parties adjust their differences by mutual consent). See also McDaniel v. McDaniel, 567 So.2d 748, 750
(La. App. 2 Cir. 1990) (same).
2

54a

Kevin’s disability benefits were retroactively awarded to June 2010 (R. 279, November 1,
2013 CRSC Award Letter). As of June 2010, Kevin was “total combat disability” rated at over
one-hundred (100) percent. Id.
The consent judgment of divorce between the parties contained the following language
pertinent to Kevin’s disposable military retired pay:
YVONNE RENEA BOUTTE is entitled to a forty-three- (43%) percent share of
KEVIN LEE BOUTTE’s military retirement pay and/or benefits, including cost
of living expenses or any other retirement system in which his military service
was a significant part of the. entitlement....
The judgment further provided that Kevin “assigns” his interest in his military retired pay and
Yvonne was to receive payments under the “direct payment” provisions of the USFSPA, 10 U.S.C.
§ 1408.
DFAS paid Yvonne monthly her share of the disposable military retired pay from March
2012 to February 2014 (R. 382, II. 1-10). Yvonne’s share was $673.68 per month (R. 381). When
Kevin’s disability and CRSC entitlement began to be paid to him, the amount of available
“disposable retired pay” was reduced by operation of law. DFAS could no longer directly pay
Yvonne disposable military retirement pay as contemplated in the original consent judgment of
divorce because there was no such pay to divide (R. 3S2, II. 7-10). Therefore, DFAS stopped
paying these amounts to Yvonne and sent letters informing the parties of the change (R. 306,
February 19,2014 Letter from DFAS to Yvonne R. Boutte).
Yvonne filed a motion for contempt against Kevin claiming that he should be required to
continue making these payments. On May 22, 2014, Kevin filed and then withdrew an exception
of no cause of action. In that exception, Kevin had argued that the disability payments were his
separate property and not divisible.
The parties entered into a “stipulated” Consent Judgment on June 6, 2014, which provided:
IT IS ORDERED, ADJUDGED, DECREED AND STIPULATED that the
defendant, Kevin Lee Boutte is in contempt of court.
IT IS ORDERD, ADJUDGED, DECREED AND STIPULATED that the parties
agree that the defendant, Kevin Lee Boutte, shall resume payment to the plaintiff,
Yvonne Renea Boutte of her forty-three percent (43%) interest in the defendant’s
military retirement pay and/or benefit including cost of living expenses as ordered
by the Consent Judgment and Voluntary Partition Agreement dated January' 19,
2012 (ATTACHMENT B. R. 77-78).
Subsequent to this, the United States Supreme Court decided the case of Howell v. Howell,
137 S. Ct. 1400 (2017), in which the Court reiterated the principle that federal law preempts state
3

55a

law concerning the disposition of military benefits and the USFSPA only allows state courts to
divide “disposable” military retired pay. The Court overruled case law in over 32 states that had
previously allowed the parties to agree or the courts to enforce “indemnification” or
“reimbursement” schemes whereby the former servicemember was forced to continue paying using
his or her disability pay to compensate for the loss of the former spouse of his or her share of the
former servicemembef s “disposable” retired pay due to his or her receipt of in lieu disability pay.
The Court reiterated that under 38 U.S.C. § 5301 state courts have no jurisdiction or authority over
any military benefits that are not explicitly divisible by Congress. Id. at 1405 (“State courts cannot
'vest’ that which (under governing federal law) they lack authority to give.”).
Nonetheless, under threat of contempt, Kevin continued using his disability and CRSC to pay
Yvonne.

In 2018, after Howell was released, he filed a Petition for Declaratory Judgment,

Alternative Petition to Annul Judgment, Alternative Petition to Modify MDRO. The trial court
conducted a hearing on April 29, 2019. The crux of the issue addressed was whether Kevin had
agreed in the 2014 consent judgment to “pay privately forty-three percent of his military retirement
pay. Not disposable retired pay because he has the option under the law.” (R. 331, Hearing
Transcript, April 29, 2019, II. 22-26). Trial Counsel for Kevin argued that the consent judgment.
as was the original judgment in 2012, was confined only to any “military retirement pay and/or
benefit”. There was no difference in the two agreements (2012 and 2014) and neither mentioned
or specified that Kevin was agreeing to pay Yvonne using any federally proscribed disability
benefits.
The trial court contended that “the issue...today is the very issue that we were here about in
May of 2014 is whether or not by moving this money and calling it Combat Related Special
Compensation or Concurrent Retirement Disability Pay, if it could be shielded from Ms. Boutte.”
(R. 331-332, II. 29-32; 11 1-3, resp.). “Mr. Boutte agreed to that judgment from May 22, 2014.”
(R. 332,11. 4-5).
Counsel for Kevin raised Howell v. Howell, 137 S. Ct. 1400 (2017), which overruled prior
case law across the country in which state courts were authorized to approve agreements between
the parties whereby the former military servicemember agreed to use his or her “non-disposable”
military disability benefits to “make up” or “reimburse” the former spouse due to the latter’s loss
of an interest in previously “disposable” military retired pay that had been automatically paid to
4

56a

the former spouse by DFAS by operation of federal law.

Nonetheless, the trial court asked

whether “the parties have a right in any area of the law to create the law between themselves?” (R.
334, II. 29-31). Counsel for Kevin argued that the language of the May 22, 2014 agreement “does
not agree to anything” but “the Military Retired Pay.” (R. 335, 11. 25-32). Kevin testified he could
not remember “what was said five years ago” and he did not remember because “one thing about
PTSD is memory loss.” (R. 367, II. 11-13).
The trial court ruled that although CRSC was the separate property of Kevin under federal
law, the 2014 consent judgment had reduced the parties agreement to a judgment that barred Kevin
from challenging his payments to Yvonne of the 43 percent share. (ATTACHMENT C. Trial
Court’s Oral Reasoning for Decision in Open Court, April 29, 2019, R. 387-393). The trial court
acknowledged that Kevin was using military disability pay to satisfy the consent judgment, but that
because the parties had agreed to continue the 43 percent division even after Kevin began
receiving his disability pay, he could challenge the 2014 consent judgment and it was barred by res
judicata (R. 392). Judgment was entered for Yvonne. (ATTACHMENT D).
The Court of Appeal affirmed (ATTACHMENT E. Boutte v. Boutle, 19-734 (La. App. 3
Cir. 07/08/20); 2020 La. App. LEXIS 1030), Slip Opinion of the Court of Appeals, issued July 8,
2020). First, the Court of Appeals assessed the trial court’s conclusion that the 2014 “Consent
Judgment” was res judicata as to Kevin’s rights to challenge the disposition of his military pay.
Id. at 2). “The only issue presented to this court is whether the trial court erred in finding that res
judicata applied to a consent judgment in a family law case.” Id. at 3. The Court of Appeals ruled
that the issue was “actually adjudicated” in 2014 because the phrase “and/or benefit” in the consent
judgment could be deemed to have referred to Kevin’s federal disability pay. Id. at 6. The Court
concluded: “[T]he only logical conclusion to be reached is that the benefits referenced in the 2014
Consent Judgment are the CRSCD benefits.” Id. The Court further reasoned that a “consent
judgment is a bilateral contract” and that the 2014 consent judgment “adjudicated the issues”
including the use of Kevin’s disability pay and res judicata applied to his 2018 action. Id. at 7,
citing McDaniel v. McDaniel, 567 So. 2d 748, 750 (La. App. 2 Cir. 1990).
The Court of Appeals further reasoned that Howell v. Howell. 137 S. Ct. 1400 (2017) would
apply, but that “La. Civ. Code. Ann. art. 1971 allows parties ‘to contract for any object that is
lawful, possible, and determined or determinable.”’

Id. at 8 (emphasis added).

The Court

5

57a

continued: “Unless the object of the contract is restricted by the government because it violates
public policy, a party has the freedom to contract for any object.” Id. (emphasis added), citing
South East Auto Dealers Rental Ass'n. Inc. v. EZ Rent to Own, Inc., 2007-0599 (La. App. 4 Cir.
2/27/08), 980 So.2d 89, writ denied, 08-684 (La. 04/18/08), 978 So. 2d 355.
Kevin seeks review in this Court of the decision of Court of Appeals for the reasons stated in
his statement of Rule X(l)(a) Consideration, supra and as further explained as follows.
QUESTION PRESENTED
Did the Court of Appeals err in concluding that res judicata barred Kevin’s challenge to the
2014 Consent Judgment where federal law absolutely preempts state law concerning the
disposition of all military benefits in state court divorce proceedings unless Congress explicitly
allows it, and where positive federal statutory law prohibits veterans from agreeing to dispossess
themselves of these restricted federal benefits, which are the benefits at issue in the case sub
judicel
ASSIGNMENTS OF ERROR
The Court of Appeals erred in concluding that res judicata barred Petitioner’s claim that his
continued payments of federal disability' benefits violate the federal constitution and laws of the
United States.
SUMMARY OF ARGUMENT
There is in fact stated federal policy in affirmative legislation making it unlawful for a
veteran to contract away his rights to protected disability pay. 38 U.S.C. § 5301(a)(3). Thus, as
the Court of Appeals noted what would in fact defeat the principle of resjudicata is present here in
preexisting and absolutely preemptive federal law, to wit, the object of the consent agreement in
this case is in fact “restricted by the government because it violates public policy”
(ATTACHMENT E, Slip Op. at 8). See 38 U.S.C. § 5301 (a)(l) and (3)(A) and (C). As reiterated
by the United States Supreme Court in Howell, under this provision, state courts have no authority
or jurisdiction, through “any legal or equitable process whatever” to order that a beneficiary of
veterans disability benefits pay them over to another “whether before or after receipt” and “when
due or to become due”; and all such decrees, orders, judgments, including judgments by consent
agreement, are prohibited and void from inception. See 38 U.S.C. § 5301(a)(1) and (a)(3)(A) and
(C). See also Howell v. Howell, 137 S. Ct. 1400, 1405 (stating that under 38 U.S.C. § 5301(a)(1)
6

58a

“state courts cannot ‘vest’ that which they have no authority to give”). As such agreements and
orders directing that the veteran use these federally protected funds in the division of property in a
state court divorce proceeding are “void from inception” and/or “wholly void”, respectively, the
principles of res judicata would not apply. Howell, supra', 38 U.S.C. § 5301(a)(1) and (a)(3);
United States v. Hall, 98 U.S. 343, 349-356 (1878) (the statutes protecting veterans from agreeing
to dispossess themselves of their disability benefits have existed “since Congress, under the
Constitution, commenced to grant such bounties” and such agreements are “wholly void”); Porter
v. Aetna Casualty and Surety Co. ,370 U.S. 159, 161-162 (1962) (38 U.S.C. § 3101 (renumbered to
38 U.S.C. § 5301) was to be liberally construed and such funds are “inviolate”).
Under Louisiana law, as the assignment and consent judgment violate federal law and pol icy as
expressed by the plain language of 38 U.S.C. § 5301(a)(1) and (a)(3), and because this statute of
federal preemption actually voids such agreements from their inception, the principles of res
judicata would not apply to the Petitioner’s challenge. See La. Civ. Code Ann. art. 1971. See also
Ackel v. Ackel, 696 So.2d 140, 143 (La. App. 5 Cir. 1997) (citing La. Civ. Code Ann. art. 1966 and
stating that “[aj contract cannot exist without a lawful cause.”). “The cause of an obligation is
unlawful when the enforcement of the obligation would produce a result prohibited by law or
against public policy. La. Civ. Code Ann. art. 1968.” Id.
As the Court of Appeal panel noted in the instant case, “[ujnless the object of the contract is
restricted by the government because it violates public policy, a party has the freedom to contract
for any object.” (ATTACHMENT E. Slip Op. at 8). Title 38 U.S.C. § 5301(a)(3) protects
veterans and the benefits provided to them for their disabilities from contracting away their rights
to these monies.

This provision is to be liberally construed in favor of the veteran and any

assignments of the veterans’ rights contrary to the provision are wholly void. See Porter v Aetna,
370 US 159, 162; 82 S Ct 1231; 8 L Ed 2d 407 (1962); United States v Hall, 98 US 343,349-355,
25 L Ed 180(1878).
LAW AND ARGUMENT
The nation has been at war in one theater or another for the better part of three decades.
Trauschweizer, 32 International Bibliography of Military History 1 (2012), pp. 48-49 (describing
the intensity of military operations commencing in the 1990’s culminating in full-scale military
involvement in Iraq and Afghanistan during the past three decades). See also VA, Trends in

59a

Veterans

with

a

Service-Connected

Disability:

1985

to

2011,

Slide

4

at:

http://www.va. gov/vetdata/docs/OuickFacts/SCD trends FINAL.pdf. Since 1990, there has been
a 46 percent increase in disabled veterans, placing the total number of veterans with serviceconnected disabilities above 3.3 million as of 2011. VA, Trends, supra. By 2014, the number of
veterans with a service-connected disability was 3.8 million. See U.S. Census Bureau, Facts for
Features at: http://www.census.gov/newsrooin/facts-for-features/20l 5/cb 15-ff23.html.

As of

March 2016, the number of veterans receiving disability benefits had increased from 3.9 million to
4.5 million. Id. See also VA, National Center for Veterans Analysis and Statistics, What’s New at:
https://www.va.gov/vetdata/veteran population.asp.
Also, since 1990, there has been a remarkable increase in veterans with disability ratings of
50 percent or higher, with approximately 900,000 in 2011. VA, Trends, supra at slide 6. That
same year, 1.1 million of the 3.3 million total disabled veterans had a disability rating of 70
percent or higher. Id. Finally, the disability numbers and ratings for younger veterans has markedly
inclined. Conducting an adjusted data search, 570,400 out of 2,198,300 non-institutionalized
civilian veterans aged 21 to 64 had a VA service-connected disability at 70 percent or higher in the
United States in 2014. See Erickson, W., Lee, C., von Schrader, S. Disability Statistics from the
American Community Survey (ACS) (2017). Data retrieved from Cornell University Disability
Statistics website: www.disabilitystatistics.org. Thus, according to this data analysis, half of the
total number of veterans with a disability rating greater than 70 percent are between 21 and 64
years of age.
The National Veterans Foundation also conducted a study and found that over 2.5 million
Marines, Sailors, Soldiers, Airmen and National Guardsmen served in Iraq and Afghanistan. Of
those, nearly 6,600 were killed, and over 770,000 have filed disability claims. See
http://www.nvf.org/stageerine-number-of-disabled-veterans/.

Yet another study shows nearly

40,000 service members returning from Iraq and Afghanistan have suffered traumatic injuries,
with over 300,000 at risk for PTSD or other psychiatric problems.
These staggering numbers are, in part, a reflection of the nature of wounds received in
modern military operations, modern medicine’s ability to aggressively treat the wounded, and
modern transportation’s ability to get those most severely wounded to the most technologically
advanced medical treatment facilities in a matter of hours. Fazal, Dead Wrong? Battle Deaths,
8

60a

Military Medicine, and Exaggerated Reports of War’s Demise, 39:1 International Security 95
(2014), pp. 95-96, 107-113. This progress comes with a price.
Physical injuries in these situations are understandably horrific. Id. See also Kriner & Shen,
Invisible Inequality: The Two Americas of Military Sacrifice, 46 Univ. of Memphis L. Rev. 545,
570 (2016). Many veterans also suffer severe psychological injuries attendant to witnessing the
sudden arbitrariness and indiscretion of war’s violence.

Zeber, Noel, Pugh, Copeland &

Parchman, Family perceptions of post-deployment healthcare needs of Iraq/Afghanistan military
personnel, 7(3) Mental Health in Family Medicine 135-143 (2010). Combat-related post-traumatic
stress symptoms (PTSS), with or without a diagnosis of post-traumatic stress disorder (PTSD) can
negatively impact soldiers and their families. These conditions have been linked to increased
domestic violence, divorce, and suicides. Melvin, Couple Functioning and Posttraumatic Stress in
Operation Iraqi Freedom and Operation Enduring Freedom - Veterans and Spouses, available from
PILOTS: Published International Literature On Traumatic Stress. (914613931; 93193). See also
Schwab, et al.. War and the Family, 11(2) Stress Medicine 131-137 (1995).
Such conditions are exacerbated when returning veterans must face stress in their families
caused by their absence. Despite the amazing cohesion of the military' community and the best
efforts of the larger military family support network, separations and divorces are common.
Families, already stretched by this extraordinary burden, are often pushed beyond their limits
causing relationships to break down. Long deployments, the daily uncertainty of not knowing
whether the family will ever be reunited, and the everyday travails of civilian life are
difficult enough. A physical disability coupled with mental and emotional scars brought on by
wartime environments make the veteran’s reintegration with his family even more challenging.
Finley, Fields of Combat: Understanding PTSD Among Veterans of Iraq and Afghanistan (Cornell
Univ. Press 2011).

Thus, disabled veterans face numerous post-deployment health concerns,

sharing substantial burdens with their families.
This is why these unfortunate consequences of military service have historically been
recognized and attended to under exclusive and preemptive federal law. Congress has exercised
exclusive legislative authority in these premises since the earliest days of the Republic. See, e.g.,
Hayburn's Case, 2 U.S. 409 (1792) (discussing the Invalid Pensions Act of 1792). See also
Rombauer, Marital Status and Eligibility for Federal Statutory Income Benefits: A Historical
9

61a

Survey, 52 Wash. L. Rev. 227, 228(1977); Waterstone, Returning Veterans and Disability
Law, 85:3 Notre Dame L. Rev. 1081, 1084 (2010).
Congress exercises its enumerated military powers when it passes legislation providing
veterans with benefits. U.S. Const., art. I, § 8, els 12-14. See, e.g., United States v. Oregon, 366
US 643, 649; 81 S Ct 1278; 6 L Ed 2d 575 (1961) (“Congress undoubtedly has the power under its constitutional powers to raise armies and navies and to conduct wars - to pay
pensions...(to] veterans”). Where Congress explicitly relies on this power, the Supreme Court
has perhaps nowhere else accorded Congress greater deference”. McCarty v. McCarty, 453 U.S.
231,236 (1981), citing Rostker v. Goldberg, 453 U.S. 57, 64-65 (1981).
The solicitude of Congress for veterans is of longstanding. United States v Oregon, 366 US
643, 647; 81 S Ct 1278; 6 L Ed 2d 575, 578 (1961). President Lincoln's second inaugural address
challenged a divided nation “to bind up the nation’s wounds, to care for him who shall have bomc
the battle and for his widow and his orphan." Abraham Lincoln, Second Inaugural Address
(March 14, 1865). “The Constitution gives Congress the power, but it does not prescribe the
mode, or expressly declare who shall prescribe it. In such case Congress must prescribe the mode,
or relinquish the power.

There is no alternative...

The power is given fully, completely,

unconditionally. It is not a power to raise armies //State authorities consent; nor if the men to
compose the armies are entirely willing; but it is a power to raise and support armies given to
Congress by the Constitution, without an 'if'". 9 Nicolay and Hay, Works of Abraham Lincoln
75-77 (1894). See also Lichter v. United States, 334 U.S. 742, 756, n. 4 (1948). “It must also be
remembered that it is of the essence of national power that where it exists, it dominates.” Charles
Evans Hughes, War Powers Under the Constitution, Marquette Law Review, volume 2 , issue 1, p.
10 (1917). “There is no room in our scheme of government for the assertion of state power in
hostility to the authorized exercise of federal power.” Id.

“The power...is explicit and

supreme..,.” Id.
As a result of this deference, statutes providing for and protecting veterans’ benefits are
liberally construed. Porter v Aetna, 370 U.S. 159, 162 (1962). The Supreme Court has never
wavered from this principle. Henderson v Shinseki, 562 U.S. 428, 440 (2011) (stating “the canon
that provisions for benefits to members of the Armed Services are to be construed in the
beneficiaries ‘favor.”) (emphasis added) (citing cases). This principle of statutory construction has
10

62a

been directly applied to 38 USC § 3101 (now § 5301), the statute at issue in the instant case which
void any agreement by the veteran to dispossess himself of his federal entitlements. Porter, supra.
Thus, while state law in domestic relations is originally deferred to, it must yield when
addressing the disposition of Congressionally purposed military benefits. While “the whole
subject of domestic relations between husband and wife belongs to the laws of the States and not
to the laws of the United States,” and “state family and family-property law must do 'major
damage’ to ‘clear and substantial’ federal interests before the Supremacy Clause will demand that
state law be overridden,” “the application of community property law conflicts with the
federal military retirement scheme” and is completely preempted. McCarty, supra at 223; U.S.
Const, art. VI, cl. 2. See also Ridgway v. Ridgway, 454 U.S. 46, 54 (1981) (stating
“jnjotwithstanding the limited application of federal law in the field of domestic relations
generally...this Court, even in that area, has not hesitated to protect, under the Supremacy Clause,
rights and expectancies established by federal law against the operation of state law, or to prevent
the frustration and erosion of the congressional policy embodied in the federal rights.”).
The Supreme Court has reiterated this principle time and again.

See, eg., Wissner v.

Wissner, 338 U.S. 655, 660-661 (1950); Free v. Bland, 369 U.S. 663, 666 (1962); McCarty, supra;
Ridgway, supra; Mansell v. Mansell, 490 U.S. 581 (1989), and, most recently, in Howell v. Howell,
137 S. Ct. 1400, 1406 (2017), citing McCarty, supra at 232-235. In all such cases, the Supremacy
Clause of the United States Constitution requires that state law yield where it conflicts with the
disposition of these federally purposed benefits. Ridgway, supra at 54-55 (citing Free, supra at
665 and stating “[the] relative importance to the State of its own law is not material when there is a
conflict with a valid federal law, for the Framers of our Constitution provided that the federal law
must prevail.”
A state court that rules incorrectly on a matter preempted by federal law acts in excess of its
jurisdiction. Such rulings, and the judgments they spring from, are void ab initio and exposed to
collateral attack. The United States Supreme Court has said as much: “That a state court before
which a proceeding is competently initiated may - by operation of supreme federal law - lose
jurisdiction to proceed to a judgment unassailable on collateral attack is not a concept unknown to
our federal system.” Kalb v. Feurstein, 308 U.S. 433, 440, n. 12 (1940), citing Davis v. Wechsler,
263 U.S. 22, 24-25 (1923); and Hines v. Lowrey, 305 U.S. 85, 90, 91 (1938) (applying the same
II

63a

/

principles to the predecessor of the statutory provision prohibiting veterans from entering into
agreements to dispossess themselves of their benefits, 38 U.S.C. § 5301, applicable in this case).
“The States cannot, in the exercise of control over local laws and practice, vest state courts with
power to violate the supreme law of the land.” Id. at 439, citing Hines, supra. Interpreting the
USFSPA and 38 U.S.C. § 5301, which are directly applicable to the case sub judice, the Court in
Howell slated simply that “[sjtate courts cannot ‘vest’ that which (under governing federal law)
they lack the authority to give.” 137 S. Ct. at 1405 (emphasis added), citing 38 U.S.C. § 5301.
Here, the question is whether under this federal preemption paradigm, Kevin’s currently
received military disability benefits may be considered part of the “community property” divisibly
by and between him and Yvonne. More precisely, the question is whether the Court of Appeals
erred in affirming the trial court’s ruling that that Kevin is forever barred by res judicata from
challenging the ongoing order in which he is be forced by way of the 2014 “consent agreement” to
use his non-disposable disability pay as a substitute for the share of previously “disposable” retired
pay Yvonne had received by operation of federal law.
The USFSPA and 38 U.S.C. § 5301, and the United States Supreme Court cases interpreting
these provisions, dictates the answer. The USFSPA provides state courts with a “precise and
limited” authority over “disposable” retired pay as defined in the statute. Howell, 137 S. Ct. at
1404, quoting Mansell, 490 U.S. at 589. By definition, what is not “disposable retired pay” is off
limits to state courts. The USFSPA gives states discretionary authority to divide as property up to
50 percent of a retired servicemember’s “disposable” military retirement pay. See 10 U.S.C. §
1408(a)(4) (defining what is and what is not “disposable retired pay”); (c)(1) (the actuating
provision of USFSPA giving the state court jurisdiction to order a division of such defined
“disposable” retired pay); and (e)(1) (expressly limiting the state court’s jurisdiction to a maximum
of 50 percent of the “disposable retired pay”, if any, as available to the former spouse in a state
court divorce proceeding) and 10 U.S.C. § 1413a(g) (explaining that CRSC, a special form of
disability pay awarded for combat-incurred injuries is “not retired pay”). See also Department of
Defense Financial Regulations on CRSC, October 2017, Volume 7B, Chapter 63, § 630101(C)(1)
(stating “CRSC is not retired pay, and it is not subject to the provisions of 10 USC 1408 relating to
payment of retired or retainer pay in compliance with court orders.”).

12

64a

Following its decision in Howell, the Court vacated two other decisions (one from Arizona,
Merrill v. Merrill, 238 Ariz. 467, 468 (2015), vacated 581 U.S.___; 137 S. Ct. 2156 (2017) and
one from California, In re Cassinelli, 4 Cal, App. 5lh 1285, 1291, 1297; 210 Cal. Rptr. 311 (2016),
vacated sub nom Cassinelli v. Cassinelli, 583 U.S.___; 138 S. Ct. 69 (2017)) and remanded to the
respective state courts for consideration of Howell’s application to the additional disability benefit,
CRSC. In both cases, the state courts applied the prohibition against forced indemnification and
erased the veteran’s obligations. See also Foster v. Foster, 2020 Mich. LEXIS 687, *16-18 (April
29, 2020).
Moreover, and most pertinent to the qualification expressed by the Court of Appeals,
affirmative and plain federal law does, as a matter of public policy expressed through the exercise
of Congress’s enumerated military powers, prohibit state courts from using “any legal or equitable
process” - which would include rules of estoppel and res judicata - to force the veteran to use
non-disposable military benefits to make up the difference in a former spouse’s lost share of
disposable retired pay. 38 U.S.C. § 530.1(a)(1). These monies are protected “before and after
receipt” when ‘.‘due or to become due.” Id.
Finally, and most pertinent to Kevin’s situation, the statute also prohibits the veteran himself
from entering into an agreement that would cause a depletion of these benefits. 38 U.S.C. §
5301 (a)(3)(A). Subsection (a)(3)(C) voids from inception any agreements or assignments based on
such agreements. The purpose of these provisions are to protect not only the benefit, but the
disabled veteran. See, e.g., Yoke v. Take, 170 Md. 75, 76; 183 A. 555 (1936) (noting that the anti­
attachment provision in the World War Veterans’ Act of 1924, 38 USC § 454 (identical to 38 USC
§ 5301) was to guard those unfortunates who had been disabled in the service of their country from
imposition of others or the depletion of their maintenance and support by their own improvidence
and to assure them a subsistence). Compare Hines v Lowrey, 305 U.S. 85, 90, 91 (1938) (noting
the same applies to protect against excessive attorney fees charged against the veterans’ benefits)
and Porter v. Aetna, 370 U.S. 159, 162 (1962), where the Court ruled that 38 USC § 3101 (the
predecessor of § 5301) was to be “liberally construed to protect funds granted by the Congress for
the maintenance and support of the beneficiaries” and that these benefits “should remain
inviolate.” (emphasis added). Finally, Howell confirmed that that state courts simply do not have

13

65a

authority by way of this provision to vest an interest in these personal entitlements in anyone other
than the beneficiary.
The fact that these federal statutes protect these benefits and treat them as inviolate has
removed any necessity of debating their wisdom or fairness when addressing their application to
individual cases. Congress, in the exercise of its enumerated powers, is not “required to build a
record in the legislative history to defend its policy choices.” Mansell, 490 U.S. at 592. Any state
court attempt to divert his federally protected disability benefits would be impermissible and
contrary to the sweeping jurisdictional prohibitions in 38 U.S.C. § 5301. See also Howell, 137 S.
Ct. at 1405.
Veterans’ benefits have been protected from state legal and equitable process since at least
the 1870’s. United Stales v Hall. 98 US 343, 349-355, 25 L Ed 180 (1878). Agreements to pay
these benefits to a non-beneficiary have also been deemed by the federal statutes that preceded 38
USC § 5301 to be “wholly void” and subject to recovery in assumpsit. Id. (citing cases). The
Court, in 1878, stated of canvassing the anti-attachment provisions in veterans’ benefit legislation
that “[tjhese diverse selections from the almost innumerable list of acts passed granting pensions
are sufficient to prove that throughout the whole period since the Constitution was adopted it has
been the policy of Congress to enact such regulations as will secure to the beneficiaries of the
pensions granted the exclusive use and benefit of the money appropriated and paid for that
purpose. Id. at 352 (emphasis added). Exclusive use and benefit cannot occur if the veteran is
forever bound by an agreement which the statute says is void from inception.
Interpretation of these provisions has been consistently in favor of protecting the defined
benefits against all state authority and control. The United States Supreme Court has ruled that 38
U.S.C. § 5301 is to be interpreted liberally in favor of the beneficiary’s rights and the benefits
covered by this statute are inviolate. In Porter v. Aetna, 370 U.S. 159, 162 (1962), the Court
reasoned that 38 USC § 3101 (the predecessor of § 5301) was to be “liberally construed to protect
funds granted by the Congress for the maintenance and support of the beneficiaries” and that these
benefits “should remain inviolate” and thus diversion by “any legal or equitable process” is
forbidden. Id (emphasis added). Accord, Ridgway v Ridgway, 454 US 46, 54-56 60-61; 102 S Ct
49; 70 L Ed 2d 39 (1981) and Howell v Howell, 137 S Ct 1400, 1405-1406; 197 L Ed 2d 781
(2017). A comprehensive discussion of these provisions is found in both United Slates v. Hall, and
14

66a

Ridgway v. Ridgway, 454 U.S. 46, 60-61 (1981). There, the Court stated of these provisions
appearing in multiple veterans’benefits statutes that they “generally...ensure]] that the benefits
actually reach the beneficiary...[and they] pre-empt]] all stale law that stands in [their] way.
[They] protect[] the benefits from legal process ‘notwithstanding any other law of any State’
[and] prevent]] the vagaries of state law from disrupting
guarantees

a national

uniformity

the

national

scheme,

and

that enhances the effectiveness of congressional policy.”

Ridgway, 454 U.S. at 61 (emphasis added). Noting the “unqualified sweep” of this provision, the
Court stated its language is presented “in the broadest of terms, any ‘attachment, levy, or seizure
by or under any legal or equitable process whatever,' whether accomplished ‘either before or after
receipt by the beneficiary’” is prohibited. Id. (emphasis added). Any “diversion, as directed by
the state court, of future payments to be received by the beneficiary would be a ‘seizure’ prohibited
by the anti-attachment provision.” Id. at 55. As noted by the Court in Ridgway, the same absolute
preemption principle was followed in McCarty, supra, and finally in Howell, supra, the Court
confirmed that 38 U.S.C. § 5301(a)(1) actually divests slate courts of authority to divert these
benefits at any time in the future. As the statute applies to any benefits administered by the
Secretary of Veterans Affairs, it applies to Kevin’s VA and CRSC benefits, which were
retroactively awarded in 2009 and 2010, a date prior to his divorce (R. 279). CRSC is a retroactive
award of what is considered non-disposable disability pay. See 10 USC § 1413a(g) (CRSC is not
considered disposable retired pay; it is pay that is protected by 38 USC § 5301 as veterans’ non­
disposable benefits). See also Adams v. United States, 126 Fed Cl 645, 647-648 (2016)
(CRSC benefits are “compensable under the laws administered by the Secretary of Veterans
Affairs”).
Kevin was suffering from his disabilities during his divorce proceedings, and he continues to
suffer from them today. In other words, as of 2012 and 2014, when the “consent judgments” of
divorce were entered on the record in this case, the disabilities suffered by Kevin had already
manifested due to his combat-related injuries. The fact that he began receiving these protected
benefits only after the divorce was a consequence of the time it took for him to complete the
application and eligibility process and the reductions in Yvonne’s portion of disposable pay
occurred by operation of federal law. Nonetheless, Kevin continues to pay these restricted funds to
his former spouse in contravention of 38 U.S.C. § 5301(a)(1) and (a)(3)(A). Since the latter statute
15

67a

considers such arrangements prohibited and therefore “void from inception” there would be no bar
to challenge his ongoing obligation in this regard. It is, in fact, an obligation that is contrary to
policy and law.
“A contract cannot exist without a lawful cause.” Ackel v, Ackel, 696 So.2d 140 (La. App. 5
Cir. 1997). See also La. Civ. Code Ann., art. 1968 “The cause of an obligation is unlawful when
the enforcement of the obligation would produce a result prohibited by law or against public
policy.” As it is against federal law for a veteran to enter into any agreement to assign away his
benefits for consideration, it would be prohibited by federal law for Kevin to be forced to comply
with the consent agreement, which the Court of Appeals acknowledged was a contract.
(ATTACHMENT E, Slip Op. at 7, citing McDaniel v. McDaniel, 567 So. 2d 748, 750 (La. App. 2
Cir. 1990). See also Nelson v. Nelson, 985 So.2d 1285, 1290 (La. App. 5 Cir. 2008) (a consent
judgment is a bilateral contract wherein the parties adjust their differences by mutual consent).
Parties are forbidden to contract for any object that is not lawful. La. Civ. Code Ann. art. 1971.
Ackel, supra.
[I]n any case where a beneficiary [the veteran] entitled to compensation...enters
into an agreement with another person under which agreement such other
person acquires for consideration the right to receive such benefit by payment
of such compensation...such agreement shall be deemed an assignment and is
prohibited [and] “[a]ny agreement or arrangement for collateral for security for an
agreement that is prohibited under subparagraph (A) is also prohibited and is void
from its inception.
38 U.S.C. § 5301(a)(3)(A) and (C)
In Howell, the Supreme Court reiterated under 38 USC § 5301, “[sjtate courts cannot vest
that which (under governing federal law) they lack the authority to give.'” Howell v Howell, 137 S
Ct at 1405 (emphasis added). Put another way, state courts are without power, i.e., jurisdiction, to
dispose of the federal benefit in a manner contrary to the statute. Indeed, the lack of authority in a
state court to vest a future right to the benefits at issue is confirmed by the statute’s language
which renders any agreement to do so void from inception. The state’s inability to adjudicate is
absolute. The statute absolutely voids any agreement (voluntary or otherwise) whereby the veteran
agrees to dispossess himself or herself of the benefits at issue, and thus, there is no need to
consider whether it can be collaterally attacked. State law is preempted and “without effect”.
Maryland v. Louisiana, 451 U.S. 725, 746 (1981). See also Gibbons v. Ogden, 22 US 1, 211; 6 L
Ed 2d 23 (1824).
16

68a

Relieved of the fiction that Kevin waived this issue, where no such waiver is possible, the
Court is free to examine, directly, the trial court’s post-Howell attempt to do exactly what the
Supreme Court said state courts could not do - force veterans to indemnify or reimburse their
former spouses from their restricted disability pay (or any equivalent amounts for that matter)
where the former spouse loses his or her interest in the former servicemember’s disposable retired
pay by operation of federal law. “All such orders are thus preempted.” Howell, 137 S. Ct. at 1406.
The Court in Howell even went so far as to say that this has in fact been the rule of law since 1981.
“McCarty with its rule of federal preemption still applies'' Id. at 1404. And, that rule applies a
fortiori to all disability pay. Id. at 1406.
The Court further reminded the states that only Congress can say when and if the state may
exercise jurisdiction over federal benefits, and when it does so, its allowance is both “precise and
limited”. Id. at 1404, citing Mansell 490 U.S. at 589. The exception in the USFSPA only applies
to “disposable” retired pay, which is not (and never has been), an available asset in the case sab
judice because Petitioner’s CRSC pay was retroactively awarded to 2009 (R. 279). Further, 10
U.S.C. § 1413a(g), which governs such pay, expressly says that it is not to be considered
disposable retired pay for purpose the USFSPA’s limited allowance. See also DoD Financial
Management Regulations 7000.14-R, vol. 7B, ch. 63 (Oct. 2017), § 630101 .C.l, p. 63-4).
Mansell did not address the direct application of 38 U.S.C. § 5301 because, as the Court
noted, it was addressing only the “value” of the waived pay, not the disability pay itself, Howell
did have occasion to apply 38 U.S.C. § 5301 because the Court was addressing the situation, as
here, in which the state court approves of the veteran’s dispossession of the disability pay itself.
The Court ruled that state courts could not “vest” these benefits in anyone other than the
beneficiary by way of judgments, orders, decrees, indemnity, reimbursement, restitution, or forced
contractual arrangements. Indeed, 38 U.S.C. § 5301(a)(1) precludes the authority and jurisdiction
of state courts because it anticipates and prohibits, “any legal or equitable process whatever” from
being employed to deprive the disabled veteran of the benefit. It further voids from inception any
voluntary agreement the veteran might enter into to dispossess himself or herself of the benefit.
The public policy and rationale for 38 U.S.C. § 5301 (and related provisions) was thoroughly
discussed by the Court in United States v. Hall, 98 U.S. 343 349-356 (1878); Porter v. Aetna
Casualty and Surety Co., 370 U.S. 159, 161-162 (1962); Ridgway v Ridgway, 454 US 46, 60-61;
17

69a

102 S Ct 49; 70 L Ed 2d 39 (1981), inter alia. Petitioner submits the plain and unambiguous
language of the provision itself suffices to define its broad scope, the Court has nonetheless gone
out of its way to declare that the provision is be liberally construed and that the funds it protects
are “inviolate” as they relate to the rights of the beneficiary thereto. Porter, supra. See also, inter
alia, Wissner v. Wissner, 388 U.S. 655, 658-661 (1950) (where the state court ordered the
diversion of future payments of a veteran’s life insurance benefits to a former spouse (who was not
the designated beneficiary) the Court said it was a seizure in “flat conflict” with the anti­
assignment provision and of no effect per McCulloch v. Maryland, 17 U.S. 316, 400 (1819));
McCarty v. McCarty, 453 U.S. 210, 223-234 and nn. 22 and 23 (1981) (holding that the source of
the military retirement and benefits system is Congress’s enumerated military powers. Congress
never authorized or required property division of military retired pay; that the anti-assignment
provisions equivalent to 38 USC § 5301 prohibit attachment and cannot be avoided by offsetting
awards or orders of indemnification because the former spouse does not receive the benefits by
operation of federal law; “[s]tate courts are not free to reduce the amounts that Congress has
determined are necessary for the retired member”; and “the law of the State is not competent to do
this”) (internal quotations and citations omitted); Ridgway, supra at 52-63 (where federal statute
directly contradicts and conflicts with the state court’s disposition, the Supreme Court’s authority
extends “over state judgments to the extent that they incorrectly adjudge federal rights”; even in
the area of family law the Court has protected under the Supremacy Clause the rights and
expectancies established by federal law and in all such cases state law must yield; “Congress has
spoken with force and clarity in directing that the proceeds belong to the named beneficiary and no
other”; interpreting an anti-assignment provision equivalent to 38 U.S.C. § 5301 and stating that it
“pre-empts all state law that stands in its way”; “[i]t protects the benefits from legal process
‘[notwithstanding] any other law...of any State’”; “[i]t prevents the vagaries of state law from
disrupting the national scheme, and guarantees a national uniformity that enhances the
effectiveness of congressional policy.”); and Howell, 137 S. Ct. at 1404-1405 (directly applying 38
U.S.C. § 5301 and noting state courts cannot vest benefits in anyone other than the beneficiary
because they do not have the authority to do so).
Prior to the Supreme Court’s decision in Howell some state courts and parties used a range of
mechanisms to “divide” otherwise non-disposable and restricted disability pay. However, some
18

70a

state courts properly recognized that federal law preempted state law and removed the jurisdiction
of the state over these restricted benefits. See, e.g., Ryan v. Ryan, 257 Neb. 682, 686-693; 600
N.W.2d 739 (Neb 1999) (court exceeded its jurisdiction to the extent that divorce judgment
divided prohibited veterans’ disability benefits and order was void and subject to collateral attack
and res jvdicata did not apply); Youngbluth v. Youngbluth, 188 Vt. 53; 6 A.3d 677 (Vt. 2010) (38
U.S.C. § 5301 jurisdictional!y barred state courts from dividing prohibited veterans’ disability
benefits as property and stating that Mansell “makes it perfectly clear that the state trial courts
have no jurisdiction over disability benefits received by a veteran and courts may not do indirectly
what it cannot do directly ', citing, inter alia, King v. King, 149 Mich. App. 495, 386 N.W.2d 562
(Mich. App. 1986); Mallard v. Burkart, 95 So.3d 1264, 1270-1273 (Miss. 2012) (citing cases).
Howell sided with these cases. State courts across the country have since addressed the
precise facts of this case in which a trial court attempts to force a post-judgment indemnification or
reimbursement “agreement” between the parties. “[Tjhe Court in Howell held that a state court
'may not order a veteran to indemnify a divorced spouse for the loss in the divorced spouse’s
portion of the veteran’s retirement pay caused by the veteran’s waiver of retirement pay to receive
service-related disability benefits.” Sample v. Sample, 2018 Tenn. App. LEXIS 523, * 15 (Tenn.
App. 2018), citing Howell, 137 S. Ct. at 1401. See also Vlach v. Vlach, 556 S.W.3d 219, 223-224
(Tenn. App. 2017) (canvassing the pre-Howell cases and explaining that the Supreme Court in
Howell rejected both the “vested interest” approach and the “reimbursement or indemnification”
approach (the one used here by the trial court) because “either approach amounted to an award of
military pay waived in order to obtain disability benefits” and “reimbursement and indemnification
orders displace the federal rule and stand as an obstacle to the accomplishment and execution of
the purposes and objectives of Congress.”) (quoting Howell at 1405-1406); Roberts v. Roberts.
2018 Tenn. App. LEXIS, *22 (Tenn. 2018) Howell cases substantial doubt as to whether state
courts may enter divorce decrees of any kind in which the parties seek to divide any service related
benefit other than disposable retired pay); In re Babin, 437 P.3d 985, (Kan. Ct. App. 2019)
(Howell “abrogatjed] several cases dealing with property settlement agreements” and “endorsed
Mansell and its restriction on using a property settlement agreement to divide pay” and “overruled
cases relying on the sanctity of contract to escape the federal preemption) (emphasis added);
Berberich v. Mattson, 903 N.W.2d 233, 241 (2017) (Howell “makes clear that state courts ‘cannot
;?■

71a

‘vest’ that which (under governing federal law) they lack the authority to give’” and “overruled
cases relying on the sanctity of contract to escape federal preemption“[sjimply put, state laws
are preempted in this specific area,”) (emphasis added); Brown v. Brown, 260 So.3d 851, 857-858
(Ala, Ct. App. 2018) (Howell “recognized that some state courts were enforcing agreements and
divorce judgments entered before a military member chose to waive retirement pay to receive
disability pay, thus decreasing the pool of‘disposable retirement benefits’ in which the military
member’s spouse could share” and “determined that those state courts were acting in error” and
“once a military member opts to waive retirement pay for disability pay, a state court cannot
subsequently increase the spouse’s share of the military member’s retirement benefits, pro rata, or
otherwise indemnify the spouse for the shortfall that occurs when disability pay reduces the
amount of retirement pay from which the spouse it so receive a share.”); Hurt v. Jones-Hurt, 168
A.3d 992, 1001, 1002 (Md. Ct. App. 2017) (Howell “held that state law purporting to recognize a
vested interest in military retirement pay is preempted by federal law, period” and “the veteran’s
ability under federal law to waive retirement pay for disability benefits, at whatever time his
disability status might change, overrides (preempts!) any state law agreement he might have made,
or state court judgment to which he was a party, relating to his military retirement benefits” and
the military member’s “ability to elect disability benefits over retirement pay overrides our courts’
ability to amend the marital property award to reflect post-judgment changes in circumstances); In
re Marriage of Tozer, 410 P.3d 835, 836-837 (Colo. Ct. App. 2017) (“The Howell takeaway is
clear. Military retirement disability benefits may not be divided as marital property, and orders
crafted under a state court’s equitable authority to account for the portion of retirement pay lost
due to a veteran’s post-decree election of disability benefits are preempted”); In re Marriage of
Cassinelli (On Remand), 2018 Cal. App. LEXIS 177, *13 (2018) (Howell “held that a state court
cannot order a veteran ‘to indemnify the divorced spouse for the loss caused by the veteran’s
waiver’” and overruled case law that had previously held state courts were allowed to count a
retired servicemembers’ disability or other military benefits (there as here, CRSC) to force the
servicemember to reimburse or indemnify his or her former spouse for the latter’s lost share; and
stating “[bjecause CRSC pay is not retired pay - just as veteran’s disability benefits are not retired
pay - under FUSFSPA as construed in Mansell, a state court does not have jurisdiction to treat
CRSC as community property.”); Fattore v. Fattore, 2019 N. J. Super. LEXIS 16 (N. J. App.
20

72a

2019) (calculation of hypothetical pension benefit waived as a result of veteran's receipt of
disability pension and payment of that figure from another asset belonging to veteran is
preempted). Finally, in Foster v. Foster, 2020 Mich. LEXIS 687, *21-22 (April 29, 2020), the
Michigan Supreme Court held that a consent agreement requiring the disabled veteran to
dispossess himself of disability benefits was prohibited by 38 U.S.C. § 5301(a)(1) and (3) and
therefore impermissible. On remand to the Court of Appeals, in Foster v. Foster (On Second
Remand), 2020 Mich. App. LEXIS 4880, * (Mich. Ct. App., July 30, 2020), the Court held that the
principle of federal preemption deprived the state courts of subject matter jurisdiction to the extent
that the lower court required the veteran to dispossess himself of his federal disability benefits and
therefore the veteran “did not engage in an improper collateral attack on the 2008 consent
judgment.” Edwards v. Edwards, 132 N.E.3d 391 (lnd. App. 2019), transfer denied 138 N.E. 3d
957 (2019) (holding that res judicata barred the challenge to the veteran’s prior agreement but that
Howell required the trial court to modify the judgment so that the veteran would not be required to
continue using his disability benefits to pay his former spouse going forward).
CONCLUSION
In light of this significant (and growing) body of post-Howell case law across the country,
this Court has the opportunity to address a post-Howell decision forcing a veteran to continue to
dispossess himself of these benefits in a manner contrary to federal law. Petitioner urges it do so
here.
Moreover, the Court of Appeals qualified its approval of the judgment in this case noting that
it was not aware of a prohibition on the enforcement of the consent agreement. As demonstrated
herein, the plain language of 38 U.S.C. § 5301(a)(3), which applies to the CRSC benefits at issue.
actually prohibits agreements by the veteran to dispossess himself of the restricted benefits.
Moreover, pursuant to this provision, which the Howell court noted was applicable, a state court
may not use any legal or equitable process whatever to force the veteran to abide by such an
agreement where these benefits are implicated in the proceedings.
The Louisiana Civil Code recognizes that the obligation of a contract must be lawful and
must not be prohibited by law.

Preexisting federal law prohibits a veteran from agreeing to

contract his personal entitlement to veterans’ benefits. 38 U.S.C. § 5301(a)(3).

2)

73a

Petitioner respectfully suggests that the requirements of Rule X(l)(a) are present in the
instant case and respectfully requests this Honorable Court grant his application for review.

Respectfullysubmitted.

Is/ Carson J. Tucker
Carson J. Tucker (Michigan Bar No. P62209)
PRO HAC VICE (admission pending-documentation of application attached)
Lex Fori PLLCpro bono for Trinity Advocates
117 N, First St., Suite III
Ann Arbor, Ml 48104
Phone: (734) 887-9261
Fax: (734) 887-9255
cjtucker@lexf6ri.prg

Jsl David C, Hesser
David C. Hesser
Louisiana Bar Roll No. 23131
Hesser & Flynn, LLP
2820 Jackson St.
Alexandria, LA 71301
Phone: (318) 542-40)2
Fax:(318)442-4.105
david@hesserlaw.com
Attorneys for Petitioner / Applicant, Kevin Lee Bou'tte

22

74a

VERIFICATION
STATE OF LOUISIANA
PARISH OF RAPIDES
BEFORE ME, the undersigned authority, personally came and appeared:
David C. Hesser
who, upon being duly sworn, did depose and sav:
That he is one of the attorneys for Applicant, Kevin Lee Boutte, in the above-entitled and
numbered proceeding, and who certified that he has prepared and read the foregoing Writ
Application and that all of the allegations contained therein are true and correct to the best of his
knowledge.
That copies ofthe Writ Application were duly served upon the Honorable Judge, C.
Kern- Anderson, by U.S. Mail, properly addressed and postage prepaid, Charles G. Blaize and
Frederic C. Fondren, counsel for Yvonne Boutte, by U.S. Mail, properly addressed and postage
prepaid, and Honorable Renee R. Simien, Clerk, Third Circuit Court of Appeal on this 7th day of
August, 2020.

David C. Hesser
SWORN TO AND SUBSCRIBED BEFORE ME, Notary Public, this 7th day of August,
2020.

r>
Notary Public
hRy \« s W
Bar Roll No, Jj 15<; /o^
(My commission expires at death)

23

75a

CERTIFICATE OF SERVICE
STATE OF LOUISIANA
PARISH OF RAPIDES
BEFORE ME, the undersigned Notary, personally came and appeared David C. Hesser,
who being duly sworn did depose and say that he is the counsel of record for Kevin Lee Boutte
and that all allegations of this Writ Application are true and correct, and that a copy has been
sent via U. S. mail to the Judge, Clerk, Third Circuit Court of Appeal and to Charles G. Blaize
And Frederic C. Fondren, counsel for Yvonne Boutte as follows:
Honorable C, Kerry Anderson
361h Judicial District Court
Beauregard Parish
201 W 151 Street
BeRidder, Louisiana- 70634
Telephone: 337-463-7993
Facsimile: 337-463-9244
Mayhall Fondren Blaize
Charles G. Blaize
Frederic C. Fondren
628 Wood Street
Houma. Louisiana 70360
Telephone: 985-223-4723
Facsimile: 985-851-3069
Honorable Renee R. Simien
Clerk, Third Circuit Court of Appeal
1000 Main Street
Lake Charles, Louisiana 70615

David C. Hesser
SWORN TO AND SUBSCRIBED BEFORE ME, Notary Public, this 7th
day of August, 2020.
Notary Public
14-.Cr:
Bar Roll No. 23iS<i
(My commission expires at death)
°

24

a

76a

CERTIFICATE FOR ATTACHMENTS
STATE OF LOUISIANA
PARISH OF RAPIDES
BEFORE ME. the undersigned Notary, personally came and appeared David G. Hesser,
who being duly sworn did depose and say that
I hereby verify that the Opinion attached to this Writ Application has previously been
made part of the Appeal Record, to the best of my kno wledge, information, and belief. 1
understand that failure to comply with this local rule may result in the refusal to consider said
attachments. WILLFUL FAILURE TO COMPLY WITH THIS LOCAL RULE MAY SUBJECT
ME TO PUNISHMENT FOR CONTEMPT OF COURT.

David C. Hesser
SWORN TO AND SUBSCRIBED BEFORE ME, Notary Public, this 7th
day of August, 2020,
Notary Public
l-WC/Ossfw
Bar Roll No. Juhsfu /V. W <?(//•]
(My commission expires at death)
°

25

77a

SUPREME COURT OF LOUISIANA
DOCKET NUMBER 2020-C-985
YVONNE RENEA BOUTTE,
Plaintiff-Respondent
versus
KEVIN LEE BOUTTE
Petitioner-Applicant.
Application for a Writ of Certiorari from a July 8, 2020
decision by the Court of Appeal.. Third Circuit, State of Louisiana
Docket No. 19-734, affirming a decision of the
36'h District Court for the Parish of Beauregard,
Civil Docket No. C-2010-1241-B, June 24, 2019
Judge C. Kerry Anderson presiding
OPPOSITION TO ORIGINAL APPLICATION FOR A WRIT OF CERTIORARI
FAMILY LAW MATTER

BY:
CHARLES G. BLAIZE, (#25575)
FREDERIC C. FONDREN, #23733
MAYHALL FONDREN BLAIZE
628 Wood Street
Houma, LA 70360
Telephone: 985-223-4725
Facsimile: 985-851-3069
COUNSEL FOR PLAINTIFF-RESPONDENT
YVONNE RENEA BOUTTE

78a

APPELLEE’S STATEMENT OF THE CASE
Kevin Boutte’s writ application represents the latest installment in his long-time quest to
weasel out of what he has repeatedly promised to do: resume paying his ex-wife an amount equal
to 43% of his military benefit. He thinks he has finally found the magic bullet: the 2017 case of
Howell v. Howell,

U.S.___, 137 S.Ct. 1400, 197 L.Ed.2d 781 (2017), in which the United

States Supreme Court held that a state may not require a Veteran to indemnify his ex-wife for the
loss of her portion of the Veteran’s retirement pay caused by the Veteran’s waiver of such
retirement pay in order to receive service-related disability benefits.
As the court of appeal noted, however, Howell does not come into play at all. because the
question is one of res judicata—not substantive application of the federal statutes governing the
division of military benefits in divorce settlements. Remarkably, in his entire writ application,
Kevin doesn 't address what the court of appeal characterized as the "only issue " before the
court on appeal: "whether the trial court erred in finding that res judicata applied to a consent
judgment in a family law case. ” (Ct. Appeal J. at 3.)
Not only does Kevin’s Michigan lawyer fail to discuss the Louisiana law of res judicata.
but he fails to discuss the possible grounds under Louisiana law for nullifying his 2014 consent
judgment. Perhaps that was by design, because none of the possible grounds apply in this case.
Even if they did, it would not matter, because Kevin unquestionably “acquiesced” in the consent
judgment, and is thus statutorily barred from attempting to nullify it.
As explained below, neither Howell nor the preemption doctrine presents any impediment
to enforcing the consent judgment in which Kevin agreed to “resume” paying an amount to his
ex-wife equal to 43% of his military benefits. Kevin’s misbegotten writ application should be
summarily denied.
APPELLEE’S RESTATEMENT OF THE FACTS
Kevin agrees in 2012 to pay Yvonne 43% of his “military retirement pay and/or benefit” in
exchange for Yvonne’s giving up permanent spousal support.
Kevin Boutte retired from the military in 2009, and his wife Yvonne Boutte filed a
petition for divorce on December 21, 2010. (R. at 9-15, Pet. divorce.) The parties ended then'
initial litigation over the divorce and ancillary matters by entering into a consent judgment on

i

79a

January 19, 2012 that entitled Yvonne to 43% of Kevin’s “military retirement pay and/or
benefit.” (R. at 49-51, 1/19/12 Consent J., emphasis added.)
At the time that the parties entered the 2012 consent judgment, both Yvonne and Kevin
believed that she would be able to prove that Kevin was at fault because of his multiple
infidelities, and establishing fault -was a prerequisite for Yvonne to be entitled to permanent
spousai support: a result that Kevin certainly did not want. (R. at 357-58, 376-81, Hr’g Tr.)
Therefore, Kevin’s agreement to pay the 43% was a critical element of the parties’ negotiations;
it was the reason why Yvonne agreed to only 30 months of spousal support rather than
permanent support. (R. at 381.)
Kevin converts his military retirement pay to disability pay and stops paying Yvonne the agreed
43%.
After the 2012 consent judgment was executed, Kevin, who claims to suffer from PTSD,
mood disorder, and cognitive disorder, applied in 2013 to have his retirement pay converted to a
form of disability pay called Combat Related Special Compensation (“CRSC”). (R. at 279,
CRSC decision letter.) This request was granted in early 2014. {Id.)' Because CRSC pay is
generally not divisible as community property under federal law, the Defense Finance and
Accounting Service (“DFAS”), which had been issuing payments for the 43% directly to
Yvonne, stopped making payments to her. (R. at 306, 381-82.) When Yvonne notified Kevin
about DFAS’s action and asked him to resume the payment in accordance with the consent
judgment, Kevin “said he was not going to pay it, and that he would see [her] in court." (R. at
383.) Despite knowing that the 43% was an important consideration in the settlement calculus.
and despite knowing that both parties intended that Yvonne would receive these benefits until
Kevin’s death and that he would do nothing to Stop this (R. at 358), Kevin refused to make any
further payments to Yvonne after DFAS stopped making automatic payments to her. (R. at 32728.)

' It was understood by the parties that Kevin’s VA Disability pay was not part of the 2012 consent judgment, as
evidenced by further language in the judgment referring solely to “pension benefits” or “retirement pay.” (R. at 5051.) At the time of the April 29, 2019 hearing, Kevin was receiving S3,139 monthly in VA Disability pay, and
$1,481 monthly in CRSC pay. (R. at 346.) It is only Yvonne’s entitlement to half of the $1,481 monthly CRSC pay
that is in dispute; she has never claimed any share of the VA Disability pay.
2

80a

A 2014 consent judgment requires Kevin to “resume” paying Yvonne 43% of his “military...
benefit. ”
In response, Yvonne filed a Rule for Contempt and/or Rule for Allocation of Assets
Pursuant to R.S. 9:2801.1. (R. at 54-56.) Kevin challenged this pleading raising Exceptions of
No Cause of Action and No Right of Action, and arguing that he was not required to pay Yvonne
any portion of the CRSC because it was not subject to division as community property. (R. at
285-93, Exceptions.) Kevin - who was at all times represented by counsel - withdrew his
exceptions, and the parties agreed to a stipulated consent judgment that was signed by the trial
court on June 6, 2014 and provided, inter alia, as follows:
IT IS FURTHER ORDERED. ADJUDGED, DECREED AND
STIPULATED that the parties agree that the defendant, KEVIN
LEE BOUTTE, shall resume payment to the plaintiff, YVONNE
RENEA BOUTTE of her forty three percent (43%) interest in the
defendant's military retirement pay and/or benefit including cost
of living expenses as ordered by the Consent Judgment and
Voluntary Partition Agreement dated January 19th, 2012.
(R. at 77-78, emphasis added.)
Pursuant to this consent judgment, and in order to avoid sanctions for contempt, Kevin
resumed paying 43% of his CRSC to Yvonne. (R. at 364, 373.)
In 2018, Kevin seeks to re-litigate whether he must continue paying 43% of his “retirement...
benefit” to Yvonne.
On August 22, 2018 - more than four years after acquiescing to the 2014 consent
judgment - Kevin filed a Petition for Declaratory Judgment, Alternative Petition to Annul
Judgment, and Alternative Petition to Modify MDRO, seeking to re-litigate the issue he had
raised in 2014 as to whether he was required to continue paying Yvonne 43% of his CRSC pay.
(R. at 81-90). In response, Yvonne filed Exceptions of Res Judicata, No Cause of Action, and
No Right of Action, and in the Alternative, Petition foi Specific Performance and Injunctive
Relief. (R. at 95-103.)
The trial court properly sustains the res judicata exception.
At the hearing of the exceptions on April 29, 2019, the trial court sustained the exception
of res judicata, denying Kevin’s 2018 Petition. (R. at 388-91.) As the trial court explained,
[Bjasically what Mr. Hesser is artfully trying to do for his client is
the same thing that could have been argued on May 22ntl, 2014, and
that is under Federal law and the prior judgment in this matter, Mr.
Boutte doesn’t have to pay Ms. Boutte anything. And the parties
3

81a

agreed differently on May 22"d, 2014. Not only did the parties
agree differently in a judgment based upon that stipulation was
rendered, but Mr. Boutte has in accordance with that agreement
and judgment continued to pay.
(R. at 388.)
The trial court further explained that the conversion to CRSC pay had already occurred
by the time that Kevin litigated the issue in 2014 as to whether he was required to continue
paying 43% of his military benefit. (R. at 389.) Thus, the issue that Kevin raised in 2018 (and in
this appeal) about the CRSC pay is essentially the same issue as what he had already litigated in
2014. (Id)
The court of appeal correctly affirms the trial court’s ruling.
Kevin appealed. The only issue presented to the court of appeal was “whether the trial
court erred in finding that res judicata applied to a consent judgment in a family law case.” (Ct.
Appeal J. at 3.) The court of appeal affirmed the trial court.
The court of appeal rejected Kevin’s argument that the case was not “actually
adjudicated” for res judicata purposes because the consent judgment did not expressly refer to
disability pay. (Id. at 5-6.) The court noted that in light of the conduct of the parties and the
reference in the consent judgment to “retirement pay and/or benefit,” the “only logical
conclusion” was that the matter of disability pay was adjudicated. (Id. at 6.) The court of appeal
further explained that under Louisiana law, consent judgments settling property matters are
adjudications. (Id. at 6-7.)
The court of appeal noted that in Howell v. Howell,__ U.S.

., 137 S.Ct. 1400, 197

L.Ed.2d 781 (2017), the Supreme Court held that military disability pay is not divisible as
community property. But the court of appeal found that Howell did not apply because the issue
had already been litigated. Thus, it affirmed the exception of res judicata. (Id. at 8.)
As explained below, both lower courts correctly applied the law' of res judicata. Kevin’s
writ should thus be denied.

4

82a

ARGUMENT
Section 1 explains that the lower courts correctly found that res-judicata bars Plaintiffs
attempts to re-Iitigate what was adjudged in 2014. Section 2 shows that there are no applicable
mechanisms by which Kevin can nullify the judgment - especially since he acquiesced in the
judgment. Finally, Section 3 shows that neither Howell nor the preemption doctrine precludes
Louisiana courts from enforcing the consent judgment in which Kevin promised to “resume”
paying an amount equal to 43% of his military disability pay to Yvonne.

1.

The lower courts properly sustained the res judicata exception because
Kevin’s latest attempt to avoid paying any of his military benefit to his
ex-wife is the same action he litigated back in 2014.
The trial court correctly applied the law of res judicata, which provides as follows:
Except as otherwise provided by law, a valid and final judgment is
conclusive between the same parties, except on appeal or other
direct review, to the following extent:
(1) If the judgment is in favor of the plaintiff, all causes of action
existing at the time offinal judgment arising out of the transaction
or occurrence that is the subject matter of the litigation are
extinguished and merged in the judgment.
(2) If the judgment is in favor of the defendant, all causes of action
existing at the time of final judgment arising out of the transaction
or occurrence that is the subject matter of the litigation are
extinguished and the judgment bars a subsequent action on those
causes of action.
(3) A judgment in favor of either the plaintiff or the defendant is
conclusive, in any subsequent action between them, with respect to
any issue actually litigated and determined if its determination was
essential to that judgment

R.S. 13:4231 (emphasis added).
In 2014, Yvonne Boutte filed a Rule for Contempt and/or Rule for Allocation of Assets
after Kevin Boutte had his military retirement pay converted to CRSC pay and then stopped
paying any of his military benefits to Yvonne.

(R. at 54-65.)

In this pleading, Yvonne

specifically alleged that Kevin had agreed to pay 43% of his “military retirement pay and/or
benefit” in a 2012 consent judgment and had promised her that he would not do anything to
interfere with her future receipt of these payments, but that he breached these obligations. (R. at
54-55.) Kevin filed exceptions to this Rule, arguing that he was no longer obligated to make

5

83a

payments to Yvonne because he had his retirement pay converted to CRSC pay, and CRSC pay
is not generally subject to division as a community asset. (R. at 68-76.)
The litigation over this issue ended in a consent judgment in which Kevin stipulated that
he was in contempt of court, and that he would “resume" paying Yvonne 43% of his “military
retirement pay and/or benefit” (and also that he would pay an arrearage from when he had
stopped making payments). (R. at 77.) Under the resjudicata statute, this judgment “in favor of
the plaintiff’ (Yvonne) regarding her entitlement to continue receiving 43% of Kevin’s CRSC
pay is “conclusive” between Kevin and Yvonne, and the “issue” of whether Kevin is required to
continue paying Yvonne 43% of his CRSC pay cannot be re-raised. R.S. 13:4231. Thus,
Kevin’s attempt four years later to re-litigate precisely the same issue of whether he is required
to continue paying Yvonne 43% of his CRSC pay, was propeily rejected on res judicata
grounds.
Kevin’s lead argument on appeal was that under R.S. 13:4232(B), res judicata does not
apply to “an action for partition of community property and settlement of claims between
spouses under R.S. 9:2801” unless the causes of action are “actually adjudicated,” and according
to Kevin, a consent judgment is not an “adjudication.” (Appellant’s Br. at 12-15.) The court of
appeal properly rejected this argument. It cited Riche v. Riche, 09-1354 (La.App. 3 Cir. 4/7/10),
34 So.3d 1004, in which the court held that a compromise in a community settlement was
“actually adjudicated,” citing La. C.C. art. 3080, which precludes subsequent litigation on a
matter that is compromised. The Riche court further noted that:
Comment (b) to article 3080 provides that the preclusive effect of
the article is tantamount to that of former article 3078, which
provided that a transaction or compromise had the effect of a thing
adjudged; therefore, res judicata would attach as though the
document were a judgment.
id. at 1008.
Other authorities showing that a consent judgment is an “adjudication” for purposes of
R.S. 13:4232(B) include Fletchinger v. Fletchinger, 2010-0474 (La.App. 4 Cir. 1/9/11); 56 So.3d
403, 406. In Fletchinger, the trial court found that a consent judgment entered into by a husband
and wife constituted a final judgment allocating all former community property between parties,
and that res judicata precluded re-litigation in divorce proceedings of the proper allocation of
certain property. Id. The trial court noted that the consent judgment was entered after “hours of
6

84a

wrangling between the parties, their counsel, and the trial court” and that the relevant language in
the consent judgment was “clear and unambiguous." Id.
The same thing is true in the instant case. The parties each filed pleadings on the issue of
whether Kevin was required to continue paying Yvonne 43% of his CRSC benefit, and there was
a hearing on May 22, 2014, culminating in stipulations and agreements between the parties that
involved the superintendence of the trial court. (R. at 77-78, 2014 consent J.) The resulting
consent judgment unambiguously stated that Kevin would “resume” paying Yvonne 43% of his
“military retirement pay and/or benefit." (Id.) The only “military retirement pay and/or benefit”
at issue was the CRSC pay, so there can be no doubt that the parties intended to conclude their
litigation by Kevin’s agreeing to “resume” paying Yvonne 43% of his military “benefit” which at
this time existed only in the form of CRSC pay. Just like in Riche, the language in the consent
judgment made it clear that Kevin and Yvonne did not reserve any other issues for litigation for a
later date.
The 1991 comment to R.S. 13:4232 underscores that the exceptions of R.S. 13:4232(B)
apply only when the “judgment is silent as to the actions in question.” In the case at bar, the
consent judgment is far from “silent as to the actions in question”; it very clearly addresses the
sole “action in question” by stating that Kevin “shall resume payment” to Yvonne for 43% of his
“military retirement pay and/or benefit.” Thus, the court of appeal correctly found that “the only
logical conclusion to be reached is that the benefits referenced in the 2014 Consent Judgment are
the CRSCD benefits” - and that this issue was adjudicated for res judicata purposes.

(Ct.

Appeal J. at 6, 7.)
Other jurisdictions have similarly applied res judicata to bar a Veteran’s challenge to a
prior agreement concerning the vision of military benefits. Edwards v. Edwards, 132 N.E.3d
391, 396-97 (Ind. Ct. App. 2019). Kevin falsely claims that the Edwards court required the trial
court to modify the judgment to reflect Kevin’s view of federal law. It did not. The Edwards
court simply held that res judicata barred the Veteran’s challenge to his prior agreement - just as
the court of appeal correctly found in the case at bar.

7

85a

2.

Kevin cannot assert an applicable Louisiana grounds for nullifying the
consent judgment.
just as Kevin fails to address the Louisiana law of res judicata, he fails to address the

possible grounds for nullifying a judgment. And for good reason: none of them are applicable to
the case at bar.
In Louisiana, a judgment can be annulled for vices of form or substance. La. C.C.P. art.
2001. The only recognized vice of substance is when the judgment was obtained by fraud or ill
practices. La. C.C.P. art. 2004(A). Kevin has never alleged fraud or ill practices, much less
provided evidence of such, and even if he had, his claim would be prescribed since it wasn’t
brought within a year of discovery of it. La. C.C.P. art. 2004(B).
The only possible vices of form are set forth in La. C.C.P. art. 2002(A):
A. A final judgment shall be annulled if it is rendered:
(1) Against an incompetent person not represented as required by
law.
(2) Against a defendant who has not been served with process as
required by law and who has not waived objection to jurisdiction,
or against whom a valid judgment by default has not been taken.
(3) By a court which does not have jurisdiction over the subject
matter of the suit.
Kevin fails to directly raise any of these grounds. He indirectly' raises the third of these
grounds, implying in his writ application that the state courts lacked subject-matter jurisdiction
over his claim because federal law preempts state law with respect to the division of military
benefits upon divorce. This conflates an alleged legal error with a lack of jurisdiction. Louisiana
courts unquestionably have jurisdiction to divide assets in a divorce, even when some of the
assets are governed by “preemptive]” federal law. E.g., R.S. 9:2801.1. A “purported violation”
of preemptive federal rules governing divisibility' of military disability benefits upon divorce
“does not” strip courts of subject-matter jurisdiction. Tarver v. Reynolds, No. 2:18-CV-1034WKW, 2019 WL 3889721, at *6 (M.D. Ala. Aug. 16, 2019) (citing decisions of numerous
different state courts). See also Edwards, 132 N.E.3d at 395-96.
In any event, even if the Louisiana state courts lacked subject-matter jurisdiction
regarding the 2014 consent judgment, Kevin is barred from raising such grounds to nullify the
judgment, because he undisputedly “acquiesced” in the consent judgment. La. C.C.P. art. 2003
(providing that a defendant “who voluntarily acquiesced in the judgment. . . may not annul the
8

86s

judgment on any of the grounds enumerated in Article 2002”). Kevin simply does not have a
viable avenue to avoid the promise he made to Yvonne.

3;

Howell provides no impediment to enforcing Kevin’s agreement to
“resume” paying Yvonne payments pursuant to their settlement
agreement.
Kevin’s keystone argument is based on the 2017 case of Howell v. Howell,___U.S.___,

137 S.Ct. 1400, 197 L.Ed.2d 781 (2017). In Howell, the Court held that a state court may not
order a Veteran to indemnify a divorced spouse for the loss of the divorced spouse’s portion of
the Veteran’s retirement pay caused by the Veteran’s waiver of such retirement pay to receive
service-related disability benefits. Howell, 137 S.Ct. at 1402. In other words, if a property
settlement includes military retirement pay, and the Veteran later waives part of that retirement
pay in order to receive CRSC pay, the Veteran is not required to pay the divorced spouse part of
the CRSC pay in order that the recipient spouse will continue receiving the same amount.
Rather, the recipient spouse has no “vested interest” in receiving an amount equal to her original
share of the retirement pay, because the retirement pay was always subject to the “contingency”
that it could be waived and converted to CRSC pay. Id. at 1404-06.
Contrary to Kevin’s narrative, however, “Howell does not hold that a state court cannot
enforce a property division by ordering a service member who unilaterally stops making
payments the service member was legally obligated to make to resume those payments and payarrearages.” Gross v. Wilson, 424 P.3d 390 (Alaska 2018).
Gross is remarkably on point with the case at bar. In Gross, the parties entered a courtmediated settlement agreement whereby the Veteran agreed to pay his ex-wife 50% of all of his
military' pay. Id. at 401. The agreement provided that the payments would continue throughout
the Veteran’s life, and that if the Veteran or the military' did anything that would reduce the exwife’s share of the retirement pay, the Veteran would reimburse his ex-wife for the reduction.
Id. at 393. Just like Kevin, the Veteran in Gross “stopped paying [his ex-wife] the amount she
was entitled to pursuant to the property division” on grounds that he had waived retirement pay
in favor of disability pay. Id. at 401. The ex-wife filed a motion to enforce the settlement, and
the lower courts ordered the Veteran to “resume" paying his ex-wife pursuant to their agreement.
Id.

9

87a

On appeal, the Gross court began by considering whether there was a procedural basis
under Alaska law for the Veteran to attack the enforcement of the divorce settlement—an
analysis that is very similar to the discussion supra part 2 regarding the Louisiana bases for
nullifying a final judgment (including consent judgments in a divorce proceeding). Just as Kevin
has not asserted a valid basis under Louisiana law for nullifying the 2014 Consent Judgment,
supra part 2, the Gross court found that the Veteran “has asserted no valid basis under [Alaska
law] for bringing a collateral attack on the property division more than a year after he voluntarily
agreed to it.” Id. at 399. (Notably, the Gross court found that even if the divorce decree
erroneously applied federal law by dividing the Veteran’s disability pay, this did not mean that
the lower court lacked subject-matter jurisdiction or that the decree was void. Id. at 397.)
The Gross court next considered whether the lower court impermissibly required the
Veteran to “indemnify” his ex-spouse. Id. During the pendency of the appeal, Howell was
decided. Id. at 400. The Gross court recognized that Howell prevents a state court from ordering
a Veteran to “indemnify” his spouse for retirement benefits waived to receive disability pay. But
the Gross court found that Howell does not prevent a court from ordering a Veteran to “resume
monthly payments” as ordered pursuant to a settlement agreement.

Id.

Thus, under the

reasoning of Gross, Howell does not extend so far as to interfere with the 2014 consent judgment
that ordered Kevin to “resume payment” to Yvonne pursuant to their agreement that he pay her
43% of his entire “military . .. benefit” including CRSC pay.
When Kevin agreed to pay Yvonne 43% of his military' retirement pay “and/or benefit,”
he did so with eyes wide open, after he had already converted his military retirement pay to
disability pay. Regardless of whether the consent judgment was in error, it is now a valid final
judgment, and as the Gross court pointed out, Howell does not bar state courts from enforcing
such a judgment by requiring a Veteran who unilaterally stops making payments he was required
to make under that judgment to resume making those payments.
CONCLUSION
Just like in Gross, Kevin’s and Yvonne’s 2014 consent judgment is a final judgment.
Kevin did not assert valid grounds for nullifying the judgment (nor could he, since he acquiesced
in it). Therefore, res judicata bars Kevin from coming back to court several years later to

10

883

challenge it. As the Gross court held, Howell poses no impediment to enforcing the very type of
consent judgment that Kevin freely entered into. Accordingly, Kevin’s writ should be denied.

Respectfully Submitted:
MAYHALL FONDREN BLAIZE

/s/Charles G. Blaize
CHARLES G. BLAIZE (#25575)
FREDERIC C. FONDREN (#23733)
Appeal Counsel
628 Wood Street
Houma, LA 70360
Telephone (985) 223-4725
Facsimile (985) 851-3069

CERTIFICATE OF SERVICE
I hereby certify that a copy of the above and foregoing opposition to writ of certiorari has
this day, 21st day of August. 2020. been served upon the following by hand delivery' and/or fax
and/or electronic mail and/or by placing in U.S. mail, postage prepaid and properly addressed:
Honorable Renee R. Simien
Clerk, Third Circuit Court of Appeal
1000 Main Street
Lake Charles, LA 70615
Judge C. Kerry Anderson
36th Judicial District Court
P.O. Box 1148
DeRidder, LA 70634
KEVIN BOUTTE, THROUGH HIS ATTORNEYS:
Carson J. Tucker (Michigan Bar No. P62209)
Pro Hac Vice (admission pending)
Lex Fori PLLC pro bono for Trinity Advocates
117 N. First St., Suite 111
Ann Arbor, MI 48104
David Hesser
Hesser & Flynn, LLP
2820 Jackson Street
Alexandria, LA 71301

/s/ Charles G. Blaize
FREDERIC C. FONDREN
CHARLES G. BLAIZE, JR.

11

89a

IN THE SUPREME COURT
STATE OF LOUISIANA
Docket No. 2020-C-985

YVONNE RENEA BOUTTE. Respondent
VERSUS
KEVIN LEE BOUTTE, Petitioner/ Applicant

Application for a Writ of Certiorari
from a July 8, 2020 decision by tbs
Court of Appeal, Third Circuit, State of Louisiana
(Judges Conery, Savoie and Perry)
Docket No.. 19-734.
affirming a decision of uve
36th District Court for the Parish of Beauregard,
Civil Docket No. C-20I0-1241-B, June 24, 2019
(Judge C. Kerry Anderson)

REPLY TO THE OPPOSITION’S BRIEF
FAMILY LAW MATTER

Respectfully, submitted by:

Carson J. Tucker (Michigan Bar No. P62209)
PRO HAC VICE (admitted by correspondence dated August 5, 2020 — 20-PHV-33.4)
Lex Fori PLLCpro bono for Trinity Advocates
117N. First.St., Suite Hi
Ann Arbor, MI 48104

Phone: (734) 887-9261
Fax: (734) 887-9255
cjtucker@lexfori.org
David C. Hesser
Louisiana Bar Roll No. 23131
Hesser & Flynn, LLP
2820 Jackson St.
Alexandria, LA 7130!
Phone: (318) 542-4102
Fax:(318)442-4105
Attorneys for Petitioner / Applicant, Kevin Lee Boutte

90a

TABLE OF CONTENTS
TABLE OF AUTHORITIES.....................

.in

REPLY TO APPELLEE’S OPPOSITION
CONCLUSION............................ ..... .......
CERTIFICATE OF SERVICE.....

■O-

91a

TABLE OF AUTHORITIES
Cases
Adams v. United States,
126 Fed. Cl. 645 (2016)..........................................................

4

Bolide v. Bovtte,
2020 La. App. LEXIS 1030 (2020).......................................

1

Edwards i>. Edwards,
132 N.E.3d .391 (ind. App. 201.9)..........................................

...3

Fishgold v. Sullivan Drydock & Repair Corp..
328 U.S. 275 (1946)......................................... ........................

5

Foster v, Foster 111,
__ Mich. App.
2020 Mich. App. LEXIS 4880 (2020)

4

Foster v. Foster,
.___Mich.____;___ N. W.2d

4

2020 Mich. LEXIS 687 (Mich. 2020)

Gibbons v, Ogden,
22 U.S. 1 (1824)...................

2

Gross v. Wilson.
424 P.3d 390 (Alaska 2018)

3

Henderson v. Shinseki.
562 U.S. 428 (2011)...'.
Hines v. Lowrey,
305 U.S. 85 (1938).

2

Howell v. Howell,
137 S. Ct. 1400(2017)

passim

In re Marriage ofHapaniewski,
107 111. App. 3d 848 (Ill. App. 1982)

4

Kalb v. Feurstein,
308 U.S. 433 (1940)

2

Mansell v. Mansell,
490 U.S. 581 (1989)

1, 3

Martin v. Hunter ‘x Lessee,
14 U.S. 304(1816)............

6

Maryland v. Louisiana.
451 U.S. 725 (1981)....

2

McCarty v. McCarty,
453 U.S. 210(1981)..

4

McCulloch v. Matyland.
17 U.S. 316(1819).....

6,7

McGirt v. Oklahoma,
140 S. Ct. 2452 (2020)

7

iii

92a

Porter v. Aetna Casualty & Suretv Co.,
370 U.S. 159 (1962)......... .......

2.5

Rose v. Rose,
481 U.S. 619 (.1987)

2

Sturges v. Crowninshield,
17 U.S. (4 Wheat) 122 (1819)

2

United States v. Hall,
98 U.S. 343 (1878).................

1

Youngbluth v Youngbluth,
188 Vt. 53. 70; 6 A. 3d 677 (2010).
Statutes

.. 4

10 U.S.C. § 1408

3

10 U.S.C. § 1413a

3

38 U.S.C. § 31.01

2

38'U.S.C. § 5301

passim

Treatises
Story, Commentaries on the Constitution, vgI.II, § 1839 (3d ed 1858)................
Regulations

...7

DoD Financial Management Regulations 7000.14-R, vol. 7B, ch. 63 (Oct. 2017)

3

iv

93a

REPLY TO APPELLEE’S OPPOSITION
Appellee glosses over the Court of Appeals significant qualification in tills case. It ruled that
res judicata applied to Kevin’s agreement because it did not find that “the object of the contract is
restricted by the government because it violates public policy....” See Boitlte v. Boutle, 2020 La.
App. LEXIS 1030, * 12 (2020) (emphasis added). Long ago, Congress removed from state courts the
necessity of concerning themselves with the often unpleasant consequences of dividing a veteran’s
disability pay as property in state-court divorce proceedings. United States v. Hall, 98 U.S. 343, 356
(1878) (discussing the federal statutes preceding 38 U.S.C. § 5301 and explaining that they render
wholly void any attempt at a prohibited disposition of the benefits at issue). These statutes have been
in place at least as long as Congress has granted such bounties to its wounded servicemembers. Id.
at 348. These restrictions on state courts imposed by Congress removed any negative tendencies one
might have to question the disabled veteran’s integrity or to doubt the nature and extent of his or her
injuries, an endeavor in which Appellee’s counsel unfortunately engages in his opposition before
this Honorable Court. See Opposition Brief at page 1, describing the disabled veteran as trying to
“weasel” out of a promise, and at page 2, refusing to accept the government’s conclusion that Kevin
suffers from a combat-related disability. But see the Appellate Record at 279 (as of November 2009
and June 2010 the VA assessed 30% and 70%, respectively, of Kevin’s disability as including “PostTraumatic Stress Disorder, Mood Disorder, and Cognitive Disorder”).
In fact, Appellee’s counsel’s discreditable, but predictable reaction to this situation is precisely
why the preempti ve federal statutes are applicable in these cases. They remove the pain of having to
choose a perceived injustice in following supreme and irrefutable law. Mansell v. Mansell, 490 U.S.
581, 593-594 (1989) (noting that the wisdom of Congress’s policy choices do not have to be
consulted in light of the plain language of the statutes protecting veterans’ disability benefits).
Subsection (a)(3)(A) of 38 U.S.C. § 5301 prohibits a beneficiary from entering into any agreement
to dispossess himself or herself of the restricted benefits. “[I]n any case where a beneficiary entitled
to compensation, pension, or dependency and indemnity compensation enters into an agreement with
another person under which agreement such other person acquires for consideration the right to
receive such benefit by payment of such compensation... such agreement shall be deemed to be an
assignment and \sprohibited” (emphasis supplied). In Howell v. Howell, 137 S. Ct. 1400, 1405
(2017) the Court said of this provision that state courts lack the authority to vest the restricted

94a

benefits in anyone other, than the beneficiary. The Court earlier stated that this provision (then 38
U.S.C. § 3101) was to be liberally construed in the beneficiary’s favor and that the funds covered by
the provision are “inviolate”). Porter v. Aetna Casualty & Surety Co., 370 U.S. 159, 162 (1962).
Of course, it should be evident to anyone that a disabled veteran suffering from the brutal
psychological and physical injuries of war would be protected from voluntarily agreeing to
dispossess himself or herself of these necessary benefits. The provision has been described by the
Court as preventing “the deprivation and depletion of the means of subsistence of veterans dependent
upon these benefits as the main source of their income.” Rose v. Rose, 481 U.S. 619, 630 (1987).
See also Hines v. Lowrey, 305 U.S. 85, 90 (1938) (addressing Congress’s exercise of its enumerated
military powers to protect “all veterans, competent and incompetent, in all courts, state and federal”
from payment of fees from the benefits beyond that authorized by the statute). But, neither Appellee
nor this Court has to venture into the uncomfortable position of having to assess Kevin’s character
or speculate as to the extent and nature of the wounds he received in defense of the nation..
The powers of Congress in this realm are absolute. Only Congress can give state courts
authority, and therefore jurisdiction, to consider certain federally appropriated funds as divisible
property in state court divorce proceedings. There is no doubt that the preemption imposes upon
state courts a jurisdictional bar to proceed to a j udgment that would be in excess of the statutory
grants of authority to the state. Lowrey, supra, was cited by the Court in Kalb v. Feurstein. 308 U.S.
433, 440, nn. 11 and 12 (1940), which also followed the rule that a court cannot act in excess of the
jurisdiction and authority conferred upon it by federal law. “That a state court before which a
proceeding is competently initiated may - by operation of supreme federal law - lose jurisdiction to
proceed to a judgment unassailable on collateral attack is not a concept unknown to our federal
system." Id. at n. 12 (emphasis added).
This absolute prohibition in the context of “property” was established the moment the states
assented to surrender their sovereign authority over military affairs. “Whenever the terms in which
a power is granted to Congress, or the nature of the power, require that it should be exercised
exclusively by Congress, the subject is as completely taken from the State Legislatures, as if they
had been expressly forbidden to act on it.” Sturges v. Crowninshield, 17 U.S. (4 Wheat) 122, 193
(1819). State law that is preempted is simply “without effect”. Maryland v. Louisiana, 451 U.S. 725,
746 (1981). See also Gibbons v. Ogden, 22 U.S. 1,211 (1824).
2

95a

The Supreme Court s 2017 decision in Howell merely reaffirmed that the rule of absolute
federal preemption in this particular subject matter “still applies.” Howell, 137 S. Ct. at 1404. This
absolute preemption applies to all disability pay because such benefits are personal entitlements
actually intended to reach (and remain with) the beneficiary. The Court also reminded the states that
Congress’s grant of authority is “precise and limited” in this context because of its retained
supremacy in this area. Id. at 1404, citing Mansell, 490 U.S. at 589. There is no question that these
monies are of the restricted type because Congress, in this instance, has specifically said that the
limited authority Congress gave the states to divide military retirement pay do not apply at all to
combat-related special compensation (CRSC) 10 U.S.C, § 1413a(g). Finally, tire Court reiterated
that as to these particular benefits, 38 U.S.C. § 5301 applies to prevent states from vesting any rights
to these restricted monies.
While Edwards v. Edwards, 132 N.E.3d 391, 395 (Ind. App. 2019), transfer denied 138 NT..
3d 957 (20.19), did rule that res judicata would bar a challenge to the agreement in that case,
something undersigned counsel did not dispute in Kevin’s petition, the appellate court left in place
the trial courts ruling that federal law prohibited it from forcing the veteran to continue paying his
CRSC disability pay in accordance with an agreement that was clearly in contravention of federal
law. See Petitioner’s Writ, p. 21; Appellee’s Opposition, p. 7. Moreover, the Court did not address
the plain and unambiguous language of 38 U.S.C. § 5301(a)(3)(A) and (C), which prohibit such
agreements and makes them void from inception.
Appellee’s counsel also cites Gross v. Wilson, 424 P.3d 390 (Alaska 2018), as a post-Howell
example of a state court which held that a disabled veteran was bound to an agreement to divide
military benefits. See Appellee’s Opposition, pages 9-10. However, there are also significant
shortcomings with reliance upon that case. First, the court was not addressing combat related special
compensation (CRSC), which is at issue in this case. As pointed out in Kevin’s petition to this Court,
10 U.S.C. § 1413a(g), the federal source for CRSC benefits, specifically excludes them from
consideration as an available asset in state court divorce proceedings. See Petitioner’s Writ, pp. 12,
17. That subsection states, simply, that “payments under this Section are not retired pay.” Therefore,
CRSC is not considered a disposable military benefit within the meaning of 10 U.S.C. § 1408. DoD
Financial Management Regulations 7000.14-R, vol. 7B, ch. 63 (Oct. 2017), § 630101.C.1, p. 63-4).
Rather, it is disability pay. As all disability pay is afortiori excluded from the jurisdictional control
3

96a

of state courts, it cannot be the subject of a division of marital assets in divorce. Howell. 137 S. Ct.
at 1404, 1406 (stating that “McCarty [v. McCarty, 453 U.S. 210 (1981)] with its rule of federal
preemption, still applies” and “[t]he basic reasons McCarty gave for believing that Congress
intended to exempt military retirement pay from state community property laws apply a fortiori to
disability pay (describing the federal interests in attracting and retaining military personnel.")).
This leads to the second significant distinction in this case compared to Gross. CRSC pay is
affirmatively protected by the provisions of 38 U.S.C. § 5301. See, respectively, Adams v. United
States, 126 Fed. Cl. 645, 647-648 (2016) (stating CRSC benefits are “compensable under the laws
administered by the Secretary of Veterans Affairs”) and 38 U.S.C. § 5301(a)(1) and (a)(3)(A) and
(C) (respectively stating that “[p]ayments of benefits due or to become due under any law
administered by the Secretary shall not be assignable except to the extent specifically authorized by
law, and such payments made to, or on account of, a beneficiary shall be exempt.. .by or under any
legal or equitable process whatever, either before or after receipt by the beneficiary’” and that any
agreement by the beneficiary to dispossess himself or herself of the benefits is prohibited and “void
from its inception”) (emphasis added). Gross did not even address 38 U.S.C. § 5301.
In addition, both before and after Howell, many state cases have acknowledged the
jurisdictional limitations placed upon them in the context of property divisions when 38 U.S.C. §
5301 applies. See, e.g., In re Marriage of Hapaniewski, 107 111. App. 3d 848, 851-852 (111. App.
1982) (citing 38 U.S.C. § 3101 (renumbered as § 5301) and stating that this provision protects the
benefit that Congiess has said should go to the veteran and would cause an injury to Federal
interests which is forbidden by the supremacy clause”); Youngbluth v Youngblulh, 188 Vt. 53, 70; 6
A. 3d 677,688 (2010) (38 U.S.C. § 5301 jurisdictionally barred state courts from dividing prohibited
veterans’ disability benefits as property). Of course, after Howell, which reiterated 38 U.S.C. §
5301 ’s sweeping application to all veteran’s disability benefits, Courts that have applied this
provision in a manner commensurate with its breadth. See, e.g., Foster v. Foster,
N.W.2d

Mich.

:

.; 2020 Mich. LEXIS 687, *20-21 (Mich. 2020) (38 U.S.C. § 5301(a)(1) and (3)(A)

barred agreements by the veteran to dispossess himself of his CRSC disability pay); Foster v. Foster
---- Mich. App.----- ; 2020 Mich. App. LEXIS 4880 (2020) (applying the Michigan Supreme
Court’s application of 38 U.S.C. § 5301 and holding that federal preemption removed the subject
matter jurisdiction of the court to the extent that the parties’ agreement was one in which the veteran
4

97a

agreed to give up his federal disability pay (also CRSC) and holding that resjudicata and principles
of collateral estoppel did not bar the veteran’s challenge to the 2008 judgment).
Finally, while the Court of Appeals and the trial court made much of the fact that the reference
in the consent judgment was to an agreement by Kevin to pay “military retirement pay and/or
benefits , see Slip. Opinion at pp. 6-7 (emphasis added), and this could have arguably included
Kevin’s agreement to divide the CRSC benefits and, thus, the issue as to whether that language
applied to these benefits was “actually adjudicated”, this reasoning ignores the fact that federal law
preempts any attempt by a state court to characterize the benefits as disposable in state court
proceedings when federal law clearly provides that they are not. 38 U.S.C. § 5301 (a)(1) and (3)(A),
respectively. Regardless of the characterization, when the state makes a decision to sequester the
restricted benefits they make a decision that “displace^] the federal rule and stand[s] as an obstacle
to the accomplishment and execution of the purposes and objectives of Congress.” Howell, 137 S.
Ct. at 1406. Citing § 5301, the Court in Howell said simply that the state cannot “vest" that which
it has no authority to give. Id. at .1405.
Moreover, this provision, as with all veterans’ benefits legislation, is to be liberally construed
in favor of the beneficiary. Porter v. Aetna Casualty & Surety Co., 370 U.S. 159, 162 (1962)
(interpreting 38 U.S.C. § 3101 (renumbered as § 5301) and stating the provision was to be “liberally
construed to protect funds granted by Congress for the maintenance and support of the beneficiaries
thereof’ and that the funds “should remain inviolate.”). See also Henderson v. Shinseki, 562 U.S.
428, 441 (2011) (“provisions for benefits to members of the Armed Services are to be construed in
the beneficiaries’ favor”); Fishgold v. Sullivan Drydock & Repair Corp., 328 U.S. 275, 285 (1946)
(“legislation is to be liberally construed for the benefit of those who left private life to serve their
country in its hour of great need"). Relating these statutory restrictions back to the Supremacy
Clause, the Supreme Court in Ridgway v. Ridgway, 454 U.S. 46, 61 (.1981) stated that these
provisions:
[EJnsures that the benefits actually reach the beneficiary. It pre-empts ail
state law that stands in its way. It protects the benefits from legal process
“[notwithstanding] any other law. . .of any State’........ It prevents the
vagaries of stale law from disrupting the national scheme, and guarantees
a national uniformity that enhances the effectiveness of congressional
policy.... Id.
However the consent judgment might be construed, Kevin could not have agreed, under federal
law, to dispossess himself of his CRSC benefits. Any conclusion that he agreed to do this or that
5

98a

the state court could, through any equitable or legal doctrine like res judicata, conclude that he
agreed to do this, would be prohibited by 38 U.S.C. § 5301 ’s sweeping prohibitions.
CONCLUSION
In Howell, the Court was addressing state attempts to encroach on military benefits for a third
time in as many decades. McCarty and Mansell clearly expressed the absolute federal preemption of
state law in these cases. The travesty lies in the fact that disabled veterans, who have limited
resources and capacity, must consistently seek recourse in the United States Supreme Court because
50 different states have seemingly devised as many ways of defining out or getting around the
limitations imposed upon them by the Supremacy Clause, But, the Constitution “has presumed
(whether rightly or wrongly [the Court] does not inquire) that state attachments, state prejudices,
statejealouSies, and state interests, might sometimes obstruct, or control ...the regular administration
of justice.” Martin v. Hunter's Lessee, 14 U.S. 304, 347 (1816) (emphasis added). Of these
inevitable tergiversations, Justice Story there spoke of the “necessity of uniformity of decisions
throughout the whole United States, upon all subjects within the purview of the constitution.” Id. at
347-348.
Judges of equal learning and integrity, in different states, might differently interpret
a statute, or a treaty of the United States, or even the constitution itself: If there were
no revising authority to control these jarring and discordant judgments, and
harmonize them into uniformity, the laws, the treaties, and the constitution of the
United States would be different in different states, and might, perhaps, never have
precisely the same construction, obligation, or efficacy, in any two states. The
public mischiefs that would attend such a state of things would be truly deplorable;
and it cannot be believed that they could have escaped the enlightened convention
which formed the constitution.... Id. at 348.
In McCulloch v. Maryland, 17 U.S. 316 (1819), the Court spoke to the exercise by Congress of its
enumerated powers. Justice Marshall, writing for the majority, said: “[Tjhat the government of
the Union, though limited in its powers, is supreme within its sphere of action” is a “proposition”
that “commandfs]... universal assent....” Id. at 406. There is no debate on this point because “the
people, have, in express terms, decided it, by saying,” under the Supremacy Clause that “‘this
constitution, and the laws of the United States, which shall be made in pursuance thereof,’ ‘shall
be the supreme law of the land,'" and “by requiring that the members of the State legislatures, and
the officers of the executive and judicial departments of the States, shall take the oath of fidelity to
it.” Id. Marshall finished the point by citing to the last sentence of the Supremacy Clause:
j he government of the United States, then, though limited in its powers, is supreme;
and its laws, when made in pursuance of the constitution, form the supreme law of
6

99a

the land, “any thing in the constitution or laws of any State to the contrary
notwithstanding.” Id,
Of the lattei clause, Justice Story wrote that it was “but an expression of the necessary meaning of
the former (that the Constitution and laws made in pursuance thereof shall be supreme], introduced
from abundant caution, to make its obligation more strongly felt by the state judges” and “it
removed every pretence, under which ingenuity could, by its miserable subterfuges, escape from
the controlling power of the constitution.”

Story, Commentaries on the Constitution, vol II, §

1839, p 642 (3d ed 1858) (emphasis added).
For decades, disabled veterans have suffered immeasurably under wholly judicial creations
developed as exceptions to the explicit protections afforded them by Congress’s exercise of its
enumerated military powers. State theories of estoppel and the reliance interests of the parties have
been raised with a resounding clamor in an effort to prevent the self-evident and explicit preemptive
jaws from simply taking effect. But the swell of defiance does riot make these parties any more
correct, nor can it insulate state courts from the constitutional rights of those who seek to regain
and restore to themselves their earned entitlements. The passage of time and the din of dissension
cannot.erode the underlying structure guaranteeing the rights bestowed. The Supreme Court has
recently expressed this sentiment in overturning more than a century of reliance on erroneous legal
principles. McGiri v. Oklahoma, 140 S. Ct. 2452 (2020). There, Justice Gorsuch, writing for a
majority of this Court stated:
Unlawful acts, performed long enough and with sufficient vigor, are never enough
to amend the law. To hold otherwise would be to elevate the most brazen and
longstanding injustices over the law, both rewarding wrong and failing those in the
right. Id. at 2482.
The federal statutes and regulations passed pursuant to Congress’s enumerated military' powers
contain no allowance to the states to sequester the veterans’ disability benefits at issue in this case
and force them to be paid over to any other individual. Rather, these benefits are (and always have
been) explicitly excluded by statute from .state jurisdiction and control, before and after Howell.
Petitioner respectfully requests the Court to grant his petition so that this important issue of
federal law can be addressed by the highest court of the State of Louisiana.

7

100a

Respectfully submitted by:

Carson J. Tucker (Michigan Bar No. P62209)
PRO HAC VICK (admitted by correspondence dated August 5, 2020 - 20-PHV-334)
Lex Fori PLIX pm born for Trinity Advocates
1 17 N. First St., Suite 1 I !
Ann Arbor, Ml 48104
Phone: (734) 887-9261
Fax:(734) 887-9255
cj tucker@lexfori .org

David C. Hesser
Louisiana Bar Roll No. 23131
Hesser & Flynn, LLP
2820 Jackson St.
Alexandria, LA 71301
Phone: (318) 542-4102
Fax: (318) 442-4105
Attorneys for Petitioner / Applicant, Kevin Lee Boutte

Dated: A ugust 31,2020

8

101a

CERTIFICATE OF SERVICE

1 hereby certify that a copy of the above and foregoing Reply to the Opposition’s Brief has this
day, 31st day of August, 2020, has been served upon the following by U. S. mai l to the Judge,
Clerk, Third Circuit Court of Appeal and to Charles G. Blaize and Frederic C, Fondren, counsel
for Yvonne Boutteas follows:

Honorable C. Kerry Anderson
36lh Judicial District Court
Beauregard Parish
201 W Is1 Street
DeRidder, Louisiana 70634
Telephone; 337-463-7993
Facsimile: 337-463*9244
Mayhall Fondren Blaize
Charles G. Blaize
Frederic C:, Fondren
628 Wood Street
Houma, Louisiana 70360
Telephone: 985*223-4725
Facsimile: 985-851 -3069
Honorable Renee R. Simien
Clerk, Third Circuit Court of Appeal
1000 Main Street
Lake Charles, Louisiana 70615

/s/ David C. H.esser
David C. Hesser
Carson J. Tucker

9

102a

IN THE SUPREME COURT
STATE OF LOUISIANA
Docket No. 2020-C-00985

YVONNE RENEA BOUTTE, Respondent
VERSUS
KEVIN LEE BOUTTE, Petitioner / Applicant

Application for a Rehearing from Denial of Petition for Writ of Certiorari
from a decision of the Court of Appeals, Third Circuit, State of Louisiana
(Judges Conery, Savoie and Perry)
Docket No. 19-734,
affirming a decision of the
36th District Court for the Parish of Beauregard,
Civil Docket No. C-2010-1241-B, June 24, 2019
(Judge C. Kerry Anderson)

APPLICATION FOR REHEARING
FAMILY LAW MATTER

Respectfully submitted by:
Carson J. Tucker (Michigan Bar No. P62209)
PRO HAC VICE (20-PHV-334)
Lex Fori PLLC pro bono for Trinity Advocates
117 N. First St., Suite 111
Ann Arbor, MI 48104
Phone: (734)887-9261
Fax: (734) 887-9255
cjtucker@lexfori.org
David C. ITesser
Louisiana Bar Roll No. 23131
Hesser & Flynn, LLP
2820 Jackson St.
Alexandria, LA 71301
Phone: (318) 542-4012
Fax: (318) 442-4105
Attorneys for Petitioner/ Applicant, Kevin Lee Boutte

17

103a

TABLE OF CONTENTS
iii
1
6

TABLE OF AUTHORITIES..................
BRIEF IN SUPPORT OF REHEARING
CONCLUSION.......................................

li

104a

TABLE OF AUTHORITIES
Cases
Berberich v. Mattson,
903 N.W.2d 233 (2017)

5

Boone v. Lightner,
319 U.S. 561 (1943)

2

Brown v. Brown,
260 So. 3d 851 (2018).

4

Edwards v. Edwards,
132 N.E.3d 391 (Ind. App. 2019)

4

Fattore v. Fattore.
2019 N. J. Super. LEXIS 16 (N. J. App. 2019)

5

Fishgold v'. Sullivan Drydock & Repair Corp.
328 U.S. 275, 285 (1946).................................

1

Foster v. Foster III,
___Mich. App.___ ; 2020 Mich. App. LEXIS 4880 (2020)

5

Foster v. Foster,
505 Mich. 151; 949 N.W.2d 102 (2020).

5

Gibbons v. Ogden,
22 U.S. 1 (1824)....

2

Henderson v. Shinseki,
562 U.S. 428 (2011)....

1

Howell v. Howell,
137 S. Ct. 1400(2017)

1, 3, 4, 5

Hurt Jones-Hurt,
168A.3d 992 (2017)

5

In re Babin,
437 P.3d 985 (Kan. Ct. App. 2019)

5

In re Marriage of Cassinelli (On Remand),
20 Cal. App. 5th 1267(2018)..................... .

4

In re Marriage of Hapaniewski,
107 Ill. App. 3d 848 (Ill. App. 1982)

5

In re Marriage ofTozer,
410 P.3d 835 (2017)......

4

In re Merrill (On Remand),
Case No. 1991-092542 (March 1, 2018)

4

King v. King,
149 Mich. App. 495, 386N.W.2d 562 (Mich. App. 1986).

6

Mallard v. Burkart,
95 So.3d 1264 (Miss. 2012)

5
in

105a

Mansell v. Mansell,
490U.S. 581 (1989)

5

McCarty v. McCarty,
453 U.S. 210(1981)..

3

Porter v. Aetna Cas. & Sur. Co.,
370 U.S. 159(1962)....................

1,6

Ridgway v. Ridgwav,
454 U.S. 46 (1981)...

2,6

Roberts v. Roberts,
2018 Term. App. LEXIS 195 (Tenn. App. 2018)

5

Rostker v. Goldberg,
453 U.S. 57(1981):..

3

Rumsfeld v. Forum for Adad. & Inst’I Rights, Inc.
547 U.S. 47 (2006)'...................................................

3

Ryan v. Ryan,

257 Neb. 682; 600 N.W.2d 739 (Neb 1999)

5

Tarble ’s Case,
80 U.S. 397 (1871)

3

United States v. Comstock,
560 U.S. 126, 147(2010)...

3

United States v. Hall,
98 U.S. 343(1878)....

1,3

United States v. O ’Brien,
391 U.S. 367 (1968).......

3

United States v. Oregon,
366 U.S. 643 (1961)......

2,3

Vlach v. Vlach,
556 S.W.3d 219 (2017)

5

Wissner v. Wissner,
338 U.S. 655 (1950)

1

Youngbluth v. Youngbluth,
188 Vt. 53; 6 A.3d 677 (2010)

6

Statutes
38U.S.C. § 5301

1.4. 5. 6

Constitutional Provisions
3

U.S. Const. Art. I, § 8, els. 12-14

TV

106a

BRIEF IN SUPPORT OF REHEARING
Petitioner respectfully requests the Court to grant the herein Application for Rehearing from
its December 8, 2020 decision denying his Petition for a Writ of Certiorari, and to grant said
Petition to address this important issue of preemptive federal law. The issues in this case have not
been directly addressed by the State of Louisiana despite significant United States Supreme Court
jurisprudence and other state high court jurisprudence bearing on these issues. See Howell v.
Howell, 137 S. Ct. 1400 (2017).
The Court of Appeals stated it would consider the issues differently if there was a public policyprohibiting the agreement by Petitioner to dispossess himself of his federal veterans’ benefits.
There is a federal statute that expressly prohibits the agreement in this case. The United States
Supreme Court in Howell, supra, recently ruled that under 38 U.S.C. § 5301, state courts could not
allow the vesting of veteran’s disability benefits in anyone other than the veteran beneficiary. That
is Petitioner in this case.
This federal statute that expresses this public policy and preempts state law thereby' voiding
such agreements in which veterans are dispossessed of their protected disability benefits has been
in force and effect in some form or another since at least the 1820’s. United Slates v. Hall, 98 US.
343, 346-357 (1878) (canvassing the anti-assignment legislation applicable to military' benefits).
These provisions have established a consistent national policy protecting particular veterans’
benefits from “any legal or equitable process whatever.” 38 U.S.C. § 5301(a)(1) (emphasis
supplied). The United States Supreme Court has stated that this language applies to all orders or
agreements that would attempt to offset or otherwise redirect these funds to anyone other than the
statutorily allowed beneficiaries. See, e.g., Wissnerv. Wissner, 338 U.S. 655, 659 (1950) (state
court judgment ordering a “diversion of future payments as soon as they are paid by the
Government” was a seizure in “flat conflict” with the identical provision protecting military- life
insurance benefits paid to the veteran’s designated beneficiary).
Moreover, the Court has consistently stated that this provision is to be “liberally construed” to
protect the benefits from any depletion or dilution whatever, and considers these funds as
“inviolate.” Porter v. Aetna Cas. & Snr. Co., 370 U.S. 159, 162 (1962) (interpreting 38 U.S.C. §
3101 (renumbered as 5301)). Indeed, the Court has historically interpreted provisions protective
of veterans’ benefits liberally and broadly to ensure protection of the beneficiary in appreciation
1

107a

for his or her service to the nation. See, e.g., Henderson v. Shinseki, 562 U.S. 428, 441 (2011)
(“provisions for benefits to members of the Armed Services are to be construed in the beneficiaries’
favor”); Fishgoldv. Sullivan Drydock & Repair Corp., 328 U.S. 275, 285 (1946) ( “legislation is
to be liberally construed for the benefit of those who left private life to serve their country in its
hour of great need”); Boone v. Lightner, 319 U.S. 561, 575 (1943) (federal statutes protecting
servicemembers from discrimination by employers is to be “liberally construed to protect those
who have been obliged to drop their own affairs to take up the burdens of the nation”); United
Stales v. Oregon, 366 U.S. 643, 647 (1961) (stating “[t]he solicitude of Congress for veterans is of
long standing.”).
In fact, given this liberal interpretation, there appears to be no limit to its reach as applied to
the funds themselves. The Court in Ridgway v. Ridgway, 454 U.S. 46, 60-61 (1981), in countering
the oft-repeated contention that these provisions only apply to garnishments or attachments, stated
that the assertion “fails to give effect to the unqualified sweep of the federal statute." (emphasis
added). The statute “prohibits, in the broadest of terms, any ‘attachment, levy, or seizure by or
under any legal or equitable process whatever,’ whether accomplished ‘either before or after receipt
by the beneficiary.’” Id. at 61. Tying the statute back to the Supremacy Clause, the Court
concluded that:
[I]t ensures that the benefits actually reach the beneficiary. It pre-empts all state
law that stands in its way. It protects the benefits from legal process
“[notwithstanding] any other law. . .of any State’. ... It prevents the vagaries
of state law from disrupting the national scheme, and guarantees a national
uniformity that enhances the effectiveness of congressional policy. ...Id.
Finally, the Court of Appeals decision completely ignores and therefore usurps the Supremacy
Clause and the principle of federal preemption applicable to veterans’ benefits legislation. Despite
the Supreme Court’s unin terrupted jurisprudence holding federal law in this specific area preempts
ad state law that stands in its way, the effect of upholding the lower court’s decision is to reject
federal preemption, which this Court is not at liberty to do.
It is of no moment that the prior agreement might be subjected to res judicata or estoppel - the
statute prospectively protects the benefits due or to become due before or after receipt. Petitioner’s
ongoing payments are prohibited by federal law. The state must yield. Ridgway, supra, ruled that
state courts were prohibited from exercising any legal or equitable process to create equitable run­
arounds to a veteran’s choice to designate a specific recipient of his or her benefits upon death.
2

108a

Citing that part of Gibbons v. Ogden, 22 U.S. 1, 210-211 (1824), in which this Court declared the
absolute nullity of any state action contrary to an enactment passed pursuant to Congress’s
delegated powers and Free v. Bland, 369 U.S. 663, 666 (1962), the Court said: “[the] relative
importance to the State of its own law is not material when there is a conflict with a valid federal
law, for the Framers of our Constitution provided that the federal law must prevail.” Ridgway,
supra at 55.
This is because veterans benefits originate from Congress’s enumerated “military powers’’.
U.S. Const. Art. 1, § 8, els. 12-14. United States v. Oregon, 366 U.S. 643, 648-649 (1961); .
McCarty v. McCarty, 453 U.S. 210, 232-233 (1981). See also United States v. Comstock, 560 U.S.
126, 147 (2010), citing United States v. Hall, 98 U.S. 343, 351 (1878) and stating that “the
Necessary and Proper Clause, grants Congress the power, in furtherance of Art. I, § 8, els. 11-14,
to award ‘pensions to the wounded and disabled’ soldiers of the armed forces and their
dependents.”

Congress’s control over the subject is “plenary and exclusive” and “[i]t can

determine, without question from any State authority, how the armies shall be raised,...the
compensation...allowed, and the service...assigned.” Tarble 'sCase, 80 U.S. 397, 405 (1871). In
this particular subject, “[wjhenever...any conflict arises between the enactments of the two
sovereignties [the state and national government], or in the enforcement of their asserted
authorities, those of the National government must have supremacy....” Id.
The Court has acknowledged Congress’s powers in military affairs is “broad and sweeping.
United States v. O Brien, 391 U.S. 367, 377 (1968). No state authority will be assumed in general
matters of the common defense, unless Congress itself cedes such authority, or exceeds its
constitutional limitations in exercising it. Rumsfeld v. Forumfor Adad. & Inst’l Rights, Inc., 547
U.S. 47, 58 (2006). Congress has been given no “greater deference than in the conduct and control
of military affairs.” McCarty, supra at 236, ahngRostker v. Goldberg, 453 U.S. 57, 64-65 (1981).
Military or service-connected disability' pay falls under these same powers. Howell v. Howell,
137 S. Ct. 1400,1404, 1406 (2017) (McCarty with its rule of federal preemption, still applies” and
“the basic reasons McCarty gave for believing that Congress intended to exempt military
retirement pay from state community property laws apply a fortiori to disability pay (describing
the federal interests in attracting and retaining military' personnel.”)).

3

109a

The Court of Appeals indicated that it knew of no federal public policy that would vitiate the
rule regarding res judicata. However. Petitioner has demonstrated in his pleadings to this Court that
the applicable federal statute and the recent Supreme Court jurisprudence interpreting it is a veryprecise and limited federal expression of such policy. Moreover, its language applies to benefits that
are to be paid in the future - meaning it applies to prohibit future diversion of the funds. Further, as
pointed out, it directly forbids and prohibits contracts wherein the beneficiary agrees to dispossess
himself or herself of these monies. That is, the statute expressly makes such agreements contrary to
public policy as expressed in the federal legislation, proper. See 38 U.S.C. § 5301(a)(3)(A) and (C).
Such agreements are void from their inception, meaning res judicata would never apply.
The Supreme Court in Howell v. Howell, 137 S. Ct. 1400 (2017), most recently stated that this
provision prevents the state courts from allowing benefits to vest in anyone other than the beneficiary
and it cited 38 U.S.C. § 5301 as the applicable statute.
As has been established by state courts across the country, Howell, expressly held that federal
law nullified contractual agreements whether in community property states or elsewhere that
purported to effectuate a depletion of these monies in the hand of the beneficiary veteran. Alabama,
Brown v. Brown, 260 So. 3d 851, 857-858 (2018) (future contingency that former spouse might
receive less by way of former servicemember’s receipt of protected disability pay could not be
remedied by forcing the former servicemember through agreement or otherwise to continue making
payments on a property division that effectively required him to dispossess himself of the protected
monies); Arizona, In reMerrill (On Remand), Case No. 1991-092542 (March 7, 2018) (on remand
from the United States Supreme Court, see 137 S. Ct. 2156 (2017), holding state courts cannot
require indemnification for any financial losses resulting from one spouse’s waiver of retired pay to
receive veteran’s disability pay (CRSC) and Arizona, per Howell, was prohibited from treating as
community' property any monies that federal law protected, repeating the Court’s admonition in
Howell, supra at 1405 that per 38 U.S.C. § 5301 “State courts cannot vest that which (under
governing federal law) they lack authority to [give]”; California, In re Marriage of Cassinelli (On
Remand), 20 Cal. App. 5th 1267, 1274 (2018) (after remand from the United States Supreme Court,
138 S. Ct. 69 (2017) per Howell, the California Court of Appeals acknowledged that federal law
prohibits the courts from compensating the former spouse due to the loss of an interest in the former
servicemembers benefits and “the state lacked jurisdiction to treat” the CRSC as community
4

110a

property); Colorado, In re Marriage of Tozer, 410 P.3d 835, 838 (2017) (military retirement
disability benefits may not be divided as marital property', and orders crafted under a state court’s
equitable authority to account for the portion of retirement pay lost due to a veteran’s post-decree
election of disability benefits are preempted); Indiana, Edwards v. Edwards, 132 N.E.3d 391 (Ind.
App. 2019), transfer denied 138 N.E, 3d 957 (2019) (holding that resjudicata barred the challenge
to the prior agreement but that Howei! required the trial court to modify it so that the veteran would
not be required to continuing using his disability' benefits to pay his former spouse in the future);
Maryland, Hurt v. Jones-Hurt, 168 A.3d 992, 1001 (2017) (recognizing Howell’s effect was to
preempt state law remedies where a spouse’s marital award was reduced by a post-decree waiver of
military retirement pay in favor of disability benefits); Kansas, In re Babin, 437 P.3d 985, 991 (Kan.
Ct. App. 2019) {Howell “abrogate[ed] several cases dealing with property settlement agreements”
and “endorsed Mansell [v. Mansell, 490 U.S. 581 (1989)] and its restriction on using a property
settlement agreement to divide pay” and “overruled cases relying on the sanctity of contract to
escape the federal preemption.”); New Jersey, Fattore v. Fattore, 2019 N. J. Super. LEXIS 16 (N.
J. App. 2019) (same); Michigan, Foster v. Foster, 505 Mich. 151, 172-173; 949 N.W.2d 102(2020)
(38 U.S.C. § 5301(a)(1) and (3)(A) barred agreements by the veteran to dispossess himself of his
CRSC disability pay); Foster v. Foster 111,

Mich. App.

; 2020 Mich. App. LEXIS 4880

(2020) (applying the Michigan Supreme Court’s application of 38 U.S.C. § 5301 and holding that
federal preemption removed the subject matter jurisdiction of the court to the extent that the parties’
agreement was one in which the veteran agreed to give up his federal disability pay (also CRSC)
and holding that resjudicata and principles of collateral estoppel did not bar the veteran’s challenge
to the 2008 judgment because it was void from its inception per the federal law); Minnesota,
Berberich v. Mattson, 903 N.W.2d 233, 241 (2017) {Howell “makes clear that state courts ‘cannot
‘vest’ that which (under governing federal law) they lack the authority to give” and “overruled
[Minnesota] cases relying on the sanctity of contract to escape federal preemption”; “[s]implv put.
state laws are preempted in this specific area.”); Tennessee, Roberts v. Roberts, 2018 Tenn. App.
LEXIS 195, *22 (Tenn. App. 2018) (“Ilowetl casts substantial doubt as to whether state courts may
enter di vorce decrees of any kind in which the parties seek to divide any service related benefit other
than disposable retired pay), accord with Vlach v. Vlach, 556 S.W.3d 219, 224-225 (2017) (same

5

111a

rejecting both the contractual vested interest approach and the court-ordered reimbursement.
diversion or forced indemnity approach).
Even before Howell, state courts had ruled that they were jurisdictionally precluded from
treating veterans benefits protected by 38 U.S.C. § 5301 as divisible property. Illinois, In re
Marriage ofHapaniewski, 107 III. App. 3d 848, 851-852 (Ill. App. 1982) (citing 38 U.S.C. § 3101
(renumbered as § 5301) and stating that this provision protects the benefit that Congress has said
“should go to the veteran and would cause an injury to Federal interests which is forbidden by the
supremacy clause”); Mississippi,Ma//ardv. Burkart, 95 So.3d 1264, 1270-1273 (Miss. 2012) (same
citing cases); Nebraska,Ryan v. Ryan, 257 Neb. 682, 686-693; 600 N.W.2d 739 (Neb. 1999) (court:
exceeded its jurisdiction to the extent that divorce judgment divided prohibited veterans’ disability
benefits and order was void and subject to collateral attack and therefore res judicata did not apply);
Vermont, Youngbluth v. Youngbluth, 188 Vt. 53; 6 A.3d 677 (2010) (38 U.S.C. § 5301
jurisdictionally barred state courts from dividing prohibited veterans’ disability benefits as property
and stating that Mansell “makes it perfectly clear that the state trial courts have no jurisdiction over
disability benefits received by a veteran and courts may not do indirectly what it cannot do directly".
citing, inter alia, King v. King, 149 Mich. App. 495, 386 N.W.2d 562 (Mich. App. 1986)) (emphasis
supplied).
Here, the Court of Appeals did not address the plain and unambiguous language of 38 U.S.C.
§ 5301 (a)(3)(A) and (C), which prohibit such agreements and makes them void from their inception.
A void agreement never existed and therefore res judicata would not bar a challenge to its prejudice.
Moreover, as noted, this provision, as with all veterans’ benefits legislation, is to be liberally
construed in favor of the beneficiary>. Porter, supra.

However the consent judgment might be

construed, Petitioner could not have agreed, under federal law, to dispossess himself of his protected
CR.SC benefits. Any conclusion that he agreed to do this or that the state court could, through any
equitable or legal doctrine like res judicata, enforce such an agreement would be prohibited by 38
U.S.C. § 5301 ’s sweeping prohibitions.
CONCLUSION
Given the importance to veterans of the disposition of their federally protected disability
benefits in state court proceedings and the recent pronouncements of federal preemption applicable

6

112a

thereto by the United States Supreme Court, Petitioner respectfully requests this Court grant this
motion for rehearing and grant his petition for review of the lower court’s decision.

Respectfully submitted by:

Carson J. Tucker (Michigan Bar No. P62209)
PRO HAC VICE (20-PHV-334)
Lex Fori PLLC pro bono for Trinity Advocates
117N. First St., Suite 111
Ann Arbor, MI 48104
Phone: (734) 887-9261
Fax: (734) 887-9255
cj tu cker@I exfori. org

David C. Hesser
Louisiana Bar Roll No. 23131
Hesser & Flynn, LLP
2820 Jackson St.
Alexandria, LA 71301
Phone: (318) 542-4012
Fax: (318) 442-4105
Attorneys for Petitioner / Applicant, Kevin Lee Boutte

Dated: December 22, 2020

7

113a

No.

In tFje Supreme Court of tfje fHnftefc States!
Kevin Lee Boutte,
Petitioner
v.
Yvonne Renea Boutte,
Respondent.
On Petition for Writ of Certiorari
to the Supreme Court of the State of Louisiana
CERTIFICATE OF WORD COUNT
OF PETITION FOR A WRIT OF CERTIORARI
Carson J. Tucker, JD, MSEL
Counsel of Record
Lex Fori, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF WORD COUNT OF
PETITION FOR WRIT OF CERTIORARI
As required by Supreme Court Rule 33.1(h), and
Orders of this Court dated April 15, 2020, I declare
that the Petition for Writ of Certiorari to the
Louisiana Supreme Court being filed herewith is
8,950 words, excluding parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Respectfully submitted,

/l

U-

Carson J/Tucker
Lex For:q PLLC
Attorney for Petitioner
(734) 887-9261
Dated: July 9, 2021

No.

In t&e Supreme Court of t&e flHmteb &tatetf
Kevin Lee Boutte,
Petitioner,
v.
Yvonne Renea Boutte,
Respondent.
On Petition for Writ of Certiorari
to the Supreme Court of the State of Louisiana
CERTIFICATE OF SERVICE
OF PETITION FOR A WRIT OF CERTIORARI
Carson J. Tucker, JD, MSEL
Counsel of Record
Lex Fori, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF SERVICE OF PETITION
FOR A WRIT OF CERTIORARI
Pursuant to Supreme Court Rules and further
Orders of the Court dated April 15, 2020 undersigned
sent on the below date by first class mail and/or by
email if electronic service was consented to a copy of
Petitioner’s Petition for Writ of Certiorari to the
Supreme Court of Michigan in the above-captioned
case to counsel as follows:
ATTORNEYS FOR RESPONDENT:
CHARLES G. BLAIZE (#25575)
FREDERIC C. FONDREN (#23733)
MAYHALL FONDREN BLAIZE
628 Wood Street
Houma, LA 70360
Tel. (985) 223-4725
Fax (985) 851-3069

Respectfully^ubmitted,

l U U-

Carson iyTufcker
Lex Fort PLLC
Attorney for Petitioner
(734) 887-9261
Dated: July 9, 2021

